<html>
<title> - INTERNATIONAL POLAR YEAR</title>
<body><pre>[Senate Hearing 109-1160]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 109-1160

                        INTERNATIONAL POLAR YEAR

=======================================================================

                             JOINT HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                                and the

                     COMMITTEE ON FOREIGN RELATIONS

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2006

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
         Transportation and the Committee on Foreign Relations






<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>








                  U.S. GOVERNMENT PRINTING OFFICE
71-960 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
             Kenneth R. Nahigian, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director

                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
NORM COLEMAN, Minnesota              JOHN F. KERRY, Massachusetts
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
LAMAR ALEXANDER, Tennessee           BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
LISA MURKOWSKI, Alaska               BARACK OBAMA, Illinois
MEL MARTINEZ, Florida
                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 26, 2006...............................     1
Statement of Senator Murkowski...................................     2
Statement of Senator Stevens.....................................     1
    Letter, dated September 14, 2006, from Syun Akasofu, 
      Director, International Arctic Research Center--University 
      of Alaska Fairbanks........................................    25

                               Witnesses

Armstrong, Dr. Thomas R., Program Coordinator, Earth Surface 
  Dynamics, U.S. Geological Survey (USGS), Department of the 
  Interior.......................................................    59
    Prepared statement...........................................    61
Bell, Robin E., Ph.D., Doherty Senior Research Scientist, Lamont-
  Doherty Earth Observatory, Columbia University; Chair, Polar 
  Research Board, U.S. National Committee for International Polar 
  Year, Division on Earth and Life Studies, National Research 
  Council, The National Academies................................    27
    Prepared statement with attachments..........................    29
Bement, Jr., Dr. Arden L., Director, National Science Foundation.    10
    Prepared statement...........................................    12
Papp, Vice Admiral Robert, Chief of Staff, U.S. Coast Guard......    16
    Prepared statement...........................................    17
Parkinson, Alan J., Ph.D., Deputy Director, Arctic Investigations 
  Program, Centers for Disease Control and Prevention, Department 
  of Health and Human Services...................................    54
    Prepared statement...........................................    55
Sharpton, Dr. Virgil L. ``Buck'', Vice Chancellor for Research, 
  University of Alaska (UA) Fairbanks; UA President's Professor 
  of Remote Sensing..............................................    46
    Prepared statement...........................................    48
Treadwell, Mead, Chair, U.S. Arctic Research Commission..........     3
    Prepared statement...........................................     6

                                Appendix

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    75
Lautenberg, Hon. Frank R., U.S. Senator from New Jersey..........    75
National Oceanic and Atmospheric Administration (NOAA), 
  Department of Commerce, prepared statement.....................    76
Response to written questions submitted by Hon. Maria Cantwell 
  to:
    Dr. Arden L. Bement, Jr......................................    82
    Vice Admiral Robert Papp.....................................    80
Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    Dr. Arden L. Bement, Jr......................................    82
    NOAA.........................................................    84
    Vice Admiral Robert Papp.....................................    79
    Mead Treadwell...............................................    86
Response to written questions submitted by Hon. Frank R. 
  Lautenberg to:
    Dr. Thomas Armstrong and Dr. Virgil L. ``Buck'' Sharpton.....    86
    Robin E. Bell, Ph.D..........................................    83
    Dr. Arden L. Bement, Jr......................................    83
    Vice Admiral Robert Papp.....................................    80
    Mead Treadwell...............................................    86

 
                        INTERNATIONAL POLAR YEAR

                              ----------                              


                      TUESDAY, SEPTEMBER 26, 2006

  U.S. Senate, Committee on Commerce, Science, and 
Transportation, Meeting Jointly With the Committee 
                              on Foreign Relations,
                                                    Washington, DC.
    The Committees met, pursuant to notice, at 3:30 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee on Commerce, Science, and 
Transportation, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Chairman Stevens. My apologies for being late. Gentlemen, I 
do appreciate your being here. And we have had some questions 
from the press concerning why we're holding this hearing. I 
hope it will become apparent to them very quickly.
    And I'm delighted that Senator Murkowski has joined in this 
hearing. It is a joint hearing, with the Foreign Relations 
Committee and our Commerce Committee. You're the first Senator 
who was ever born in Alaska. So----
    Senator Murkowski. That's right.
    Chairman Stevens.--you're unique.
    As we all know, the Earth is changing, and these changes 
are happening in the polar regions faster than anywhere else in 
the world. The upcoming International Polar Year will be a 
critical opportunity for the world's science community to come 
together and study the climactic changes and impacts on the 
Arctic and Antarctic.
    We feel we have a vested interest, as Alaskans, in the 
findings of this IPY, because many of us--many of our people 
live above the Arctic Circle, and those who don't, live in the 
polar region anyway.
    The research that will be done will, we hope, enable us to 
make informed decisions on where we build schools, when and 
where subsistence hunts take place, and what to do to prepare 
for winter storms, or to, most importantly, determine what has 
to be done to help people who have already been affected by the 
changes that have taken place so far.
    Now, this third IPY aims to involve not only young graduate 
students, but K-12 students and indigenous people of the 
Arctic. It's my hope that the IPY will have a lasting impact, 
like that of the International Geophysical Year that took place 
almost 50 years ago.
    I look forward to the testimony you all are going to 
present today. Again, I'm sorry to be late. It's been sort of a 
strange day.
    Do you have a statement, Senator?

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you.
    I want to thank you, Senator Stevens, for agreeing to hold 
this hearing--as you note, a joint hearing with the Foreign 
Relations Committee today.
    You know, this is a pretty significant consideration, when 
we think of the international nature of IPY and, kind of, the 
interrelating or overlapping interests among so many different 
committees here in the Senate. So, again, I'm appreciative to 
have this opportunity with you today.
    Understanding the polar regions is obviously very important 
to us in Alaska. The fact that you have two-thirds of the 
Alaska delegation in attendance today should bear evidence to 
that.
    I would also like to note that Alaska will serve as the 
host of the 2008 Conference of the Standing Committee of 
Parliamentarians of the Arctic region. This is more commonly 
referred to as the Arctic Parliamentarians. I've had the 
pleasure of participating in this group as the U.S. 
Representative now for 2 years, and I can report that each of 
the delegates that I serve with is very much excited about the 
upcoming IPY. In fact--and the fact that the 2008 Conference 
comes on the tail end of IPY will give Alaska and the United 
States an opportunity to demonstrate all that has been, and is 
being, advanced through IPY.
    But, just as the interest from the Arctic Parliamentarians 
demonstrates, IPY isn't just about Alaska. It isn't just about 
the United States. This is truly an international effort, and 
that's what really makes it exciting--an international effort 
involving researchers, from over 60 countries, whose projects 
and data gathered over the next few years will have a--truly 
global impact.
    We're fortunate to have a talented group of scientists and 
polar-region experts with us today from all over the country, 
each of whom will play a key role in making IPY a success for 
the United States and for the rest of the world, and I want to 
thank all of you who have agreed to be with us today. I know 
several of you have come from extremely long distances, whether 
it's from the north or whether it's from Europe. So, thank you. 
We appreciate your close attention to this.
    With that, Senator Stevens, I'm prepared to move on to the 
first panel.
    Chairman Stevens. Yes, thank you very much.
    We have two panels, and roughly, I think, about an hour and 
a half-plus clearance from the floor, so again, we're delighted 
that you all would come and join us.
    And our first panel--our first witness will be Mead 
Treadwell, Chairman of the Arctic Research Commission. Mead, 
it's nice to see you here today, we appreciate your coming.

              STATEMENT OF MEAD TREADWELL, CHAIR, 
                U.S. ARCTIC RESEARCH COMMISSION

    Mr. Treadwell. Thank you, Senator Stevens, Senator 
Murkowski.
    On behalf of the Arctic Research Commission, thank you for 
holding this hearing. The more people who know about the 
exciting research going on in the polar regions during the 
International Polar Year, the more likely we are to see the 
legacy of a strong polar science program.
    Today, I'd like to address actions Congress may want to 
make, this session, that could make the IPY more successful. 
And I'll also speak to the legacies of IPY that Congress may 
want to help foster, which could mean a robust Arctic Research 
Program for years to come.
    The successful IPY will do more than gather vast knowledge 
in the next 2 years. With IPY, we should establish long-term 
monitoring networks and other science infrastructure, including 
the ship- and land-based research platforms and remote sensing 
technologies, to keep the knowledge coming. And within the 
government itself, IPY will help us focus on our goals in the 
Arctic, in science and in policy. The Commission believes we 
must use IPY to craft a more coordinated and sustainable long-
term Arctic Research Program.
    Mr. Chairman, Senator Murkowski, when I was designated 
chair by the President, there were two immediate calendar items 
that the Arctic Research Commission faces. First is the kickoff 
for IPY, next March. It is--we're committed to making this a 
successful broadening and strengthening of Arctic science in 
many places and many disciplines. It's cooperation across 
disciplines, between the poles, around the world, and will be 
involved in outreach, as Senator Murkowski has suggested many 
times. And with the Congress and within the Executive Branch, 
we're encouraging a level of funding and participation 
appropriate to this Nation's leadership in polar research.
    The second calendar item that we've got is, we owe you a 
Goals Report in January, and that Goals Report, which helps--is 
really the first draft of the Arctic Research Program, which 
the Interagency Arctic Research Policy Committee then vets and 
finalizes into an Arctic Research Program. And that committee 
is chaired by my colleague Dr. Bement, to my left. We are 
hoping that that plan next year looks at the long-term research 
and infrastructure needs that we have, and that that can be a 
legacy of IPY.
    Congress can work to make IPY a rousing success several 
different ways. First is getting the word out. We encourage you 
to have more hearings as IPY progresses. I've heard Senator 
Murkowski tell the science community several times, that we 
must share the excitement of exploration in polar regions. This 
is a risky and adventurous frontier with great rewards from 
solving its mysteries. We encourage you, in Congress, to visit 
the field during IPY to see the scientific work firsthand. IPY 
research will help human health, energy security, safer, 
sounder homes, and assist in sustaining traditional cultures in 
the north.
    Second, we're hopeful enough funds and encouragement will 
be provided to the other agencies to make sure we're able to 
fulfill our commitments. The Administration's current proposal 
for $62 million funding from NSF should be approved by Congress 
this year. It remains to be seen what the President and NSF 
will propose for next year, but if we're to move beyond 
fragmented and leveraged funding for IPY, that number should be 
significantly greater and should take into account the long-
term need for monitoring and data management.
    Two agencies under the purview of the Senate Commerce 
Committee, NOAA and NASA, could play a pivotal role in IPY. Mr. 
Chairman, I should say I was appointed by the President, and 
we're team players with the Administration, but, at the same 
time, based on statute, legislative intent, and our oath to 
support it, we're obliged to tell you in the Congress where the 
Arctic Program funding request may not effectively meet the 
Arctic--the Nation's Arctic Research Plan.
    The Commission is sad that NOAA has recently eliminated its 
Arctic office, reducing the visibility of its Arctic Research 
Program, and just prior to the IPY. It has also had significant 
budget reductions this year. But, nevertheless, there is a lot 
of work being done at NOAA in the Arctic. And those are 
detailed in my written testimony, and we can answer specifics 
and questions.
    At NASA, the pressure on the Earth Science budget is also 
well documented. Much of NASA's current Earth-sensing 
infrastructure is in polar orbits, meaning the coverage of the 
Arctic and the Antarctic is robust, but, therefore, at greater 
risk, with delays and cancellations of key remote-sensing 
systems.
    Japan's cooperation with the United States on Arctic 
research could be much more productive if work being done at 
the International Arctic Research Center in Fairbanks had 
greater NASA participation. And Congress could help make that 
happen.
    Further, this is a great time for Congress to stress to 
agencies that they identify their role in Arctic research and 
integrate their work with other agencies. And I'm glad to say 
that we're working closely with IARPC staff and the staff of 
OMB to make sure that you get what the law calls for, which is 
a unified Arctic research budget when the President's budget is 
submitted.
    The Arctic research budget has grown significantly in 
recent years. It's now approaching $400 million a year and has 
significant work going on in a variety of areas. At least 15 
Federal agencies support this work, and the program benefits 
from important partnerships with the State of Alaska, our 
Arctic neighbors, the European community, Korea, China, and 
Japan.
    Last, Congress may want to encourage a discussion about 
U.S. Arctic policy during IPY. The last time U.S. Government 
agencies sat down to comprehensively review Arctic policy was 
in 1994. And while the Presidential statement that survives 
that process is in force today, much has changed. We know much 
more about Arctic climate, and the change has brought 
imperatives in security, housing, infrastructure, 
transportation, and research.
    Recently, just this afternoon, the House held a hearing on 
a National Research Council study on icebreakers which called 
for the construction of two new Polar Class icebreakers. And 
that also requires a policy consideration.
    The Commission is working hard on issues, in terms of 
mapping of the Arctic Ocean floor, which relate to Article 76 
of the Law of the Sea. And what we learned through Arctic 
cooperation, whether through the Northern Forum, the Arctic 
Council, or by other mechanisms, is that there are 
opportunities for common development, common protection, and 
common exploration. The long-held goal of using the Arctic 
Ocean as a regular shipping route may be upon us soon, and 
other nations have recently held public examinations of their 
goals in the Arctic. And it's appropriate for us to do the 
same.
    Let me conclude by saying that our Goals Report, which will 
be delivered to you in January, will look at the infrastructure 
issues, the long-term legacies of Arctic research that's 
necessary. You'll hear about icebreakers, research vessels, 
submarines, satellites, and autonomous vehicles--underwater, in 
the air. There are a number of tremendous things happening and 
developing in improving Arctic research, but there's one key 
infrastructure legacy at the top of everyone's list. The U.S. 
will soon launch an Arctic Observing Network that must, and 
will, be one of the key legacies of IPY. It'll be a network of 
networks, actually, that will collect data in as close to 
realtime with standards of measurement across the Arctic. While 
the observation capabilities the U.S. supports in the field 
today may be enough to declare that we have the Arctic 
Observing Network going, the process of designing an improved 
system, identifying gaps, setting standards, and managing data 
has yet to take place. We urge the Congress to pay close 
attention as this process begins.
    As our explorers head to the field, I've heard Senator 
Murkowski say, several times, that it's up to them to share the 
excitement with the public. When I speak to kids about Arctic 
exploration, we've got lots to discuss. NASA's animation of 
receding ice cover, as seen from satellites in space, prompts a 
discussion not only of climate change and shipping routes, but 
whether the robot that took the picture had rockets in his 
shoes. Alaskans used to landing at runway 6 at Ted Stevens 
International Airport in Anchorage learned that it's now runway 
7, because the magnetic North Pole is constantly moving, and 
taking the Aurora Borealis with it. Reports of mid-ocean ridge 
spreading in the Arctic Ocean bottom have forced instructors to 
rewrite the textbook on plate tectonics, and recent coring near 
the North Pole has revealed organic rift sediments that could 
likely serve as source material for oil and gas deposits around 
the Arctic margin. And if you get no further than the freezers 
at the Institute of Arctic Biology at Fairbanks, you'll meet a 
number of sleeping ground squirrels. And what we've learned 
about them and hibernation may help in the fight against 
cancer.
    Mr. Chairman, there is much going on, and knowing about it 
stimulates further curiosity, further interest in exploration, 
and this discussion surely is to be continued.
    Thank you very much.
    [The prepared statement of Mr. Treadwell follows:]

             Prepared Statement of Mead Treadwell, Chair, 
                    U.S. Arctic Research Commission
    Mr. Chairman and Members of the Committees:
    On behalf of the U.S. Arctic Research Commission, thank you for 
holding this hearing. The more people know about the exciting research 
going on in the Polar Regions during the International Polar Year, the 
more likely we are to see the legacy of a strong polar science program.
    Today, I would like to address actions Congress may want to make 
this session that could make the International Polar Year more 
successful.
    I will also speak to the legacies of IPY the Congress may want to 
help foster, which could mean a robust Arctic research program for 
years to come.
    A successful IPY will do more than gather vast knowledge in the 
next 2 years. With IPY, we should establish long-term monitoring 
networks and other science infrastructure, including the ship- and 
land-based research platforms as well as remote sensing technologies, 
to keep the knowledge coming.
    Within the government itself, IPY will help us focus on our goals 
in the Arctic--in science and in policy. The Commission believe we must 
use IPY to craft a more coordinated and sustainable long-term Arctic 
research program.
Background on the U.S. Arctic Research Commission
    I have had the honor of serving on the U.S. Arctic Research 
Commission since 2001, and as Chair for less than 2 months. Six other 
Commissioners, whose names are listed on the cover of this testimony, 
also serve. This Commission, Mr. Chairman, reports to you in the 
Congress and to the President, on goals and priorities for the U.S. 
Arctic Research Program. With our counterpart, the Interagency Arctic 
Research Policy Committee, (IARPC), we work to see those goals 
accomplished. Much of that work is building cooperation--among U.S. 
agencies, universities, the State of Alaska, the private sector, 
indigenous and other Arctic residents, and other nations.
    Two immediate calendar items face the Commission.
    First is the kickoff for the International Polar Year. Within the 
Commission, we're committed to making this a successful broadening and 
strengthening of Arctic science in many places and many disciplines. It 
is cooperation--across disciplines, between the poles, around the 
world. We will participate in outreach. With the Congress and within 
the Executive Branch, we're encouraging a level of funding and 
participation in IPY appropriate to the Nation's leadership in polar 
research.
    Our Commission's second calendar item is a Goals Report due for 
delivery to the Congress and the President in late January, as 
specified by law. In formulating that Goals Report, Commissioners are 
focused on how we can ensure that the excitement of IPY results in 
long-term, sustainable legacies in Arctic research.
The International Polar Year
    The first International Polar Year was in 1882-1883. The last 
International Polar Year, in 1932-1933, helped inspire the first 
International Geophysical Year fifty years ago, in 1957-1958. The 
excitement surrounding this event was palpable, and while I recall 
little of my reading in second grade, I do remember an article in ``My 
Weekly Reader.''
    Last time around, IPY and its global counterpart, the International 
Geophysical Year, happened as the world entered the atomic age . . . 
the jet age . . . the space age . . . and soon, the digital age. The 
excitement of exploration--the assault on the unknown--was contagious. 
This time, we hope for a similar epidemic--a continuing thirst for 
knowledge.
    Whatever we gain in knowledge this time around, this IPY has 
important differences. Like never before, the IPY will involve the 
people who live in the Arctic. Political barriers that existed during 
the Cold War are behind us, and Arctic cooperation is strong. Physical 
access barriers are disappearing, not just with receding ice, but also 
with improved technology and navigation, at sea and in the air. 
Communication barriers to exploration and data collection have 
disappeared, with the availability of fiber networks and low-earth 
orbiting communications networks like Iridium phone and data systems 
that allow polar research to be conducted, literally, from afar. 
Barriers in scientific disciplines, and those between ``western 
science'' and traditional knowledge, are also fading. That trend 
suggests that the knowledge we get, in the end, will itself be more 
whole.
    Thus, we begin this IPY with the prospect that its real legacy will 
be a connected Arctic--one that will continue to reveal itself, know 
itself, and share its mysteries.
Immediate Actions the Congress May Take in Support of IPY
    There are two ways the Congress can help make the IPY a rousing 
success.
    First is getting the word out. We encourage you to have more 
hearings, as IPY progresses. I have heard Senator Murkowski tell the 
science community, several times; we must share the excitement of 
exploration in the polar regions. This is a risky and adventurous 
frontier, with great rewards from solving its mysteries.
    We encourage Members of the Congress to visit the field during the 
International Polar Year, to see the science firsthand, and to 
understand the value of what we're learning. Understanding the Earth's 
processes--and man's impact--is just the start. IPY research will help 
human health, energy security, safer, sounder homes, and will increase 
culture sustainability.
    We believe the U.S. will be well represented in IPY if appropriate 
funding is provided in several agency budgets. The Administration's 
current proposal for $62 million funding from NSF should be approved by 
the Congress this year. It remains to be seen what the President and 
NSF will propose for next year. If we are to move beyond fragmented and 
leveraged funding for IPY, that number should be significantly greater, 
and should take into account the long-term need for monitoring and data 
management.
    Second, we're hopeful that enough funds and encouragement will be 
provided to other agencies to make sure we are able to fulfill our 
commitments. Two agencies under the purview of the Senate Commerce 
Committee--NOAA and NASA--could play a pivotal role.
    Mr. Chairman, I was appointed by the President, and we are team 
players with the Administration. At the same time, based on statue, 
legislative intent, and our oath to support it, we are obliged to tell 
you and the Congress where the Arctic program funding requests may not 
effectively meet the Nation's Arctic Research Plan.
    NOAA has recently reduced its office, by eliminating the Arctic 
Program, and just prior to the IPY. Nevertheless, NOAA has a lot of 
work to do. Through negotiations on Capitol Hill in 1996, the Arctic 
Research Commission convinced Congress to establish an Arctic Research 
Initiative (ARI) within the budget of NOAA with the understanding that 
the ARI would be institutionalized as part of NOAA's annual budget 
request. Instead, the ARI, which provides funds for extramural research 
through a competitive process that is managed by CIFAR (the Cooperative 
Institute for Arctic Research), has been zeroed out in the past 2 
years. Additionally, the Joint Russian-American Long Term Census of the 
Arctic (RUSCALA), the result of the Memorandum of Understanding between 
NOAA and the Russian Academy of Sciences in 2003, is an on-going 
collaboration between U.S. and Russian scientists in the northern 
Bering and Chukchi Sea. Funds are needed for this program to make 
awards for proposals already competitively selected and approved by 
NOAA for work beginning in FY07 for the next major Russian-American 
cruise in 2008. Without the requisite commitments to such research 
infrastructure--so critical to mobilize--in light of the upcoming IPY, 
it will be difficult to ensure a strong U.S. presence in the 
initiative.
    NOAA funds sought for Arctic research in the coming year must 
support further construction of the Barrow Global Climate Change 
Research Facility. Funds provided must also support NOAA's leadership 
of the Arctic Council's Arctic Monitoring and Assessment Program, and 
NOAA's participation in the development of integrated monitoring 
networks. To make these things happen, the Arctic program of that 
agency--recently downgraded--needs more visibility and support.
    At NASA, the pressure on the Earth Science budget is well 
documented. Much of NASA's current Earth sensing infrastructure is in 
polar orbits, meaning that coverage of the Arctic and the Antarctic is 
robust, but therefore at greater risk with delays and cancellations of 
key remote sensing systems. Japan's cooperation with the United States 
on Arctic research could be much more productive if the work being done 
at the International Arctic Research Center in Fairbanks had greater 
NASA participation. Congress can help make this happen.
    Within our government, it is important to encourage each 
appropriate agency of the U.S. Government to participate in IPY. 
Further, this is a great time for Congress to stress to agencies that 
they identify their role in Arctic research and integrate their work 
with other agencies.
    Toward that end, Congress has called for an integrated Arctic 
research budget from Federal agencies since 1984, to be delivered in 
enough time for your analysis and ours from the Commission. The data 
call made this year, done only after Senator Murkowski's request, 
lacked input from several key agencies. I'm happy to report that the 
Commission, IARPC staff, and the staff of OMB are working together to 
solve this problem. We will try again this year to see that the budget 
presented to Congress in January clearly shows what we're up to during 
the IPY. And even though the requirement is in the law, we are helped 
in this process when Congress asks for the information.
    The Commission believes that knowing what we're doing--across the 
board--can promote much stronger cooperation.
    What we have learned so far is that our Nation's commitment to 
Arctic research has grown significantly in recent years. IARPC reports 
that the U.S. Arctic Research Program, with expenditures approaching 
$400 million a year, has significant work going on in a broad variety 
of areas. At least fifteen Federal agencies support this work, and the 
U.S. program benefits from important partnerships with the State of 
Alaska, our Arctic neighbors, the European Community, Korea, China, and 
Japan.
    The Commission, for much of the last decade, has worked to focus 
the U.S. Arctic Research Program on five key questions:

  <bullet> What is the changing climate of the Arctic, and how will it 
        affect the rest of the world?

  <bullet> What processes govern the world's richest fishery in the 
        Bering Sea?

  <bullet> What can be learned to enhance the health of Arctic 
        residents?

  <bullet> What are the vast resources of the Arctic that we own in 
        common?

  <bullet> What changes to Arctic infrastructure must we make in 
        response to changing climate?

    To answer these questions, the research community has responded 
with a set of integrated science programs, some of which are reflected 
in budgets sent to Congress, and some of which exist as less formal 
initiatives combining contributions from many sources.

  <bullet> SEARCH, the Study of Environmental Arctic Change, is the 
        Nation's integrated look at climate and environmental change in 
        the region. Funding is led by NSF, but agency contributions 
        come from a number of sources. Leadership exists both in the 
        academic community and in the government.

  <bullet> BEST, the Bering Ecosystem Study, is a part of SEARCH. It 
        focuses on the Bering Sea, and is just getting started under 
        NSF's leadership. The work of the North Pacific Research Board 
        is adding greatly to the capabilities of this science plan.

  <bullet> Arctic Health studies are coming together through a U.S. 
        initiative at the Arctic Council. Dr. Alan Parkinson, speaking 
        here today, can tell you how NIH and CDC are bringing a broad 
        base together to address very important questions, from 
        contaminants in the food chain to dealing with the high alcohol 
        and suicide problems in the Arctic populations.

  <bullet> The U.S. Geological Survey has taken the lead in the 
        Resource Assessment program called for in the U.S. Arctic 
        Research plan. Other agencies should join, and the Commission 
        is formulating specific recommendations in that area.

  <bullet> Infrastructure Research has no specific agency leader today, 
        and we hope yet for integration. Candidates to participate in 
        an integrated infrastructure research program include the Army 
        Corps of Engineers, the Department of Transportation, the 
        Department of Housing and Urban Development, the U.S. 
        Department of Energy, and the U.S. Geological Survey. The 
        Commission will be working with IARPC to bring this about.

    Lastly, Congress may want to encourage a discussion about U.S. 
Arctic policy during IPY. The last time U.S. Government agencies sat 
down to comprehensively review Arctic policy was in 1994. While the 
Presidential statement that survives that process is in force today, 
much has changed. We know much more about Arctic climate--and the 
change has brought imperatives in security, housing, infrastructure, 
transportation, and research.
    The world is looking to the Arctic much more now for its energy 
security. The Commission has recommended that new support for oil spill 
research programs, focusing both on prevention, detection, and 
response, become a national priority.
    Even as the Senate considers the Law of the Sea Treaty, the 
Commission believes we should move forward with the mapping of the 
Arctic Ocean floor which other nations have begun to claim under 
Article 76. Congress could help make the submarine platforms available 
to do it more quickly.
    What we've learned through Arctic cooperation, whether through the 
Northern Forum, the Arctic Council, or by other mechanisms, is that 
there are opportunities for common development, common protection, 
common exploration. The long-held goal of using the Arctic Ocean as a 
regular shipping route may soon be upon us. Other nations have recently 
held public examinations of their goals in the Arctic, and it is 
appropriate for the U.S. to do the same.
An IPY Legacy: Monitoring and Other Infrastructure
    At the U.S. Arctic Research Program, we believe the legacy of IPY 
should be long-term, sustainable infrastructure for Arctic research.
    As our past and present Commissioners deliberate with the science 
community on what research infrastructure is needed in the 21st 
century, there are a wide variety of needs.
    Just this afternoon, a House Committee was briefed on a new 
National Academy study on the Nation's needs for an icebreaker fleet.
    In our upcoming Goals Report, you will hear much from us about 
icebreakers, research vessels, submarines, satellites, and autonomous 
vehicles under water and in the air.
    The Bering Strait has been described as the ``choke point'' of the 
Arctic and yet support for oceanographic moorings (that monitor 
currents, temperature, salinity, various measures of productivity, and 
nutrient status) in both Russian and American waters are funded on a 
year-by-year basis and at present, hinges in part on funding for the 
Alaska Ocean Observing System (AOOS). As an integral part of the Arctic 
Observing Network, long-term support for the yearly recovery and 
deployment of moorings in the Bering Strait is an essential part of our 
IPY legacy and key to understanding how change will affect storm events 
in our coastal communities, marine mammal and fisheries resources so 
important to our citizens, as well as evolving transportation needs in 
the Arctic.
    We must sustain onshore research platforms in the Arctic, such as 
the Barrow Global Climate Change Research Facility, or Toolik Lake in 
the Brooks Range, or our cooperative facilities in Greenland, Russia, 
or Svalbard.
    Outside the Arctic, researchers rely on communications networks, 
supercomputers, ice core repositories, carbon-14 dating laboratories in 
Florida, and the National Ice Center here in Suitland, Maryland.
    Mr. Chairman, there is hardly a member of the Senate who does not 
represent facilities--and researchers--participating in the important 
work of Arctic research.
    But there is one key infrastructure legacy that is on the top of 
everyone's list. The United States will soon launch an Arctic Observing 
Network that must and will be one of the key legacies of IPY. It will 
be a ``network of networks'' actually, that will collect data, in as 
close to real time, with standards of measurement, across the Arctic. 
The ambition of such a network--nurtured by the very effective 
international cooperation which produced the Arctic Climate Impact 
Assessment 2 years ago in the Arctic Council--is strong.
    In the next few years, new technologies will bring datasets we 
collect once a year to us in real time. Hydrology, humidity, 
temperature, rainfall, winds, atmospheric gas composition, radiation, 
ozone, ice thickness, currents, salinity--information collected by many 
agencies in many places--will be more prolific, more immediate, and 
most important, more organized.
    While the observation capabilities the U.S. supports in the field 
today may be enough to declare that we have the AON going, the process 
of designing an improved system, identifying gaps, setting standards, 
and managing data has yet to take place. We urge the Congress to pay 
close attention as this process begins.
    On so many key issues today, the Arctic is a bellwether for the 
globe. With suitable support, this could be an excellent and early 
working system of the networks envisioned as part of the Global Earth 
Observing System of Systems (GEOSS). It supports the goals, as my 
fellow Commissioner Dr. Charles Vorosmarty wrote, of the American 
Competitiveness Initiative.

        ``Mobilizing and harmonizing major land, water, air, and space-
        based observing systems across the pan-Arctic would also be an 
        important vehicle to entrain the U.S. private sector, 
        stimulating innovation through technology along the lines of 
        the American Competitiveness Initiative. The use of 
        miniaturized, state-of-the-art sensors provides an interesting 
        focal point private sector engagement. Training the next 
        generation of scientists and engineers also provides critical 
        long-term support to the ACI.

        ``What Congress could do: Call for an assessment (through the 
        National Academies Polar Research Board) of U.S. science and 
        technology capabilities in this realm with the express aim of 
        uniting academic, agency and private sector partners; stimulate 
        private investment in instrumentation, data broadcast 
        technologies, supercomputing, new mathematical and statistical 
        approaches; commit to make appropriate instrumentation 
        purchases . . .''

Exploration Under IPY: the Human Legacy
    As our explorers head to the field, I've heard Senator Murkowski 
say several times, it is up to them to share the excitement with the 
public.
    When I speak to kids about Arctic exploration, we've got lots to 
discuss. NASA's animation of receding ice cover, as seen from 
satellites in space, prompts a discussion not only of climate change 
and shipping routes, but whether the robot that took the picture had 
rockets in his shoes.
    Alaskans, used to landing at runway 6 at Ted Stevens International 
Airport in Anchorage, learned that it is now runway 7 because the 
magnetic North Pole is constantly moving, and taking the Aurora 
Borealis with it.
    Reports of mid-ocean ridge spreading in the Arctic Ocean bottom 
have forced instructors to rewrite the textbook on plate tectonics, and 
recent coring near the North Pole has revealed organic-rich sediments 
that could likely serve as source material for oil and gas deposits 
around the Arctic margin.
    If you get no further than the freezers at the Institute of Arctic 
Biology at Fairbanks, you will meet a number of sleeping ground 
squirrels. What we've learned about them may help in the fight against 
cancer.
    Mr. Chairman, there is much going on, and knowing about it 
stimulates further curiosity, further interest in exploration. This 
discussion, surely, is to be continued . . .
    Thank you very much.

    Chairman Stevens. Thank you, Mead. It's going to be a 
stimulating period, there's no question about that.
    Our next witness is Dr. Arden Bement, Director of the 
National Science Foundation.
    Doctor, it's nice to have you with us again.

   STATEMENT OF DR. ARDEN L. BEMENT, JR., DIRECTOR, NATIONAL 
                       SCIENCE FOUNDATION

    Dr. Bement. Thank you, Chairman Stevens and Senator 
Murkowski, for the opportunity to testify on the upcoming 
International Polar Year and how NSF and our sister agencies 
are addressing this important opportunity.
    Fifty years ago, the Third International Polar Year and 
International Geophysical Year entranced American's youth and 
galvanized America's innovative powers. That effort left a 
permanent legacy ranging from scientific Earth satellites to 
the development of a generation of world-class scientists and 
engineers whose interest in research was piqued by news 
coverage of polar research. NSF has equally high aspirations 
for the upcoming International Polar Year. We intend to create 
a legacy of infrastructure and data for future generations of 
scientists. We also intend to expand international cooperation. 
And, finally, we hope to engage the public in polar discovery 
and help attract and educate the next generation of scientists 
and engineers.
    The impacts of climate change on northern peoples--and, 
more generally, on ecosystems and polar environments--strongly 
motivate a broader focus than that of the last IPY. Thus, NSF 
will emphasize three scientific themes, coupled with education 
and outreach activities.
    The extremes of polar environments provide unique 
opportunities to advance our understanding of how organisms 
adapt to climate extremes, how they have evolved, at the 
genomic level, and how gene expression depends on the physical 
environment. The development of a circum-Arctic Observing 
Network, or AON, will provide the missing data essential to 
faithfully model and predict Arctic climate change. 
Multinational investigations of changes in the Earth's great 
ice sheets will improve our understanding of how these affect 
global conditions, including global sea level.
    NSF's Office of Polar Programs and the Director for 
Education and Human Resources have already funded nine truly 
outstanding and creative projects in education and public 
outreach that will launch our IPY efforts in great style. The 
second round of projects will be funded early next year.
    To fulfill the IPY leadership role assigned to NSF by OSTP, 
we are cooperating with other Federal agencies. NSF and NASA 
are working to coordinate ground-based and space-based 
observations in order to provide a comprehensive body of 
benchmark data. NASA has initiated discussions with space 
agencies around the world to bring the worldwide satellite 
fleet to bear on this effort.
    A circum-Arctic system requires active collaboration with 
countries around the Arctic Rim. NSF has already developed 
strong links with Norway, Sweden, Germany, and Russia to bring 
their activities to bear on AON. We are working actively with 
the European Polar Board and the Canadian officials to build 
IPY partnerships.
    In response to the recommendations of the Arctic Research 
Commission, NSF is now working closely with the Northern 
Pacific Research Board. We are aligning our Bering Sea 
Ecosystems Program with NPRB's related studies and with NOAA's 
long-term Bering Sea fisheries management activity. Through 
these combined efforts, we aim to understand the response of 
the Bering Sea ecosystem, the most productive fishery in the 
U.S., to environmental change; most notably, to reductions in 
seasonal sea ice.
    Barrow was a key station in the first IPY, and we 
anticipate it will be, again. U.S. contributions to an Arctic 
Observing Network activity are expected to include Barrow's new 
Global Climate Change Research facility, and investments to 
improve a safe and effective year-round research capability to 
the University of Alaska's Toolik Field Station.
    NSF places high priority on securing funding to build a new 
ice-strengthened ship to serve research needs in the waters 
around Alaska. Subject to appropriations in Fiscal Year 2007, 
construction will begin during the IPY. Designated the Alaska 
Regional Research Vessel, the ship will conduct scientific 
research cruises year-round in waters of the Gulf of Alaska and 
southern Bering Sea, and, in the summer, as far north as the 
Chukchi and the Beaufort Seas, during minimal ice cover.
    Chairman Stevens and Chairwoman Murkowski, earlier I 
mentioned the educational legacy created by IPY 50 years ago. 
The current IPY effort has even greater potential. By linking 
the public's fascination with things polar to outreach into 
museums, homes, and classrooms that conveys the excitement of 
research and discovery, we can attract a new generation of 
Americans into science and engineering careers, while 
contributing to a more informed public.
    Thank you both, again, for providing an opportunity to 
highlight NSF's role in the upcoming International Polar Year, 
and I would be pleased to answer any of your questions.
    Thank you.
    [The prepared statement of Dr. Bement follows:]

       Prepared Statement of Dr. Arden L. Bement, Jr., Director, 
                      National Science Foundation
    Thank you, Mr. Chairman, for the opportunity to testify before the 
Committee concerning the upcoming International Polar Year (IPY) and on 
how the National Science Foundation (NSF) and our sister agencies are 
addressing this important opportunity. Our job is to enable U.S. 
scientists and educators to realize these opportunities, opportunities 
that members of today's distinguished panel will be speaking to in more 
detail.
    We intend for the International Polar Year period--which has been 
declared by the International Council of Science (ICSU) and the U.S. 
National Academies (NAS) to be from March 2007 through March 2009--to 
explore new frontiers in polar sciences; improve our understanding of 
the critical role of the Earth's polar regions in global processes; 
create a legacy of infrastructure and data for future generations of 
scientists; expand international cooperation; engage the public in 
polar discovery; and help attract and educate the next generation of 
scientists and engineers.
    Fifty years ago, the Third International Polar Year and 
International Geophysical Year (IPY-3/IGY) entranced America's youth 
and galvanized America's innovative powers in ways that created a 
legacy that lives on today. That legacy ranges from scientific Earth 
satellites to the development of a generation of world-class scientists 
and engineers who drove our knowledge-based economy forward for the 
next half-century.
    Advances in instrumentation and technology, the realization that 
polar regions are critical in the changing global climate system, and 
linkages among international research organizations offer opportunities 
for breakthrough developments both in fundamental disciplinary science 
and in science for policy during IPY. In addition, the impacts of 
climate change on northern communities, and more generally, on 
ecosystems in polar environments strongly motivate a broader focus than 
the last IPY had. The NSF tradition of linking research and education 
offers the further opportunity to engage America's youth in this period 
of discovery and awaken them to the excitement of a career in science 
and engineering.
    In his introduction to the ``American Competitiveness Initiative, 
Leading the World in Innovation,'' President George Bush stated that a 
``well-educated and skilled work force is the bedrock of America's 
competitiveness.'' U.S. institutions of higher learning remain the envy 
of the world, but the global economy has greatly increased the 
competition for the best and brightest students. America must ensure 
that its best and brightest young people give appropriate consideration 
to careers in science and engineering and that they take advantage of 
the fact that ours is the most open educational system in the world. 
NSF, its sister agencies, and IPY have a key role to play in achieving 
this goal.
    NSF has been tasked by the White House Office of Science and 
Technology Policy to provide leadership for the U.S. in IPY. And, the 
agency is poised to do exactly that, both domestically and on the broad 
international stage. We have worked closely with our colleagues in 
other Federal agencies and with the NAS to that end over the last two 
and a half years. Back in July 2004, I was pleased to be invited to 
deliver the keynote address at a meeting organized by the three 
Presidents of the NAS that was devoted to IPY planning. With your 
permission, I would like to enter my remarks for the record. As I said 
then, and I quote:

        Both the National Academy of Sciences and the International 
        Council of Science have made a compelling case for why we 
        should launch an international polar year in 2007. NSF is in 
        full agreement. In the polar regions, we are discerning the 
        outlines of environmental change, from sea ice extent, 
        retreating glaciers, shifting patterns in flora and fauna, to 
        environmental observations by Arctic natives.

        What is more, such change--whether environmental, biological, 
        or social--has implications for the rest of the globe. Polar 
        change ripples across the planet on a spectrum of time scales, 
        through the atmosphere, oceans, and living systems.

        We do not yet fully understand the causes of what we are 
        observing. Now is the time to change this, for new tools make 
        possible the needed observations and synthesis. They range from 
        satellites to ships to sensors, and from genomics to 
        nanotechnology, information technology, and advances in remote 
        and robotic technologies.

    The NAS subsequently conducted a year-long study to develop a 
Vision for the International Polar Year, one that would take advantage 
of the broad expertise of the U.S. scientific community; position the 
U.S. for world leadership in IPY; and most importantly, create a long-
term legacy that would not otherwise exist. This Vision is providing a 
framework for IPY planning among the Federal agencies. It was developed 
under the leadership of Dr. Mary Albert of the U.S. Army Cold Regions 
Research and Engineering Laboratory in Hanover, New Hampshire, and I 
believe my colleague on the panel, Dr. Robin Bell, will outline its 
recommendations in more detail. Robin chairs the NAS/National Research 
Council (NRC) Polar Research Board that oversaw the work of Mary's 
committee. They both have earned our continuing gratitude and 
congratulations.
    In exercising NSF's leadership role, I also convened several 
meetings of the policy-level officials to discuss IPY planning. These 
activities resulted in a report we provided to the Congress last year 
and a number of agencies have taken the opportunity to update their 
sections of the report for this hearing. With your permission, Mr. 
Chairman, I would like to submit a copy for the record and mention a 
few highlights.
    NASA is holding discussions with space agencies around the world to 
organize a coordinated program to map the polar regions using today's 
sophisticated satellites. NSF and NASA are working together to 
coordinate space- and ground-based observations in order to provide 
future generations of scientists and others with a comprehensive body 
of benchmarked data. These data will greatly increase our ability to 
discern change on a regional basis--a basis that relates directly to 
the different environments in which people work and live.
    The Department of Commerce's National Oceanic and Atmospheric 
Administration (NOAA) and NSF are developing atmospheric, land and 
ocean-based environmental monitoring capabilities that will be key 
components of the planned circum-Arctic Observing Network (AON), which 
will significantly enhance our observing capability in the Arctic 
Region beyond that currently available. Data from this AON will enable 
the U.S. multi-agency program SEARCH--the Study of Environmental Arctic 
Change--developed under the Interagency Arctic Research Policy 
Committee to get a handle on Arctic environmental change. We discuss 
specific U.S. investments later.
    Here, too, the NAS have helped significantly with an NSF-funded 
study of how best to implement AON. A circum-Arctic system requires 
active contributions from countries around the Arctic rim. We have 
already developed strong links for coordination with the $30-million 
European program called DAMOCLES; have initiated discussions with our 
Canadian colleagues; and have joined with Norway, Sweden, Germany, and 
Russia in establishing an office in St. Petersburg to assist with 
linking Russian activities to AON. NOAA has led an effort to build 
U.S.-Russian Federation collaboration in ocean and polar region 
studies, as highlighted by the Russian American Long Term Census of the 
Arctic RUSALCA program. This will be a key U.S.-Russian component of 
the IPY. NOAA, in collaboration with NSF, also leads the U.S. 
participation in the IPY International Arctic System for Observing the 
Atmosphere, which began as a grass roots international activity under 
the IPY umbrella that now has the potential to provide the climate 
component of AON.
    Responding to the recommendations of the Arctic Research 
Commission's Goals Report, which I'm sure Mr. Treadwell will mention in 
more detail, NSF is now working closely with the Northern Pacific 
Research Board (NPRB) to align our Bering Sea Ecosystem Program (BEST) 
with NPRB's related studies, as well as NOAA's long-term Bering Sea 
fisheries management activity. Through these combined efforts we aim to 
understand the response of the Bering Sea ecosystem, the most 
productive fishery in the U.S., to environmental change, most notably, 
reductions in seasonal sea ice.
    I would like to note that plans have been underway for several 
years for construction of a new ice-strengthened ship that would serve 
research needs in the waters around Alaska. NSF has assigned high 
priority to securing funding to build this ship, and subject to 
appropriation of funding in Fiscal Year 2007, construction will begin 
during the IPY. Designated the Alaska Regional Research Vessel (ARRV), 
it would likely be operated by a university as a UNOLS vessel. It would 
replace the Alpha Helix, and like that ship, it would conduct research 
cruises year round in waters of the Gulf of Alaska and southern Bering 
Sea. And in the summer, the ARRV would travel as far north as the 
Chukchi and Beaufort Seas during minimum ice cover.
    Additional IPY efforts by NOAA, NASA and other sister agencies are 
described in the attached document entitled, ``The International Polar 
Years 2007-2009.''
    NSF's Office of Polar Programs (OPP) and the Directorate for 
Education and Human Resources (EHR) combined to jumpstart IPY 
preparations by committing $12 million from their FY06 appropriations 
to a special IPY proposal solicitation. The solicitation drew a very 
strong response from U.S. scholars; taken together the proposals 
requested over $150 million in the four focus areas (three science 
areas and education).
    We chose to focus on areas that, for one reason or another, needed 
extra lead time for preparation and that would represent a good start 
toward realizing the NAS/NRC Vision. The NSF merit review of the 
education proposals was completed just a few days ago, and the results 
exemplify the creativity and the enthusiasm of our educators and 
scientists. I expect to be able to announce the results from the three 
research areas by the end of October. Meanwhile, the Program Officers 
overseeing the merit review process tell me the quality of the 
proposals is outstanding.
    Building on this excellent FY06 start, NSF Program Officers from 
the Agency's disciplinary directorates are working with OPP to 
formulate how best to respond to IPY opportunities in FY07 and FY08. On 
the basis of their work, the Administration requested $62 million in 
FY07. And, I'm very happy that both Houses of Congress have signaled 
their agreement with our IPY agenda.
    The strong partnership created with EHR in developing the FY06 
solicitation is the very first legacy of IPY; it will ensure an 
effective outreach and education effort throughout the upcoming 2 years 
and well into the future. A strong partnership with the NSF's Office of 
International Science and Engineering (OISE) is enabling rapid 
development of new international links, as well as a strengthening of 
existing ones.
    IPY planning by the Biological and Social, Behavioral, and Economic 
Sciences Directorates and studies by the NAS/NRC have identified an 
exciting group of leading-edge research subjects in biology and the 
social sciences, ones that with strong IPY support and focus could 
create 21st century legacies. The Geosciences Directorate and OPP have 
a long history of joint cooperation for proposals, and IPY provides a 
strong basis for developing new partnerships in key focus areas such as 
climate studies. The Mathematical and Physical Sciences Directorate and 
OPP have an outstanding partnership in astrophysics at the South Pole, 
another excellent IPY building block. Thus, there is great potential 
for creating legacies through research achievements, a new generation 
of American scientists and engineers, and new networks of international 
collaborations.
    The aforementioned solicitation identified three science themes and 
a strong education focus as key investment areas for special emphasis 
during FY06. These themes will be developed further during FY07 and 
FY08. A cross-directorate working group is evaluating the extent to 
which the original focus areas will have been addressed by the FY06 
solicitation, and how they can be broadened to address more of the 
Vision developed by the NAS. NSF and the Office of Management and 
Budget will soon discuss how to address these focus areas in the FY08 
budget request to Congress.
    The first of these research themes addresses climate change in the 
Arctic by contributing to building the circum-Arctic Observing Network 
(AON) that I mentioned earlier. This program was organized under the 
direction of the U.S. Interagency Arctic Research Policy Committee 
chaired by the NSF Director and involves partnership with NOAA, NASA, 
DOI, DOE, NIH, DOD, USDA, and the Smithsonian Institution.
    During the past few decades, the Arctic has experienced significant 
environmental changes that could have broad-reaching consequences for 
human and animal populations in the form of impacts on local 
ecosystems, as well as on global climate. One example is that winter 
sea and river ice--for centuries used by northern communities to 
facilitate hunting and transportation and more recently for industrial 
development--have become useable for shorter and shorter periods with 
less predictability. Warmer winter temperature minimums have lead to 
the spread of pests. For example, Spruce Bark Beetles once thrived only 
in the lower 48 U.S. states, but now have become a threat to more 
northerly communities by killing large stands of forest and increasing 
the risk of significant fire damage to communities and habitats. But 
new opportunities are also emerging. For example, significantly reduced 
summer sea-ice minimums might mean that the Arctic finally becomes the 
summer sea-transportation route once sought by early explorers.
    The AON will provide a network of observations that will facilitate 
this understanding of the profound change that is occurring in the 
Arctic in a global context. To achieve this goal, Cyberinfrastructure 
(CI) will need to be developed to provide interoperability between the 
various elements of the observing network, seamless broadband 
communications capabilities at the poles, data storage and archive 
capabilities, and timely access to data--particularly for input into 
large-scale coupled models. This initiative will not only support the 
Foundation's broader CI interests, it also supports the broader 
Administration goal of developing a Global Earth Observing System 
(GEOS). The Chairman need not be reminded that Barrow was a key station 
in the first IPY, and we anticipate it will be again. U.S. 
contributions to a pan-Arctic AON activity are expected to include 
Barrow's new Global Climate Change Research facility and investments to 
provide a safe and effective year-round research capability to the 
University of Alaska's Toolik Field Station.
    A second broad theme addresses research on what we're calling 
``Life in the Cold and Dark.'' Relatively recent developments in 
instrumentation and technology offer the opportunity to study the 
mechanisms by which organisms adapt to the climate extremes they face 
in polar environments, how they have evolved at the genomic level and 
how gene expression depends on the physical environment. A recent NAS 
report, ``Frontiers in Polar Biology in the Genomics Era,'' outlines 
the opportunities and challenges, and describes the ecological 
relevance and research benefits of these tools of modern biology. The 
Life in the Cold and Dark theme also encompasses research on the 
interactions between living and physical systems at all levels and 
brings together researchers trained in the biological and social 
sciences.
    The last International Polar Year in 1957-1958 focused almost 
entirely on physical science but IPY 2007-2009 will be different. Many 
northern languages are now spoken by only small numbers of elderly 
people and NSF will partner with the National Endowments for the 
Humanities in the U.S. and with Canada and other countries in 
sponsoring work to document those endangered languages in Alaska and 
throughout the Arctic.
    NSF-supported research also will address issues associated with 
environmental change that are of critical importance to people living 
in the North. These studies, sponsored jointly by NSF and NIH, will 
seek to determine not only what causes change and predicting it more 
accurately, but also how change allows infectious diseases to move into 
new areas where vulnerability is high because the people and wildlife 
will not have developed resistance to the novel pathogens that will be 
moving into these regions.
    The third broad theme addresses changes in the Earth's great ice 
sheets, changes that could have profound impacts on global conditions 
including global sea level. Recent data indicate that the Greenland Ice 
Sheet is thinning at the edges but thickening at the center. Some ice 
streams draining the West Antarctic Ice Sheet have slowed while at 
least one other is accelerating. Relatively small changes in the mass 
balance of these ice sheets can raise global sea level significantly 
while complete loss of the West Antarctic Ice Sheet would raise global 
sea level by over five meters. Furthermore, a combination of ground-
based, airborne, and satellite observations shows that surface melt 
water can penetrate the ice sheet at thicknesses of a kilometer and 
accelerate flow beyond previously suspected rates. Research supported 
by NSF, NASA and other agencies under this theme will combine with work 
supported by many other countries to develop a much more complete 
understanding of the behavior of these ice sheets and how changes in 
this behavior might evolve. The theme will also address further studies 
of ice sheet changes that occurred over geological time and the causes 
and effects of those changes.
    The overall scientific impact of IPY will only become apparent 
through synthesis activity that brings together results from disparate 
research groups addressing different aspects of these broad themes. NSF 
recognizes the critical importance of funding workshops and related 
activities to that end, and will do so well beyond the end of the two-
year IPY period.
    The education focus has the potential to create a legacy for the 
decades, one that will benefit the Nation as well as the science and 
engineering community more specifically. By linking the public's 
fascination with things polar to outreach that conveys the excitement 
of research and discovery, we hope to attract a new generation of 
Americans into S&E careers while contributing to a more informed 
public.
    With the jumpstart provided by the EHR/OPP FY06 solicitation, NSF 
will enter the IPY period well-placed to make major impacts during the 
ensuing two-year period. A multi-year outreach and education strategy 
will have substantially greater impact than one limited to a single 
year, while the international collaborations that can greatly enhance 
the reach and impact of NSF-supported research will also hinge on 
continued support.
    While our outreach and education strategy will be focused on U.S. 
students, parents and families, we recognize that IPY also brings the 
opportunity to demonstrate to them how research and understanding can 
result when people from many nations work together on problems of 
global interest. The many international scientist-to-scientist 
collaborations now under development will help us carry that story to 
our public and to others around the world.
    Indeed, part of the IPY impact will be the enduring partnerships 
established among scientists in the over 30 countries that have 
signaled their intention to provide funding for IPY activity. Countries 
around the world have seized on the 50 year anniversary of IPY-3/IGY to 
create a new legacy of scientific understanding and a new generation of 
scientists and engineers. We understand that Canada has committed $150 
million over 6 years to its IPY effort, Korea--$150 million, Japan--
$460 million for a new icebreaker, and China--$60 million for 
infrastructure and research. Among the EU commitments, one exceeds $30 
million for a project closely linked to the U.S. IPY centerpiece 
addressing climate change in the Arctic.
    The 1957-1958 International Polar Year culminated in an 
international meeting in Washington, called by the State Department, to 
frame what became the Antarctic Treaty. As President Nixon noted in 
1970, ``. . . the Antarctic is the only continent where science serves 
as the principal expression of national policy and interest.'' The 
State Department plans to host the annual meeting of the Antarctic 
Treaty Consultative Parties in 2009, which will spotlight the historic 
diplomatic achievement by the Treaty Parties 50 years ago. We expect 
this new IPY to create a further legacy of international partnerships 
in the interest of advancing scientific research and understanding.
    The U.S. research community is poised to provide worldwide 
leadership throughout IPY, and NSF is committed to enabling that to the 
best of our ability.

    Chairman Stevens. Thank you, Doctor Bement. I'm sure we're 
going to see a lot of each other in the years ahead here now, 
but this is a very important function we're going to commence.
    Our next witness is Vice Admiral Robert Papp, the Chief of 
Staff of the U.S. Coast Guard.
    Admiral?

            STATEMENT OF VICE ADMIRAL ROBERT PAPP, 
                CHIEF OF STAFF, U.S. COAST GUARD

    Admiral Papp. Thank you, Mr. Chairman. Good afternoon. And, 
Senator Murkowski, good afternoon to you, as well. Thank you 
for including the Coast Guard in this hearing this afternoon. 
It's my pleasure today to discuss the Coast Guard's role in the 
International Polar Year.
    I'd like to submit my full statement for the record and 
follow on with just a few brief comments.
    Chairman Stevens. Yes, all statements will be printed in 
full in the record. I noticed the others have abbreviated 
theirs, too, but we appreciate your courtesy.
    Admiral Papp. Thank you, sir.
    The Coast Guard's committed to providing support to the 
scientific community during the IPY to make it a success. We've 
always maintained a presence in the Arctic, since 1867, when 
President Andrew Johnson dispatched one of our cutters to 
research and chart the waters of the Alaska coastline, while, 
at the same time, enforcing United States sovereignty and laws, 
and ensuring the safety of Americans in that newly acquired 
territory.
    Coast Guard missions to support safety, security, and 
stewardship, as well as sovereignty in the Arctic and 
Antarctic, have been continuous and sustained over the decades. 
And in 1964, President Lyndon Johnson directed the Coast Guard 
to become the sole agency with responsibility for Federal 
icebreaking resources. That role was reaffirmed in 1990 by a 
Presidential declaration, and then validated recently in the 
Coast Guard Roles and Missions Study of 1999. Put simply, the 
United States Coast Guard has the authority, the experience, 
and the capabilities to support and sustain operations in the 
polar regions.
    Now, in terms of capabilities, 50 years ago four Wind-Class 
Coast Guard icebreakers supported the U.S. efforts in the Third 
International Polar Year and International Geophysical Year. 
Coast Guard icebreakers also participated in the first 
Operation Deep Freeze, in 1956, which established U.S. presence 
on the Antarctic continent. Today, one heavy icebreaker, the 
POLAR SEA, remains to support the U.S. Antarctic program 
resupply effort. Her sister ship, POLAR STAR, is in caretaker 
status, and would take up to 18 months to reactivate. One 
medium Coast Guard polar icebreaker, HEALY, remains to provide 
scientific and icebreaking support in the Arctic.
    The Coast Guard is committed to working with the science 
community and other Federal agencies to provide the support 
needed to make the upcoming IPY a success. In accordance with 
our existing Memorandum of Agreement, we'll support the 
National Science Foundation and other agencies, as requested 
and as funded.
    Thank you for the opportunity to testify before you today, 
and I'd be delighted to answer your questions.
    [The prepared statement of Admiral Papp follows:]

            Prepared Statement of Vice Admiral Robert Papp, 
                    Chief of Staff, U.S. Coast Guard
Introduction
    Good afternoon Chairman Stevens, Chairman Lugar, Senator Inouye, 
Senator Biden, and distinguished Members of the Committees. It is my 
pleasure to appear before you today to discuss the Coast Guard's role 
in the International Polar Year (IPY). The International Council of 
Science (ICSU) and the U.S. National Academies have stated that the 
goals of the International Polar Year (March 2007 through March 2009) 
are: to explore new frontiers in polar sciences; improve our 
understanding of the critical role of the Earth's polar regions in 
global processes; create a legacy of infrastructure and data for future 
generations of scientists; expand international cooperation; engage the 
public in polar discovery; and help attract and educate the next 
generation of scientists and engineers.
    Fifty years ago, four Wind Class Coast Guard icebreakers supported 
U.S. efforts in the Third International Polar Year and International 
Geophysical Year. Coast Guard polar icebreakers also participated in 
the first Operation Deep Freeze in 1956, which established a stable 
U.S. presence on the Antarctic continent by forging a path through the 
challenging Antarctic ice belt, allowing a U.S. naval task force to 
establish permanent bases at McMurdo and the South Pole. Today, one 
heavy Coast Guard polar icebreaker, the Cutter POLAR SEA, remains to 
support the U.S. Antarctic Program re-supply effort; the other heavy 
polar icebreaker, the Cutter POLAR STAR is in caretaker status and 
could be available for use with approximately 18 months advance notice, 
due to extensive maintenance requirements. In the Arctic Region in 
1957, the U.S. Coast Guard successfully sent the Cutters STORIS, 
BRAMBLE, and SPAR through the Northwest Passage to determine the 
feasibility of an emergency Defense Early Warning (DEW) line shipping 
support route. Today, one medium Coast Guard polar icebreaker, the 
Cutter HEALY, remains to provide science and icebreaking support in the 
Arctic.
    Since 1956, the Coast Guard has been a regular presence in the 
polar regions. Significant historical events have been the catalyst 
that influenced national polar policy decisions. These events have 
included: the purchase of Alaska; World War II; the Cold War; the 1956-
1957 International Geophysical Year; the Antarctic Treaty; and the oil 
crises of the 1970s. In addition to the planned IPY events, recent 
focus on issues such as the 1982 Law of the Sea Convention, increasing 
world-wide demand for natural resources, changing shipping patterns 
driven by a global economy, recent severe ice conditions in the 
Antarctic, and changes in Arctic sea ice have fueled U.S. debate on 
national polar policies and associated resource needs.
    These recent and developing polar issues, coupled with U.S. 
interests in both polar regions, demand heightened awareness of our 
national polar missions. In particular, the United States must consider 
the increasing international initiatives in the Arctic. Thus far, the 
Arctic has witnessed a growing foreign polar presence in and more 
frequent and assertive international claims on the Arctic.
    The National Science Foundation (NSF) has been tasked by the White 
House to provide leadership for the U.S. in the IPY. As the Federal 
agency charged with providing all U.S. polar icebreaker needs, the 
Coast Guard is committed to working with the NSF, the science 
community, and other Federal agencies to provide the support needed to 
make the upcoming IPY a success. The NSF and other Federal agencies 
have had general discussions with the Coast Guard about using polar 
icebreakers for the upcoming IPY, but have not made any specific 
requests outside of annually planned polar icebreaker activities in the 
Arctic and Antarctic.
Coast Guard Polar Icebreakers
    The Coast Guard polar icebreaker fleet currently consists of the 
cutters POLAR SEA, POLAR STAR and HEALY. The POLAR SEA and POLAR STAR 
were built and commissioned in the 1970s and are nearly thirty years in 
age. The HEALY was commissioned in 1999 and has been actively 
supporting annual Arctic research deployments ever since. Unlike the 
older Polar class ships, HEALY was designed from the keel up as a 
science platform, with due consideration of Coast Guard multi-mission 
capabilities as well. Due to the harsh and remote polar environment and 
operating procedures for polar icebreakers, all of these vessels 
require durable marine engineering features in order to withstand years 
of colliding with sea ice (typically having the characteristics of 
concrete, found twenty feet thick or more, and at temperatures as low 
as negative 60+F). The unique environment in which polar icebreakers 
operate, coupled with their significant operating requirements, make 
the vessels inherently costly to operate and maintain.
Conclusion
    The Coast Guard is committed to working with the science community 
and other Federal agencies to provide the support needed to make the 
upcoming IPY a success. In accordance with our existing Memorandum of 
Agreement (MOA), we will support the National Science Foundation, and 
other agencies' IPY efforts as requested and as funded. Thank you for 
the opportunity to testify before you today. I will be happy to answer 
any questions you may have.

    Chairman Stevens. Thank you very much, Admiral.
    Mead, you say that there's already mapping going on, on the 
floor of the Arctic Ocean?
    Mr. Treadwell. Yes, sir. In fact, the mission that the 
HEALY was doing when the two crew members were killed this 
summer was a mapping mission. The Appropriations Committee has 
provided for that, for a couple of years now.
    We actually believe that the United States should develop 
an overall mapping plan for the extended Outer Continental 
Shelf, and we're glad to be participating in a workgroup that 
the Department of State has had on developing this proposal.
    The idea of having a claim available for--U.S. claim, under 
Article 76, Law of the Sea, is one of the drivers. A scientific 
driver is that it--while you've got the platforms out there, 
you're learning much, much more, as well.
    We believe it's important to have the robust icebreaker 
platforms for this work, and, also, we've recommended 
reinstating the use of submarine platforms also to support this 
work.
    Chairman Stevens. Admiral, we're all familiar with the loss 
of your people up there, and we do express our regret about 
that. Is this--is Mead right? Were they part of a mapping 
program up there?
    Admiral Papp. Yes, sir, that's what they were involved in. 
They had to terminate that early, as you know, and return, to 
deal with the deaths of the crew members, and then return to 
home port for--to, sort of, recalibrate the crew. When that 
will be rescheduled, a continuation of that project, remains 
uncertain, at this time.
    Chairman Stevens. How expensive is that program of mapping, 
at this time?
    Admiral Papp. I'm not sure how much that program costs, 
sir. We get the money to operate the ship and take it out on 
the missions. NSF provides us the funding for that. And I'm not 
sure what the cost of that program is.
    Chairman Stevens. Now, have we outlined mapping the whole 
part of the Arctic adjacent to our State--Arctic Ocean adjacent 
to our State?
    Admiral Papp. I don't know that, sir. We've been dealing in 
parts of that. I think probably NSF has a better handle on that 
than we do.
    Chairman Stevens. What do you know about it, Dr. Bement?
    Dr. Bement. Yes. Senator, there are cartographic activities 
under the AON initiative, and in order to do the whole survey 
of the Arctic Ocean, that would be a multi-year activity that 
wouldn't be completed during IPY, but there would be a good 
start. And that would be an important area of research to 
sustain in the years after IPY.
    Chairman Stevens. Well, let me apologize for my ignorance, 
but I would assume that could have been done digitally by the 
equipment we have. Do we have to have divers to do that? 
Admiral?
    Dr. Bement. Well, I can't answer, on the operational 
aspects of how that would be done.
    Admiral Papp. No, sir, we don't have--the only reason we 
carry divers on our icebreakers is for emergency procedures. If 
there's something wrong, they become fouled in the ice, or if 
there are equipment problems, we can put down divers to inspect 
the hull, or, at times, if we have equipment--for instance, if 
we're using a remotely operated vehicle to do some sort of work 
underneath the ice, if there are some problems with the 
equipment, we can put our divers down for that. But the divers 
are provided only for emergency circumstances.
    Chairman Stevens. Mead--my last question--you assume that 
there's going to be some cooperation in preparing a proposed 
plan for this IPY, as it affects the Arctic, in general, and 
our state, in particular, as far as Federal agencies are 
concerned?
    Dr. Bement. Yes, sir. We do have an updated plan. It's 
updated, as of September 18. And it includes activities in the 
Fiscal Year 2007 request. And we'd be glad to present that, for 
the record.<SUP>*</SUP>
---------------------------------------------------------------------------
    \*\ The information can be found at http://www.nsf.gov/od/opp/ipy/
ipy_rept_us_fed_
agency_planning.pdf.
---------------------------------------------------------------------------
    Chairman Stevens. I'd be pleased to have it. Have you made 
submissions on that, Mead?
    Mr. Treadwell. If you're talking to me--addressing me, 
Senator, the Arctic Research Commission, every other year, 
publishes a Goals Report. That Goals Report is referred to the 
Congress and the President, and then the Interagency Arctic 
Research Policy Committee takes that report and revises the 5-
year Arctic Research Plan. The United States Arctic Research 
Program, we hope, basically runs against the plan that the 
IARPC prepares.
    In my written testimony, Senator, I referred to five key 
goals that were in our last Goals Report that were in the plan, 
two of which are very good programs underway, the SEARCH 
program and the BEST program, which is just getting started. 
You'll hear, from Dr. Parkinson later this afternoon, about the 
first, really, interagency initiative on health. And we're 
seeing some gaps in the others. But I can say, just as an 
affirmative answer to your question, we are hoping that by the 
time we bring a Goals Report back to the Congress this winter, 
that that will stimulate a discussion of legacies of IPY 
throughout the Government.
    Chairman Stevens. Well, when did you submit the last Goals 
Report?
    Mr. Treadwell. The last Goals Report was submitted probably 
the end of January 2005.
    Chairman Stevens. Thank you.
    Senator Murkowski?
    Senator Murkowski. Thank you.
    Admiral, I just want to make sure that I understand the 
situation with the icebreakers. You say the POLAR STAR is in 
this caretaker status. So, for purposes of this upcoming IPY, 
we can assume that it will not be available for any research 
that might be associated. Is that correct?
    Admiral Papp. We have no plan for it to be available, 
Senator. It's laid up right now, and our estimate is it would 
take probably up to 18 months to reactivate the ship, at a cost 
of probably about, roughly, $25 million.
    Senator Murkowski. And then, the POLAR SEA is the one that 
will be available down in the Antarctic. So, would that be 
available at all in the Arctic regions, or is that exclusively 
down south?
    Admiral Papp. POLAR SEA's mission tasking is going to be 
for the Antarctic resupply mission, and she has had some money 
put into her to extend her anywhere from about 4 to 8 years. We 
did the sustainment repairs that we would--that I was talking 
about for the POLAR STAR. We accomplished that on POLAR SEA. 
That should keep her running at least 4 to 8 more years. And we 
envision her primarily used for the Antarctic resupply mission.
    Senator Murkowski. So then, for any IPY activities in the 
northern region, what we're looking at as the only available 
icebreaker, then, is the HEALY? And will they be able to handle 
anything that comes to them, as directed by NSF?
    Admiral Papp. Yes, ma'am. That's the standard operation for 
the HEALY, is the Arctic operations in support of NSF. HEALY's 
back in port now, will be going through some minor repairs and 
a dry-docking in the upcoming months, and then we'll prepare it 
for the next season, and she will be devoted solely to the 
support of NSF and the IPY.
    Senator Murkowski. OK, thank you.
    Doctor, in your testimony--and both you and Mr. Treadwell 
both spoke to the legacy of IPY, and this is something that--I 
really look forward, Mead, to the report coming out, and 
further discussion about the specifics of the legacy and how we 
make this happen, because it's one of those things--we do great 
research, we have great things happening, but, at the end of 
the International Polar Year, everyone's done and goes off on 
their respective ways. We want to know that the legacy is in 
place, whether it's through the socioeconomic effect on some of 
our indigenous people, infrastructure, whether it's roads or 
facilities. We want to see that. And, Doctor, you've spoken to 
the educational legacy and an effort underway now to do an 
education and public outreach. What types of programs is NSF 
looking at right now for purposes of funding? And what kind of 
prioritization do you go through for that?
    Dr. Bement. Well, we give this very high priority. I can 
talk about what NSF has currently funded, but I should also 
point out that we're coordinating activities with other Federal 
agencies, so that's--the overall effort will be larger than 
what I'll represent. And I should also point out that this is 
also international in scope, so our international partners are 
also involved. In fact, almost all the grants that we have 
issued to date have strong international participation. But we 
issued nine grants, based on a current solicitation this year, 
to jumpstart public outreach and education four are in the area 
of informal education that would involve museums, the media, 
bringing the experience of polar research into the classroom 
and into the home. Three of them are in formal education, at 
the graduate and undergraduate level, that deal with the 
development of new courses and also involving broadening 
participation of minorities. Two of them are in the K-12 area 
and will involve students and teachers actually working with 
researchers in both the Arctic and the Antarctic. And some of 
this work will be brought to bear on teacher training, teacher 
involvement, broadly. And so, we think that is a good spectrum 
of activities to begin with, but I should point out we'll be 
doing a second solicitation next year, and we expect to have an 
additional spectrum of activities that will deal with both 
public outreach and education.
    Senator Murkowski. What efforts will be made to make sure 
that you are working with the Alaskan native community?
    Dr. Bement. Almost everything that we do in Alaska, from a 
research point of view, and also from the social studies point 
of view, will involve Native Alaskans. I should mention another 
project that we have with the National Endowment for the 
Humanities, which is focused on capturing endangered languages. 
There are about 52 native languages in Alaska, and half of 
those will disappear in another year or two. So, we're working 
very actively--in fact, I think we have a grant with the 
University of Alaska in Anchorage--to help not only document 
those languages, but understand the culture and the history 
that's embedded in those languages.
    Senator Murkowski. Well, we recognize that we have some 
challenges in education, the traditional education, 
particularly out in some of our remote areas, and to know that 
you can make science come alive, that you can make languages 
come alive by the kids being the researchers, the kids being 
the scientists. I mean, I think we've got some opportunity here 
to help you, but to also help so many in our State.
    It has been mentioned, certainly by Mead, and by you, as 
well, the reality of multiple agencies, and then you throw in 
over 60 different countries that you're dealing with. Can you 
let me know how we're doing, in terms of the interagency 
cooperation? Is it working? What do we need to be doing to make 
it flow better, if it's not flowing well?
    Dr. Bement. Well, today we've had several high-level 
meetings. One meeting at the policy level was held last year. 
And it was during those meetings that we began to formulate the 
identification of all the activities that each of the agencies 
are going to be engaged in and begin cross-correlating, through 
interagency cooperation, to see that we get highest leverage of 
those activities, especially to--with regard to the two major 
activities identified by the Arctic Research Commission--
namely, the AON, the Arctic Observing Network, and also the 
Bering Ecological Study, of the Bering Sea. Those two are very 
critical. And its not only important that we get a good start 
during IPY, but we also advocate for sustainability of those 
activities so that they become stronger over time.
    Senator Murkowski. Again, going to that legacy concept that 
everyone's talking about.
    Mr. Treadwell, you had mentioned in your testimony some of 
this fragmented funding and some of the issues associated with 
that. We certainly look forward to this unified Arctic research 
budget. I think that will certainly help. I think getting this 
Goals Report, as it comes due, is going to be--going to be very 
important for all of us. But as far as the funding issues that 
you have mentioned, you have--perhaps it's just politically 
correct language, but in your testimony, you say, ``a level of 
funding and participation appropriate to the Nation's 
leadership in polar research.'' Do you have any idea what you 
figure the appropriate level might be?
    Mr. Treadwell. Well, Senator Murkowski, I don't have a 
specific number in mind. I don't think the Commission has 
discussed a specific number. And, in fact, if you track the 
number that IARPC has collated for Arctic research over the 
past several years, the Arctic research budget level of the 
Government has grown, it's now approaching $400 million.
    Where we're concerned--and, as I mentioned in my 
testimony--we're concerned that some of the goals that were 
adopted last time, after our Goals Report two years ago, 
haven't been funded as yet, and also that some of the 
programs--I mean, there is a general concern in the science 
community that NOAA, by closing its Arctic office, so to speak, 
is moving in the wrong direction.
    Senator Murkowski. Is NOAA's perspective, if you will, that 
it's a funding issue, and it's not for lack of interest in the 
Office of Arctic Research?
    Mr. Treadwell. I don't think it's for lack of interest. I 
mean, the jobs that NOAA has taken on are tremendous. They 
basically coordinate the international work on the AMAP program 
through the Arctic Council, the monitoring program. They are 
responsible for this mapping project that we talked about, all 
of the funding for the Barrow Climate Change Research Facility 
that--you know, I expect you to be involved in a ribbon-cutting 
for that sometime this spring--is coming through NOAA. The--
NOAA is responsible for the--I believe it's the RUSCALA 
program, but--the U.S./Russian cooperation on studies in the 
Bering Sea, which is a very important window, given the access 
problems that all of our researchers have with Russia. And to 
have all of these NOAA responsibilities that they've taken on, 
and they're appropriately taking on, at the same time to see 
the budget reductions, is just a difficulty.
    Senator Murkowski. Well, then how do we get these agencies, 
whether they're NOAA or whether it's NASA, to get excited about 
what we've got going with the potential for IPY so that they 
are able to move forward with those goals that have been set 
out?
    Mr. Treadwell. I think we can both ask.
    Senator Murkowski. We'll keep asking.
    You mentioned the kickoff for the International Polar Year 
for March 2007. And, Doctor, this might also be a question for 
you. Do we have anything planned for the kickoff? Is there 
anything that we're looking at doing? Should we be focusing on 
that right now? That's coming up soon.
    Dr. Bement. The one thing that we're trying to schedule, at 
the present time, is a White House event on or at the time of 
the beginning of IPY, which will be next March. We would also 
like to have major events both at the--in the Arctic and the 
Antarctic, and certainly in Alaska. We would like to be 
involved in a kickoff in Alaska.
    I should also mention, going back to the Barrow Global 
Climate Change Research Facility, we recognize the importance 
of that facility to support researchers who are going to be 
doing research in that area, especially in connection with AON, 
and their greatest need is going to be for cyberinfrastructure 
and also for communications and data management tools, because 
the amount of data that's going to be generated in the Arctic 
is going to be enormous, especially in Alaska. So, we have put 
in change orders during the construction of the building to 
incorporate cabling and other facilities, so that at the time 
we put in the cyberinfrastructure and also broadband 
communications, the building will be fully equipped for that.
    Senator Murkowski. Well, we've been given a copy of a 
picture here of the Army Signal Corps building, built for the 
first IPY, in Barrow, in 1888.
    Dr. Bement. Yes.
    Senator Murkowski. Hopefully it looks better than what 
we've----
    Dr. Bement. No, that has been----
    Senator Murkowski.--were able to produce in 1888.
    Dr. Bement.--has been fully renovated, and I've been in 
that building.
    Senator Murkowski. Yes. Well----
    Mead, one last question for you. You raised the issue that 
we really haven't updated our Arctic policy in over a decade 
now, a decade-plus, and it's an issue that I have been trying 
to raise to a level here where we can have a discussion about 
Arctic policy. But, oftentimes, I get looked at by other 
Senators or other colleagues and say, ``Well, I'm from Alabama, 
or Arkansas, or Iowa. Why do I care about Arctic policy?'' And 
I think what is happening--we're on the verge of pushing 
forward with IPY--is an awareness that the issues in the Arctic 
are not just isolated to the north, and then, of course, down 
to the south, in the Antarctic. So, I'm hopeful that one of the 
things that we will accomplish with this IPY is an 
understanding as to this--you talk about the connectedness of 
the Arctic, I think we also need to look to the connectedness 
of the Arctic to the rest of the world. And if you want to just 
take a minute and speak to that----
    Mr. Treadwell. Well----
    Senator Murkowski.--I'd appreciate your thoughts.
    Mr. Treadwell.--since 1994, the last time the Arctic policy 
interagency process produced that kind of a document, a 
Presidential Decision document, it was just at the beginning of 
the Arctic Council process. In fact, the Arctic Council hadn't 
been formed, as yet. We had the beginnings of circumpolar 
cooperation with the Arctic Environmental Protection Strategy. 
And, since then, we've had a robust Arctic Council process, a 
robust northern forum process. The kinds of activities in this 
whole panoply of research activities with IPY will reflect not 
just geophysical science, which is extremely important, but 
also the social science that you talked about. So, we have a 
much more developed Arctic community.
    The change in the Arctic since then--that statement really 
did not address climate change, it didn't address the 
opportunities or the problems of climate change in the Arctic, 
and the opportunities are numerous. It's not just climate 
change, but technology, which is going to make the Arctic Ocean 
much more accessible. And if you think about it, an accessible 
Arctic Ocean that has changes in boundaries coming with--
Article 76 of the Law of the Sea Treaty, has varying claims. 
The Russians have claimed 45 percent of the Arctic Ocean under 
that, that hasn't been adjudicated, as yet. It's important for 
the United States to sit down and assess what it is. And I can 
think of no better time, the Commission can think of no better 
time, than during this IPY process to chew on these policy 
issues at the same time.
    So, with that, coming out of the other end we may find more 
important commitments to science, the legacies that we've 
talked about. You have a very tough policy decision on the 
platforms, including the icebreakers, which--the report that 
just came out this afternoon, issues of how much the United 
States wants to promote transportation in the Arctic Ocean. And 
these are the kinds of things that should be considered.
    Senator Murkowski. Doctor?
    Dr. Bement. Yes, if I may address your question. NSF 
supports about 20 long-term ecological research sites, which 
include Lake Toolik, Bonanza Creek in Alaska, but are 
distributed across the United States, all the way to Puerto 
Rico. And the purpose of these ecological research sites is to 
look at ecological change, especially with regard to climate 
change and other changes in the environment. Those sites, 
collectively, will be able to determine how the changes in the 
Arctic will ripple through the U.S. over time. Admittedly, the 
changes are most dramatic and most easily seen in the 
Antarctic, not only with regard to the flora and the fauna, but 
also with regard to insect infestations, as you're well aware 
of, the spruce bark beetle. But also the spread of infectious 
diseases and the response of people who have not normally been 
exposed to these types of diseases, as warming occurs, as these 
viruses and so forth move north.
    So, all these things are part of our ongoing study 
involving the ecology.
    Senator Murkowski. Mr. Chairman, I could probably spend the 
rest of the afternoon with these three, but I know that we have 
an equally distinguished second panel, so I'm done with my 
questions.
    Thank you.
    Chairman Stevens. Thank you very much.
    Staff just gave me this. This is a planning document from 
the Office of the IPY. And it lists studies for--related earth, 
land, people, oceans, ice, atmosphere, space, and education, 
and outreach. I mention it, because I had a personal letter 
from my old friend, the Director of the International Arctic 
Research Center in Fairbanks, at the university. And I'll print 
the whole letter in the record.
    [The information referred to follows:]

International Arctic Research Center--University of Alaska 
                                                  Fairbanks
                                  Fairbanks, AK, September 14, 2006
Hon. Ted Stevens,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Ted:

    The idea of an International Polar Year (IPY) started as a 
celebration of the 50th anniversary of the International Geophysical 
Year (IGY) (1957-58), which was the largest geoscience enterprise in 
history at that time. Sydney Chapman, who was my professor during my 
Ph.D. student days, was the President of the IGY, and I am one of the 
few ``survivors'' (still active) of that event. By working alongside 
Professor Chapman during that period, I learned what it took to make 
the IGY successful. Government support was necessarily easy.
    From the beginning of the preparations for IPY, I have voiced my 
opinion that the 2007 IPY is a rare opportunity for polar researchers 
to demonstrate publicly that they are combining their talents for 
studying a few crucial problems of the present global warming, which is 
one of the major concerns of the people of the world. In this way, we 
would gain a better understanding of climate change and also the 
support of the people.
    To be specific in terms of science, Arctic researchers should work 
together in distinguishing between natural components and manmade 
components in the present climate change; this is one of the most 
difficult scientific problems. I am not saying that because this is 
precisely what IARC is working toward but because, without succeeding 
in this work, it is not possible to reduce uncertainty of climate 
change prediction.
    I believe that the IPY needs a few, focused projects. 
Unfortunately, the present trend appears to be that individual Arctic 
scientists want to satisfy their own curiosity by expecting special 
funding for the IPY. Such projects are undoubtedly important, too, but 
we would lose the rare opportunity for combining many talents in 
pursuit of specific and focused programs.
    When I expressed this opinion recently, one of the most respected 
climatologists, John Walsh, who is Chief Scientist of IARC, called it 
``excellent,'' saying that my written opinion saved him the time of 
writing the opinion himself.
            With best regards,
                                              Syun Akasofu,
                                                          Director.

    Chairman Stevens. But Dr. Akasofu says this, ``I believe 
that the IPY needs a few focused projects. Unfortunately, the 
present trend appears to be that individual Arctic scientists 
want to satisfy their own curiosity by expecting special 
funding for the IPY. Such projects are undoubtedly important, 
too, but we would lose a rare opportunity for combining many 
talents in pursuit of specific and focused programs.''
    What do the three of you think about that comment?
    Dr. Bement?
    Dr. Bement. Well, I have a high regard for Dr. Akasofu. We 
do communicate. I would remind him, however, that all of our 
projects are merit-reviewed. We pick the best of the best. And 
he happens to be one of them, in the work that he's doing at 
IARC. So, I think that the statement is a bit extreme, but we 
do pay attention to those details.
    Chairman Stevens. Well, do we need some special--some 
broad-gauge projects that encompass a series of studies, or are 
we going to just pick individual studies, as we can afford 
them?
    Dr. Bement. Senator, we have some of both, and I think 
you'll hear, in the next panel, some of the activities that we 
are funding at the University of Alaska at Fairbanks that are 
focused and involve multiple investigators. And those 
investigators are collaborating with other investigators 
throughout the United States. The broader-gauged programs that 
are interagency and multinational tend to be the Arctic 
Observing Network and the Bering Ecology--Ecological Study.
    Chairman Stevens. Well, we're going to be very interested 
in this. And it does get subjective. Before I came here, I had 
a visit with--from three members of the Alaskan Native 
community from the West Coast, three separate villages. And 
they wanted to know what we were going to do to try and deal 
with the causes of the change that they see, that many of them 
have great fear of today.
    Dr. Bement. Yes.
    Chairman Stevens. We know that some of them have already 
been impacted by enormous waves and storm conditions. But they 
also see changes, in terms of the habits of the wildlife, of 
the growth of trees, and other plants in the Arctic area, and 
they see the permafrost thawing. So, they want some answers. 
And I'm not sure how the IPY is going to function into getting 
some of the answers to their questions--the people most 
affected by the change we know of, in terms of our country. And 
I think their questions are similar to those that would be in 
Siberia and others areas of the Arctic throughout the world. 
Are we going to find a way to try to do both, to look into the 
long-range science and, at the same time, try to get some 
answers for the people who are affected now?
    Dr. Bement. The answer, Senator, is yes, we have involved 
Native Alaskans in our studies. I have personally talked with 
elders at Barrow. I understand their concerns. I understand the 
trauma of trying to adapt to change that they're facing, 
especially with regard to movement and hunting and whaling. The 
answers to some of those issues are not going to be short term, 
necessarily, but we are focused on dealing with climate change 
through our SEARCH programs. And, of course, that's what the 
AON is all about, in order to make those measurements on a 
regional basis. And we are also interested in the effects of 
ice sheet stability, on the possible climate change, as well as 
ocean rise, over time. We have a fair amount of data, working 
with NASA, on the recession of ice coverage in the Chukchi Sea 
and also in the Beaufort Sea, and we'll be able to continue to 
measure that over time. And that will affect the fetch of--
caused by storms. It will contribute to coastal erosion. We 
understand some of those processes now. We'll be able to add 
more information as time goes on.
    In addition to that, we are looking at the effects of 
extreme environments, especially the cold and the dark in the 
Arctic regions, on the ecology, as well as on life forms. And 
there are, in addition to that, social studies that will 
involve not only individuals, but also communities to examine 
the issues that have, with adaption to change among these--they 
used to be nomadic, they're less nomadic now--but, 
nevertheless, this is a community that has learned how to 
adapt, over time. And we have to maintain very close 
communication with that--with those native populations.
    Chairman Stevens. Well, thank you very much. We thank all--
the three of you.
    We're going to turn to the second panel now, if we may. 
It's Dr. Robin Bell, Dr. Buck Sharpton, Dr. Alan Parkinson, and 
Dr. Thomas Armstrong.
    Thank you very much for coming, the first panel.
    [Pause.]
    Chairman Stevens. Thank you very much. Our first witness in 
this panel is Dr. Robin Bell. She's Chairwoman of the Polar 
Research Board for the National Academy of Science, and 
Chairwoman of the USIPY Planning Committee.
    Thank you for coming, Dr. Bell.

       STATEMENT OF ROBIN E. BELL, Ph.D., DOHERTY SENIOR

            RESEARCH SCIENTIST, LAMONT-DOHERTY EARTH

         OBSERVATORY, COLUMBIA UNIVERSITY; CHAIR, POLAR

          RESEARCH BOARD, U.S. NATIONAL COMMITTEE FOR

        INTERNATIONAL POLAR YEAR, DIVISION ON EARTH AND

            LIFE STUDIES, NATIONAL RESEARCH COUNCIL,

                     THE NATIONAL ACADEMIES

    Dr. Bell. Good afternoon, Senator Stevens and Senator 
Murkowski. Thank you very much for inviting me to speak about 
the International Polar Year, which I see as a scientific 
opportunity of a generation, for our Nation, for our society, 
and for our planet.
    I'm a geophysicist at Columbia University Lamont-Doherty 
Earth Observatory, where I run major programs looking at the 
stability of ice sheets and looking at subglacial lakes. So, 
that's my passion, in terms of trying to understand our planet. 
And I've been active in planning for the International Polar 
Year, both nationally and internationally, since the inception 
of the idea.
    You may wonder why--in this era of instant communications, 
why the scientific community has gotten excited about a 
strategy that was developed 100 years ago, when maps of both 
poles were empty, blank. We didn't even know if there was a 
continent in the middle of the Arctic Ocean. You wonder if 
we're arguing about what it looks like now; then, we still 
thought there might be a continent sitting on top of the North 
Pole. And our cutting-edge communication was the telegraph. 
But, even though the maps are much richer today, the scientific 
community is still motivated by our need to understand our 
planet, as a whole.
    While environmental change and variability are part of the 
natural pattern on Earth, the environmental changes currently 
witnessed in the polar regions are generally much more 
pronounced than they are elsewhere in the world. The Arctic 
Ocean sea ice is thinning. The ice shelves in Antarctica, in 
some cases, are retreating and thinning. Glaciers are 
shrinking, and ecosystems, as you know, are changing. These 
changes have impacts locally and globally. Alaskan villages 
have been moved. Permafrost is thawing and undermining roads. 
Environmental change and rising sea level is really of impact 
globally, even though it's at the poles. So, that's one of the 
tremendous motivators, is the scientific community is very 
concerned and wants to understand what's causing the change in 
our planet.
    Now, although we made tremendous progress in the last year 
in coloring in those maps--those last hundred years--there are 
still tremendous frontiers at the edges of scientific 
knowledge. The maps aren't blank anymore, but the frontiers and 
the unknowns have grown. They're no longer just spatial and 
geographic, but they're actually at the molecular and, still, 
at the continental scale. They're fundamental unknowns.
    Through the planning process begun at the National Academy, 
we've identified five major challenges. The first is to assess 
the large-scale changes that are happening in the polar 
regions. The second is to conduct scientific exploration of 
these new frontiers, whether they're molecular or continental. 
Third is to observe the polar regions in-depth, with adequate 
knowledge, so we can look at what's causing the change. The 
fourth is to understand the human/environment dynamics in an 
environment where the interaction is very intimate. And, 
finally, we want to create a new connection between the science 
and the public.
    And that's one of the major differences between this IPY 
and the earlier IPYs, is the recognition that the physical 
world and the biological world and the human society are 
intimately interrelated. The upcoming IPY is inherently not 
just about science, but science in support of human interests.
    As you saw before, as you were holding up, Senator Stevens, 
this is the present international map of the 225 projects that 
highlights the geographic and discipline breadth of the IPY. 
And while this looks a little overwhelming, this represents 63 
nations and 6,000 scientists. So, this is really the global 
view. And it's broken down so you can understand the breadth, 
both discipline-wise and geographically, of this International 
Polar Year. It provides an illustration of how their projects 
have crossed both poles, crossed the disciplines, and crossed 
the nations. Each cell is a major program with an international 
team of scientists working together and producing a tremendous 
multiplicative effect, far more than we would if it was simply 
funded through our classic national funding process.
    The net result will be a huge leap forward in our 
understanding of polar processes--physical, biological, and 
social--and the global connections.
    Planning's proceeding, as you've heard today, at a rapid 
pace with the official kickoff coming in March 2007. And there 
are a couple of potential requirements that must be met if it's 
going to meet the expectations. I think we need to see a 
broadening and deepening of participation of the agencies, 
increase in the level of funding, increase the coordination, 
nationally and internationally, and fostering the 
interdisciplinary work. How do we draw the linkages between 
these columns? These issues are things that must be addressed 
for a vibrant and successful International Polar Year.
    In conclusion, I just want to address your questions about 
what the societal benefits of the International Polar Year are 
going to be.
    Just as these science programs are multifaceted and 
multidisciplinary, so are the benefits. It will advance our 
fundamental understanding of our planet, from the polar 
ecosystems to subglacial terrains. It will improve our 
understanding of the processes of change and that complex 
double-edged sword of how society is influencing change, and 
how change is influencing society, especially to the 
inhabitants of the North. It will inspire a new spirit of 
discovery across ages, and help us develop the next generation 
of leaders in science, engineering, education, industry, 
commerce, and, we hope, government.
    At the international level, it'll show, again, even in the 
most difficult times, that science can be a powerful arena for 
international cooperation. Why should much of our Nation, who 
primarily live in the warmer part of our Earth, care about IPY? 
They think of the polar regions as being physically distinct, 
and they don't understand the critical links to the global 
climate system. I like to think of this simple experiment that 
you can do--or you can just do in your mind, I can do right 
now. Imagine holding an ice cube between your thumb and your 
forefinger. As you hold it, your finger starts to melt the ice 
cube, and you quickly feel the water dripping down across the 
ice cube and down your hand. That's what the poles are like. We 
know the poles are changing, but, as the poles change, it 
impacts the rest of our planet, the rest of the ice cube. We 
don't actually understand. And what we hope to understand is 
what's causing the warming fingers on our planet. But on our 
planet, the poles are causing the ocean currents to change--
that's what's keeping Europe warmer, presently. And the sea ice 
is what modifies much of the climate as it reflects the solar 
energy back. Melting the ice sheet will raise sea levels, 
threaten coastal communities around the world. Polar regions 
are integral parts of the Earth system and will respond to, and 
drive, changes in the planet elsewhere.
    So, from assessing large-scale environmental change to 
exploring the new frontiers, the International Polar Year is a 
scientific opportunity of a generation.
    Thank you very much for your time, and I'm happy to address 
any questions you have.
    [The prepared statement of Dr. Bell follows:]

  Prepared Statement of Robin E. Bell, Ph.D., Doherty Senior Research 
   Scientist, Lamont-Doherty Earth Observatory, Columbia University; 
Chair, Polar Research Board, U.S. National Committee for International 
   Polar Year, Division on Earth and Life Studies, National Research 
                    Council, The National Academies
    Good afternoon. Thank you very much for inviting me to speak about 
International Polar Year 2007-2008. The International Polar Year (IPY) 
is the scientific opportunity of a generation for our Nation, for our 
society, and for our planet.
    My name is Robin E. Bell, Ph.D. from Columbia University's Lamont-
Doherty Earth Observatory, where I am a Doherty Senior Research 
Scientist. I am a geophysicist by training and at Columbia I lead major 
geophysical programs on the stability of ice sheets including 
subglacial lakes. I also direct Columbia's NSF sponsored ADVANCE 
program, aimed at recruiting and retaining women in science. I was the 
first woman to lead a major aerogeophysical program from the Antarctic 
continent, and this has been the focus of much of my research for the 
past two decades.
    In addition to my research, I chair the National Research Council's 
Polar Research Board, which acts as the national coordinating committee 
for IPY. The Research Council is the operating arm of the National 
Academy of Sciences, National Academy of Engineering, and the Institute 
of Medicine, chartered by Congress in 1863, to advise the government on 
matters of science and technology. I served as the Co-Chair of the 
International Council for Science's (ICSU) initial IPY Planning Group, 
and I currently serve as a member of the ICSU-World Meteorological 
Organization (WMO) Joint Committee for IPY, the main international 
planning group.
    Today I will provide an overview of why IPY is happening and why 
it's important to us here in the United States. What has motivated more 
than 5,000 scientists from some 63 nations to decide to participate in 
a year devoted to polar studies and education? I'll highlight the major 
science questions that will be addressed, outline the role that U.S. 
scientists and science managers have been playing developing IPY, and 
conclude with thoughts on the many societal benefits that can result 
from the IPY.
    In this era of instant communications and global connectivity, it 
might seem surprising that the global scientific community is so 
excited by a scientific strategy that was developed more than 100 years 
ago. Because it was indeed back in 1882-1883, that the idea of holding 
a focused, internationally-coordinated year of polar research--an 
International Polar Year--was first developed. At that point in 
history, the poles were blank white spaces on maps, and the cutting 
edge communications technology was the telegraph. The decision to 
coordinate with other nations rather than compete, and to focus on 
research to understand polar phenomena rather than acquisition of 
territory, was something new and exciting. That first IPY in 1882-1883 
and subsequent ones in 1932-1933, and the International Geophysical 
Year (IGY) in 1957-1958, drew great minds and generated great leaders; 
these ``international years'' set a precedent of cooperation in science 
that, while innovative at the time, is considered the norm today.
    Today's scientists are similarly motivated by society's need for 
integrated global knowledge. There is still a fundamental human need to 
push the limits of our understanding about polar phenomena. The polar 
regions are integral components of the Earth system. As the heat sinks 
of the climate system, they both respond to, and drive, changes 
elsewhere on the planet. While environmental change and variability are 
part of the natural pattern on Earth, the environmental changes 
currently witnessed in the polar regions are in many cases more 
pronounced than changes observed in the mid-latitudes or tropics. The 
Arctic sea ice cover is decreasing; some ice shelves in Antarctica are 
retreating and thinning; glaciers are shrinking; and ecosystems are 
changing, for instance, with plants flowering at earlier times. These 
changes are having human impacts: some Alaskan villages have been moved 
to higher ground in response to rising sea levels, and thawing of 
permafrost is undermining roads and buildings in northern communities 
around the world. We must understand the implications of environmental 
change for the future of our global society.
    Although we've made tremendous progress in all science over the 
past 100 years, the polar regions are still at the frontiers of human 
knowledge. The maps aren't quite as blank, but the frontiers and 
unknowns have actually increased, and range from the molecular, to the 
ecological, to the continental. How is it that certain microbes can 
survive at minus 2 degrees Fahrenheit, that certain nematodes live even 
when ice forms in their cells, that polar fish species have evolved 
with an antifreeze protein in their blood? What will happen to the 
unique under-ice ecological communities of the Arctic, which are the 
base of the Arctic food web, as ice conditions change and new species 
arrive from southern waters? In just the last 10 years we discovered 
more than 150 subglacial lakes that exist under the ice in Antarctica. 
These range in size from something similar to the reflecting pool on 
the Mall to a lake the size of Lake Ontario. Why are these lakes 
important? They are thought to contain exotic ecosystems; the water in 
these lakes is part of the subglacial plumbing system that can be 
thought of as the lubricant that makes the ice sheet flow faster.
    At its most fundamental level, IPY 2007-2008 is envisioned to be an 
intense, coordinated field campaign of polar observations, research, 
and analyses that will be multidisciplinary in scope and international 
in participation. IPY will provide a framework to undertake projects 
that normally could not be achieved by any single nation. It allows us 
to think beyond traditional borders--whether national borders or 
disciplinary constraints--toward a new level of integrated, cooperative 
science. A coordinated international approach maximizes both impact and 
cost effectiveness, and the international collaborations started today 
will build relationships and understanding that will bring long-term 
benefits. Within this context, IPY will seek to galvanize new and 
innovative observations and research, while at the same time building 
on and enhancing existing initiatives. IPY will serve as a mechanism to 
attract and develop a new generation of scientists and engineers with 
the versatility to tackle complex global issues.
    In addition, IPY is clearly an opportunity to organize a range of 
education and outreach activities designed to excite and engage the 
public, with a presence in classrooms around the world, and in the 
media in varied and innovative formats. The IPY will use today's 
powerful research tools to better understand the key roles of the polar 
regions in global processes. Automatic observatories, satellite-based 
remote sensing, autonomous vehicles, Internet, and genomics are just a 
few of the innovative approaches for studying previously inaccessible 
realms. IPY 2007-2008 will be fundamentally broader than past 
international years because it will explicitly incorporate 
multidisciplinary and interdisciplinary studies, including biological, 
ecological, and social science elements.
    IPY 2007-2008 is an opportunity to deepen our understanding of the 
polar regions and their global linkages and impacts, and to communicate 
these insights to the public. IPY planners have identified five broad 
scientific challenges:

  <bullet> Assess large-scale environmental change in the polar 
        regions, with questions looking at both the physical and human 
        dimensions of change and its impacts.

  <bullet> Conduct scientific exploration of ``new'' frontiers, whether 
        these are once inaccessible places beneath the ice sheet, or 
        areas of inquiry that are now open because of advances in 
        technology, such as how the tools of genomics now allow 
        exploration of previously unanswerable questions about 
        biological adaptation.

  <bullet> Observe the polar regions in depth, with adequate coverage 
        of the vast and challenging landscape, to provide a description 
        of current conditions and allow for better future understanding 
        of variability and change.

  <bullet> Understand human-environmental dynamics in a region where 
        the connections are intimate and where the impacts of change 
        are clear.

  <bullet> Create new connections between science and the public, using 
        these regions that are inherently intriguing.

    Previous IPY efforts were characterized by very top down planning 
and generally driven by the military. For example, under the oversight 
of Abraham Lincoln's son, Robert Todd Lincoln, then head of the 
Department of War, the U.S. participation in the first IPY in 1882-1883 
was led by the Army. The science priorities for our upcoming IPY, on 
the other hand, emerged from grass roots planning, international 
scientific groups, U.S. agency input, and help from the U.S. National 
Academy of Sciences and National Academy of Engineering.
    Beginning in 2002, the National Academies became involved in a 
serious dialog about whether there should be another International 
Polar Year (following in the tradition of the year held in 1882-1883, 
1932-1933, and 1957-1958) and whether it would be advantageous to 
participate. We began talking with colleagues around the world to judge 
international interest, as well. Here in the U.S., the Chair of that 
first planning effort was Dr. Mary Albert of the Army's Cold Regions 
Research and Engineering Laboratory. She led a committee that sought 
wide input on whether the U.S. should participate in IPY and, if so, 
what we should hope to accomplish. The Committee led a series of web 
discussions, gave talks at numerous professional meetings, wrote an 
editorial for Science magazine (included as an attachment), met with 
agency leaders, hosted a multi-day workshop, and compiled contributions 
from 13 Federal agencies into an initial planning document. The report, 
``A Vision for International Polar Year 2007-2008'' was released in 
2004, and came to be the foundation for much of the international 
planning as well. (A summary of this report is attached to my 
testimony.) This early involvement put the U.S. in a leadership role in 
planning the IPY internationally.
    One of the major differences between the first two IPYs and IGY and 
our upcoming IPY 2007-2008 is the recognition that the physical world, 
and the biological world, and human society are intimately 
interrelated. This upcoming IPY is inherently about not just science, 
but science in support of human interests. It includes work in 
engineering, medicine, sociology, and human-environment interactions. 
The so-called ``honeycomb diagram'' (attached) highlights some 225 
large groupings of projects that illustrate the geographic and 
disciplinary breadth of IPY 2007-2008. Each cell represents a major 
program with many participating projects involving international teams 
of scientists. Working together, this research will produce a 
tremendous leap forward in our understanding of polar processes 
(physical, biological, and social) and their global connections.
    Of the 225 projects, the U.S. plays a leadership role in 52 
projects (20 percent) and is participating in 80 percent. Right now, 
everything is still conceptual--what will actually happen on the ground 
is still being determined, both here and in other nations. Significant 
planning efforts are occurring in each of the participating nations; in 
addition, there is an international IPY Programme Office, staffed by 
Dr. David Carlson and hosted in Cambridge, England, by the British 
Antarctic Survey. There is also an international planning committee, 
called the Joint Committee, of which I am a member, and subcommittees 
devoted to data management, observation systems, and education and 
outreach.
    Although planning for IPY started with the scientific community, 
all the Federal agencies with cold regions responsibilities are having 
roles in implementation. When the National Academies hosted a workshop 
to encourage agency coordination in 2004, 13 agencies participated. At 
the request of the White House, the National Science Foundation is 
serving as the lead Federal Agency. (In Alaska, the University of 
Alaska Fairbanks has stepped forward as the state-wide leader.) NSF has 
shown real leadership in its role, holding interagency planning 
meetings, creating a multi-agency website, and starting the process of 
soliciting proposals for the actual on-the-ground research and 
education and outreach activities. (In fact, last week NSF announced 
the first of the education and outreach activities to be funded, and 
these provide an excellent first glimpse at the kinds of exciting 
activities that will occur.)
    The National Academies continues to provide coordination through 
the Polar Research Board, which acts as the U.S. National Committee for 
IPY. The Polar Research Board focuses on communication and 
coordination, in particular interacting with other nations and the 
international Programme Office, communicating what's happening in the 
U.S. science community, encouraging U.S. agencies to participate, and 
looking for ways to bring other partners into IPY. For instance, as 
part of its coordinating role, in early October, the Polar Research 
Board will host a meeting of the heads of IPY secretariats so that the 
staff working behind-the-scenes on IPY have an opportunity to 
coordinate.
    Planning for IPY is advancing at a continued, rapid pace, with the 
official kick-off coming in March 2007. But there are some potential 
requirements that must be met if the IPY is to meet expectations.

        1. Broaden and deepen the participation of the agencies. NSF is 
        doing a stellar job leading and coordinating efforts, but other 
        key agencies with polar interests remain less engaged.

        2. Increase the level of funding. The programs outlined in the 
        Vision document require a significant investment of funds both 
        to NSF and other Federal agencies.

        3. Enhance coordination nationally and internationally. Early 
        IPYs were directed by the military. Today's grass-roots 
        approach provides great flexibility and innovation, but frankly 
        is more difficult to coordinate.

        4. Foster multi-disciplinary work. While in the 1950's science 
        was very discipline-based and that met the needs of the times, 
        today's biggest scientific and societal challenges require a 
        more complex, systems-based approach.

    These issues must be addressed to ensure a vibrant and successful 
International Polar Year.
    In conclusion, I want to think ahead about the societal benefits of 
the International Polar Year. Just as the IPY and the emerging science 
programs are multi-faceted and multi-disciplinary, the benefits of the 
IPY will be multifaceted and multidisciplinary. The IPY will advance 
our fundamental understanding of our planet--from polar ecosystems to 
subglacial terrains. The IPY will improve our understanding of the 
processes of change, and that complex double-edged sword of how society 
is influencing change, and how change is influencing society--
especially the inhabitants of the north. The IPY will inspire a spirit 
of discovery across all ages, and help us develop the next generation 
of our Nation's leaders in science, engineering, education, industry, 
commerce, and government. At the international level, IPY will again 
show that even in the most difficult times, science can be an arena of 
international cooperation. IPY will foster the continued peaceful use 
of the polar regions, engage new partners in the global science 
community, and leverage precious scientific and logistical resources so 
that, in essence, we get more from our investments.
    Why should the vast majority of us, who live in the warmer regions 
of the Earth, care about IPY? The polar regions, while physically 
distant, are critical links in the global climate system. Does this 
matter for the rest of the planet? Imagine holding an ice cube between 
your thumb and your forefinger. Beneath your fingers a pool of water 
forms quickly. The water will drip down your arms and down the ice 
cube. The changes at the end driven by the warmth of your fingers are 
transferred across the entire ice cube. The relationship between the 
poles to the rest of the globe are the same. The polar oceans play a 
critical role in maintaining ocean currents that keep coastal Europe 
much warmer than it would be otherwise, and the sea ice cover modifies 
Earth's surface temperature by reflecting solar energy. Melting ice 
sheets will raise sea levels, threatening coastal communities around 
the world. The polar regions are integral components of the Earth 
system that both respond to, and drive, changes elsewhere on the 
planet.
    The polar regions also hold unique information of Earth's past 
climate history, and they are growing in economic and geopolitical 
importance. They are a unique vantage point for studies that will help 
scientists understand environmental changes in the context of past 
changes, which in turn will help us make informed choices for our 
future. The exploration of new scientific frontiers in the polar 
regions also will lead to new discoveries, insights, and theories 
potentially important to all people.
    In summary, International Polar Year 2007-2008 will leave us the 
following important legacies:

  <bullet> an improved understanding of environmental status and 
        change,

  <bullet> more comprehensive data and the ability to understand trends 
        in the future,

  <bullet> improved observation systems to capture future environmental 
        change,

  <bullet> a continued spirit of exploration into new frontiers of 
        science,

  <bullet> a new and inspired generation of scientifically literate 
        citizens and leaders,

  <bullet> an enhanced level of international cooperation to address 
        global scale issues.

    Thank you for your time. I'd be happy to answer any questions.
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                 ______
                                 

                    Science Magazine, March 5, 2004

                      The International Polar Year

                          by Mary R. Albert *
---------------------------------------------------------------------------

    * Mary R. Albert is Chair of the U.S. Planning Committee for IPY 
2007-2008.
---------------------------------------------------------------------------
    Change is ubiquitous in Earth's history, and evidence is clear that 
Earth's climate is changing rapidly now. The harbingers of change can 
be seen vividly in the polar regions. The Arctic ice cover is melting, 
ice shelves in Antarctica are crumbling, glaciers in temperate regions 
are disappearing, some ecosystems are changing, and permafrost thawing 
is causing the collapse of roads, buildings, and pipelines. Are we 
witnesses to an extreme in natural variability, the threshold of an 
abrupt change, or something more subtle? How will changes first seen in 
the polar regions affect us all?
    Plans are under way for the International Polar Year (IPY) 2007-
2008. Previous IPYs (1882-1883 and 1932-1933) and the International 
Geophysical Year (1957-1958) (which began as an IPY) produced 
unprecedented exploration and discoveries in many fields of research, 
and fundamentally changed how science was conducted in the polar 
regions. IPY 2007-2008 will benefit society by exploring new frontiers 
and increasing our understanding of the key roles of the polar regions 
in globally linked systems. Recent technological developments give us a 
new ability to investigate previously unexplored areas, using new tools 
and new ways of looking to understand once-unanswerable questions. 
Autonomous vehicles, genomics, and remote sensing instruments and 
networks are just a few of the technologies providing new tools for 
investigating previously inaccessible realms. The polar regions also 
continue to loom large in facilitating our understanding of the 
processes by which solar activity may seriously disturb Earth's space 
environment, affecting the performance of modern technologies deployed 
in space and on Earth. We believe that research is needed now, so that 
future generations may mitigate vulnerabilities and adapt to potential 
change.
    Many important broad and interlinked research challenges exist 
today. To name just one example, how and why are the changes in polar 
regions occurring, and how can we predict and mitigate the outcome? 
Changes in ice mass are linked with regional and global environments, 
and atmospheric and oceanic processes; implementing polar observation 
systems would help document these changes. Clues for understanding how 
and why similar changes occurred in the past remain stored in polar 
earth and ice; sediment and ice coring would help us understand past 
changes. Polar changes are interlinked with the behavior and survival 
of ecosystems, from microbial life to large organisms, including 
humans; studies in polar biology are needed. Keys to fundamental 
discoveries for understanding change may spring from new modes of 
exploration that range from using autonomous underwater vehicles under 
the ice to the use of genomics for investigating adaptation; 
exploration reveals surprises. Communications technologies such as 
television and the Internet, combined with changes in the environment, 
are challenging traditional human lifestyles in our cold regions and 
elsewhere. Yet, these same technologies hold the potential for sharing 
ideas and experiences in both polar regions and for promoting global 
understanding; Internet-based efforts in global data collection, 
sharing, and education are needed.
    Various international organizations and individual nations are 
actively planning for the IPY. The International Council for Science 
(ICSU) formed an international planning group to catalyze IPY 
development across national boundaries. The World Meteorological 
Organization also has identified IPY as a major new initiative. Other 
endorsements to date include the Scientific Committee on Antarctic 
Research, the International Arctic Science Committee, and the Arctic 
Council. Interested countries have begun to form national committees 
and develop a consensus regarding scientific themes that will form the 
backbone of the activities. In the United States, the Polar Research 
Board of the National Academies has formed a committee * to facilitate 
IPY planning.
---------------------------------------------------------------------------
    * The U.S. National Committee to the IPY actively welcomes input 
from the science community (www.us-ipy.org).
---------------------------------------------------------------------------
    In a world of much uncertainty and change, citizens turn to science 
for answers. The polar regions play an important role in providing 
these answers. A framework such as the IPY can provide the impetus to 
undertake projects that normally could not be achieved by any single 
nation, reaching beyond our traditional borders toward a new level of 
cooperative international science. Our vision for IPY 2007-2008 is that 
it will be the dawn of a new era in polar science, kicked off by an 
intense internationally coordinated campaign of activities. IPY 2007-
2008 will address research in both polar regions, which have strong 
linkages to the rest of the globe. It will be multi- and 
interdisciplinary in scope and truly international in participation. It 
will educate and excite the public, and help produce the next 
generation of engineers, scientists, and leaders.
                                 ______
                                 

                    Science Magazine, March 5, 2004

     Polar Exploration--A Year To Remember at the Ends of the Earth

 researchers charting a course for an international polar year in 2007-
2008 are hoping to recapture the glory of a similarly ambitious venture 
                           a half-century ago

                  by Richard Stone and Gretchen Vogel

Cambridge, U.K. and Berlin
    When Les Barclay and 20 intrepid fellow voyagers set out for 
Antarctica in November 1956, they knew they were embarking on the 
scientific adventure of a lifetime. After 5 weeks at sea, the 
radiophysicist and his colleagues on the International Geophysical Year 
(IGY) Antarctic Expedition put in at Halley Bay, then Britain's new 
toehold on the Antarctic Peninsula. They had lugged all the equipment 
they could possibly need there until the next ship called a year later. 
``We went down without recourse to any facilities back home,'' says 
Barclay.
    For the next 2 years, he and counterparts across Antarctica and at 
the other end of Earth, in the High Arctic, made some of the first 
high-latitude measurements of the ionosphere and its most spectacular 
phenomenon, the aurora. Barclay also teamed with W. Roy Piggott to 
pioneer the use of radio waves for measuring the thickness of ice 
shelves, a technique that led to ground-penetrating radar. Other major 
finds of the $1 billion IGY of 1957-1958 include the discovery of the 
Van Allen radiation belts and radical new estimates of ice volume on 
Earth's surface. ``We learned a tremendous amount about the world,'' 
says Barclay, who now runs a consulting firm in Chelmsford, U.K.
    Nearly a half-century later, researchers are marshalling forces for 
another major assault on the poles. Under the auspices of the 
International Council of Scientific Unions (ICSU), the World 
Meteorological Organization (WMO), and more than a dozen other 
scientific groups, an ambitious plan is taking shape for an 
International Polar Year (IPY) to kick off during the Arctic spring of 
early 2007, and extend through the Antarctic fall of early 2008. ``We 
want a real quantum jump in our understanding of how the poles work,'' 
says Chris Rapley, Director of the British Antarctic Survey and Chair 
of ICSU's IPY planning board.
    Rapley and other organizers now face the daunting task of 
convincing countries to pitch in funding and logistical support beyond 
that already committed to ongoing polar programs. The overall 
investment could easily top $1 billion, organizers say, as dozens of 
countries sign up to multilateral agreements that will govern IPY 
projects.
    The will be no shortage of ideas in search of funding, for 
unanswered questions of polar research are legion. IPY's planning board 
will try to winnow the field to a few major themes that promise to have 
deep scientific impact and broad public resonance. ``One of the goals 
is to get people to realize that . . . the cold ends of the sphere we 
live on really do influence us,'' says ICSU IPY planning Vice Chair 
Robin Bell of Columbia University's Lamont-Doherty Earth Observatory in 
Palisades, New York. And, like their predecessors, they intend to leave 
a lasting legacy. ``We want to design a way to take the pulse of the 
poles in 2007 and 2008,'' Bell says, ``but we also want to leave a 
heart monitor in place so we can continue to see what's going on.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

From Cape Horn to Sputnik
    The Polar Year of 2007-2008 will follow in the footsteps of 
illustrious predecessors, each of which overhauled our understanding of 
global processes. The first IPY, in 1882-1883, was largely the 
brainchild of Karl Weyprecht, an Austrian naval lieutenant who 
commanded a ship during the Austro-Hungarian Arctic Expedition of 1872-
1874. He argued that polar exploration required more than geographic 
discovery and called for the establishment of a network of research 
stations in the polar regions. The idea caught fire, and during the 
first Polar Year, 11 nations established 14 stations--two at Cape Horn 
and South Georgia Island in the South Atlantic and a dozen in the 
Arctic--to record data on everything from meteorology to terrestrial 
magnetism, and the aurora, findings that shaped later theories of the 
ionosphere. ``It was the first big meteorological experiment,'' says 
Cornelia Ludecke, a science historian at the University of Hamburg, 
Germany.
    The second IPY took place 50 years later, in 1932-1933. Despite a 
global economic depression, 44 countries teamed up on nearly two dozen 
dedicated expeditions to the Arctic and the Southern Hemisphere, 
although like the previous IPY the effort did not reach as far south as 
Antarctica. Technology had come a long way: Telephone, aircraft, and 
radio sounding all were at the disposal of researchers. A major 
achievement was obtaining detailed measurements of the upper 
atmosphere, including the first maps of the jet stream.
    Grand as those efforts were, they paled in comparison to the 
massive undertaking of 1957-1958. Lloyd Berkner of the Carnegie 
institution of Washington aired the IGY idea at a dinner party at the 
home of space physicist James Van Allen in the spring of 1950. The 
suggestion snowballed into one of the biggest global scientific 
undertakings ever. Still, it was the depths of the Cold War, and 
politics was never tar from the surface: The Soviet Union in 1956 
announced that it would put the first satellite in orbit during the IGY 
(Sputnik duly went up the next year), and China withdrew from the 
effort after Taiwan was brought aboard. Antarctica was seen as a 
potential Cold War battleground, with countries laying claim to slices 
of the continent. An international research effort, some hoped, would 
ease tensions--and indeed, the IGY is credited with fostering the 
political climate for the Antarctic Treaty, in which signatories agreed 
to share the continent in the name of ``peace and science.'' In all, 
roughly 80,000 scientists and support staff from 67 countries took part 
in the IGY.
    ``It was a thrilling time,'' recalls David Limbert, who confesses 
that as a 29-year-old meteorologist he left several girlfriends in 
England to join the Royal Society's IGY advance team, dispatched in 
late 1955 to build the Halley Bay camp. ``We were there as pump 
primers,'' he says. For the first several weeks he and the other 
expedition members slept in tents as they built Halley beam by beam. 
Halley and many of the other few dozen Antarctic bases established 
during the IGY continue to produce world-class science. The IGY, says 
Rapley, ``set the standard for what can be achieved.''
The Next Frontier
    The IGY will be a hard act to follow. But the half-century of polar 
science it ushered in has only deepened scientists' appreciation of the 
complexity and importance of polar processes. What happens at the poles 
is inextricably tied to patterns of cold and warmth, rainfall and 
drought. To have any hope of understanding what is happening to global 
climate today, and what might happen in the future, scientists need a 
better picture of conditions at the poles and how they interact with 
and influence ocean and air currents.
    So far scientists have only the vaguest clues to how those 
interactions work. ``We know the climate models don't get the polar 
regions right, and there is a lot of work going on to understand why 
that is,'' Rapley says. One puzzle, he notes, is that the models have 
largely failed to predict the dramatic melting of the Antarctic ice 
shelf And even state-of-the-art models vary widely in their predictions 
for the severity of the warming that might occur in the Arctic.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    One challenge is that the polar regions seem to be reacting more 
dramatically than other latitudes to global climate changes. The three 
fastest-warming regions in the last 2 decades have been Alaska, 
Siberia, and parts of the Antarctic Ice Sheet, notes Rapley. But 
whether that is the start of a long-term trend or a normal fluctuation 
is unclear. Figuring this out ``is directly related to our ability to 
collect data,'' Rapley says.
    One likely project for the upcoming IPY will be updating an array 
of monitoring stations strung across the Russian Arctic during the IGY. 
In the last decade alone, many of those stations have fallen silent, 
depriving meteorologists of key data on temperature and rainfall, for 
example. According to the Russian Academy of Sciences, only 45 polar 
hydrometeorological stations were functioning in 2002, a two-thirds 
reduction over the past decade. Refurbishing the stations is a top 
priority, says Eduard Sarukhanian, WMO's IPY Coordinator. However, adds 
Rapley, ``what we're keen to do is make sure that doesn't just focus on 
meteorology and hydrology but opens up new vistas on other research--
from any field that people can convince us is worthwhile.''
    Opening new vistas may well be the driving theme of the IPY. 
``There are subglacial lakes and the spreading ridges under the Arctic 
that have never been explored,'' Bell says. And while biologists have 
barely begun to catalog life in polar oceans, there are hints that 
here, too, the frozen ends of Earth have a global influence.
    One theory suggests that the Southern Ocean might have been a 
source of much of the biodiversity in the deep oceans worldwide. When 
the Antarctic continent broke away on its own, a girdle of swift-moving 
ocean currents formed around it, trapping species in the chilly waters 
of the Southern Ocean and forcing them to adapt to extreme conditions, 
Rapley explains. Those creatures, then, may have hitched a ride to 
other oceans. Brigitte Hilbig of Ruhr University in Bochum, Germany, 
recently identified several worms in 5,000-meter-deep waters off Angola 
that are nearly identical to one first identified in the Southern 
Ocean, 5,000 kilometers away, suggesting that there may be important 
connections between the life forms of polar oceans and seabed habitats 
worldwide. To probe this further, Hilbig and colleagues have proposed 
taking a zoological and genetic census of the Southern Ocean as part of 
the IPY.
    The Arctic waters, too, likely hold new surprises. An expedition in 
2001 to the Gakkel Ridge, where the continental plates bearing Europe 
and North America are spreading apart, turned up much more hydrothermal 
activity than scientists expected, says Jorn Thiede of the Alfred 
Wegener Institute for Polar and Marine Research in Bremerhaven, 
Germany. As part of the IPY, he and his colleagues hope to send a 
remote-controlled sub to survey the region.
    IPY organizers also hope to attract interest from astronomers who 
can use polar summers for uninterrupted views of the sun; medical 
researchers who study human responses to extreme conditions; and social 
and political scientists who could study the impact of Arctic warming 
on northern Russia, Canada, and other Arctic Rim nations.
    In an initial call, organizers received nearly 150 proposals. 
``It's taking off like gangbusters,'' Rapley says. The ICSU committee 
and its partners will settle on a handful of flagship projects by 
autumn, he says. (Contributions are still welcome; see Editorial, p. 
1437.) Rapley says that ICSU might try to coordinate three to five 
large-scale efforts, such as major transects across the poles or large-
scale atmospheric or ocean surveys. He hopes the effort will inspire a 
wellspring of multinational projects around the globe organized by 
other scientists.
    It's not yet clear whether such efforts will add up to the $1 
billion infusion the last IGY enjoyed. Karl Erb, Director of the U.S. 
National Science Foundation's Office of Polar Programs, estimates that 
NSF might contribute up to $50 million in research funding and 
logistical support for IPY-specific activities, from its nearly $400 
million annual budget. Given the formidable base that the field is 
building on, a smaller investment than that plowed into IGY could have 
just as profound an impact, argues Chad Dick of the Norwegian Polar 
Institute in Troms<, Norway. The onus will be on organizers to choose 
projects with far-reaching payoffs. ``If all we do is have a blast for 
2 years and nothing changes in our ability to monitor the poles for the 
long term, we will have failed,'' he says. Considering the track record 
of the first two IPYs and the IGY, failure would appear to be only a 
remote possibility.
                                 ______
                                 

             An Otherworldly Place to Hunt for Other Worlds

                           by Gretchen Vogel

    High on Antarctica's frozen desert, astronomers have found some of 
the best conditions on Earth for peering into space. The calm, 
cloudless skies above Dome C, 3233 meters above sea level in the middle 
of the main Antarctic ice sheet, make the isolated spot a stargazer's 
dream. The site is the location of the newest permanent year-round 
station in Antarctica, a joint French-Italian project called Concordia.
    The main buildings, which will host 16 people over the 9-month 
winter and twice as many in summer, are expected to be finished by the 
Antarctic winter of 2005-2006, in ample time for the station to 
participate fully in the International Polar Year (IPY) to begin in 
2007 (see main text).
    Concordia, perched on an ice dome, should entice scientists from a 
range of disciplines. For example, researchers who use ice cores to 
decipher dues to past climates expect to look deep into the last Ice 
Age thanks to nearly 500,000 years of snow accumulation at Dome C. And 
as the third permanent station on the continent's interior, located 
more than 1,000 kilometers from its nearest neighbor, the United 
States' Amundsen-Scott South Pole Station, Concordia will help fill 
gaps in measurements of Earth's magnetic and gravitational fields and 
the continent's seismic activity.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Concordia is also set to rival the South Pole as a premier 
astronomical outpost. Although there are not yet any full-size 
telescopes at the site, measurements suggest it is an outstanding place 
for optical and near-infrared astronomy. The air can be so still, says 
Eric Fossat, an astronomer at the University of Nice in France, that 
smoke rings from tractors at the construction site often linger for 
tens of seconds before dissipating. The lack of wind and heat currents 
makes the atmosphere extremely clear, cutting down on the shimmer that 
disrupts Earth-based views of stars. Thus astronomers can look forward 
to some of the best ``seeing'' anywhere on Earth. ``The indications are 
that the seeing may be absolutely extraordinarily good,'' says 
astronomer Tony Stark of the Harvard-Smithsonian Center for 
Astrophysics, who has worked extensively at the South Pole.
    That quality, combined with the site's aridity and average ambient 
temperature of -50 +C, makes it a great spot for infrared astronomy--
perhaps the best on Earth for searching for planets similar to our own, 
Fossat says. In the infrared, planets show up brighter and stars 
dimmer, allowing astronomers to discern planets more easily. And, he 
notes, there is half as much cloud cover as at the already impressively 
clear South Pole Station. Astronomers are still securing funding, but 
they hope to have the first telescope in place for the IPY in 2007. An 
array of telescopes could come further down the road.
    Concordia may even help humans reach for the stars. To simulate the 
effects of long-duration space flight, researchers plan to study how 
staff members cope with the Antarctic winter (Science, 15 August 2003, 
p. 906). Fossat himself says he won't winter there. ``I'm too old for 
that kind of sacrifice,'' he says. But with Concordia's astronomical 
attributes, don't expect any shortage of volunteers.
                                 ______
                                 
           A Vision for International Polar Year 2007-2008 *
---------------------------------------------------------------------------
    * U.S. National Committee for the International Polar Year
---------------------------------------------------------------------------
    Environmental change and variability are part of the natural 
pattern on Earth. But environmental changes currently witnessed in the 
polar regions are, in many cases, more pronounced than changes observed 
in the mid-latitudes or tropics. The Arctic sea ice cover is 
decreasing; some ice shelves in Antarctica are retreating and thinning; 
glaciers are shrinking; and ecosystems are changing, for instance, with 
plants flowering at earlier times. These changes are having human 
impacts: some Alaskan villages have been moved to higher ground in 
response to rising sea levels, and thawing of permafrost is undermining 
roads and buildings in northern communities around the world.
    Why should the vast majority of us, who live in the warmer regions 
of the Earth, care? The polar regions, while physically distant, are 
critical links in the global climate system. The polar oceans play a 
critical role in maintaining ocean currents that keep coastal Europe 
much warmer than it would be otherwise, and the sea ice cover modifies 
Earth's surface temperature by reflecting solar energy. These are just 
a few of many global connections. The polar regions also hold unique 
information of Earth's past climate history, and they are growing in 
economic and geopolitical importance. They are a unique vantage point 
for studies that will help scientists understand environmental changes 
in the context of past changes, which in turn will help us make 
informed choices for our future. The exploration of new scientific 
frontiers in the polar regions also will lead to new discoveries, 
insights, and theories potentially important to all people. To better 
understand these and other questions, nations around the world are 
making plans to participate in International Polar Year (IPY) 2007-
2008.
IPY 2007-2008: Scope and Objectives
    At its most fundamental level, IPY 2007-2008 is envisioned to be an 
intense, coordinated field campaign of polar observations, research, 
and analysis that will be multidisciplinary in scope and international 
in participation. IPY 2007-2008 will provide a framework and impetus to 
undertake projects that normally could not be achieved by any single 
nation. It allows us to think beyond traditional borders--whether 
national borders or disciplinary constraints--toward a new level of 
integrated, cooperative science. A coordinated international approach 
maximizes both impact and cost effectiveness, and the international 
collaborations started today will build relationships and understanding 
that will bring long-term benefits. Within this context, IPY will seek 
to galvanize new and innovative observations and research, while at the 
same time building on and enhancing existing relevant initiatives. IPY 
will serve as a mechanism to attract and develop a new generation of 
scientists and engineers with the versatility to tackle complex global 
issues. In addition, IPY is clearly an opportunity to organize an 
exciting range of education and outreach activities designed to excite 
and engage the public, with a presence in classrooms around the world 
and in the media in varied and innovative formats.
    The IPY will use today's powerful research tools to better 
understand the key roles of the polar regions in global processes. 
Automatic observatories, satellite-based remote sensing, autonomous 
vehicles, Internet, and genomics are just a few of the innovative 
approaches for studying previously inaccessible realms. IPY 2007-2008 
will be fundamentally broader than past International Years; because it 
will explicitly incorporate multi-disciplinary and inter-disciplinary 
studies, including biological, ecological, and social science elements. 
It will run from March 1, 2007 until March 1, 2009, to allow two field 
seasons of research in both the Arctic and the Antarctic.
What Will Happen During IPY?
    During the window of IPY 2007-2008, scientists from many nations 
will join together in expeditions and research projects designed to 
meet the IPY objectives, coordinated at both the national and 
international levels. They will work both in the Arctic and the 
Antarctic, and in universities, laboratories, and observatories around 
the world. The specific research projects have not yet been selected, 
but we envision teams of researchers collecting coordinated 
measurements to compile a snapshot of environmental conditions, which 
can serve as a baseline for understanding future environmental change. 
There might be an effort to coordinate satellites to gather consistent 
data on ice extent. Ecologists might mount a massive effort to conduct 
a census of marine life so that we better understand population trends 
for important fisheries. Other groups might drill into the ocean floor 
in search of sediment cores with evidence of past environments. 
Multidisciplinary teams might document ecosystem changes in far 
northern communities where traditional subsistence foods are important 
to the local lifestyle, and try to understand how changes are affecting 
the people of those communities. The next year is very important to IPY 
planning, because it is time to sort through the many ideas that have 
been suggested and see which are best to pursue.
Who's Involved in the IPY?
    Enthusiasm for IPY 2007-2008 is strong and growing. In barely more 
than a year, the science community has progressed from its earliest 
discussions of possibilities for new international science endeavors to 
serious planning of what an IPY might accomplish and what resources are 
needed. More than 25 nations have formally declared the intent to 
participate and many more have discussions in progress. Here in the 
United States, scientists have been presenting talks and holding open 
forums at professional meetings, and using an interactive website to 
brainstorm ideas where U.S. leadership might ensure significant 
contributions. A call to the science community for ideas about what 
science themes to pursue brought forward hundreds of ideas, and this 
input has been crucial in the IPY planning.
    The U.S. Committee for the International Polar Year 2007-2008 was 
formed by the Polar Research Board of the National Academies to 
articulate a vision for U.S. participation in IPY 2007-2008, in 
coordination with and on behalf of our Nation's scientific communities. 
The Committee has worked closely with the U.S. science community using 
a variety of mechanisms. It has worked with our international 
colleagues, especially the International Council for Science's IPY 
2007-2008 Planning Group, to identify the important science themes and 
develop the detailed information needed to implement its many 
contributing activities.
    When IPY 2007-2008 gets underway, it will involve far more than 
scientists. The hope is that many people--scout leaders, teachers, 
museum directors, filmmakers, journalists, parents, and students of all 
ages--will be involved. Some of the participation will be hands-on; 
other involvement will take full advantage of the tremendous 
opportunities for instantaneous communication offered by modern 
technologies.
What Should We Do To Make IPY a Success?
    The Committee recommends the following actions for ensuring a 
successful IPY 2007-2008:

  <bullet> The U.S. scientific community and agencies should use the 
        IPY to initiate a sustained effort aimed at assessing large-
        scale environmental change and variability in the polar 
        regions.

  <bullet> The U.S. scientific community and agencies should include 
        studies of coupled human-natural systems critical to societal, 
        economic, and strategic interests in the IPY.

  <bullet> The U.S. IPY effort should explore new scientific frontiers 
        from the molecular to the planetary scale.

  <bullet> The International Polar Year should be used as an 
        opportunity to design and implement multi-disciplinary polar 
        observing networks that will provide a long-term perspective.

  <bullet> The United States should invest in critical infrastructure 
        (both physical and human) and technology to guarantee that IPY 
        2007-2008 leaves enduring benefits for the Nation and for the 
        residents of northern regions.

  <bullet> The U.S. IPY program should excite and engage the public, 
        with the goal of increasing understanding of the importance of 
        polar regions in the global system and, at the same time, 
        advance general science literacy in the Nation.

  <bullet> The U.S. scientific community and agencies should 
        participate as leaders in International Polar Year 2007-2008.

Scientific Challenges
    IPY 2007-2008 is an opportunity to deepen our understanding of the 
physical, biological, and chemical processes in the polar regions and 
their global linkages and impacts, and to communicate these insights to 
the public. Five broad scientific challenges provide a framework for 
organizing IPY activities:

  <bullet> Assessing large-scale environmental change in the polar 
        regions, with questions looking at both the physical and human 
        dimensions of change and its impacts.

  <bullet> Conducting scientific exploration of ``new'' frontiers, 
        whether these are once inaccessible places such as the 
        seafloor, or areas of inquiry that are now open because of 
        advances in technology, such as how the tools of genomics now 
        allow exploration of previously unanswerable questions about 
        biological adaptation.

  <bullet> Observing the polar regions in depth, with adequate coverage 
        of the vast and challenging landscape, to provide a description 
        of current conditions, and allow for better future 
        understanding of variability and change.

  <bullet> Understanding human-environmental dynamics in a region where 
        the connections are intimate, and where the impacts of change 
        are clear.

  <bullet> Creating new connections between science and the public, 
        using these regions that are inherently intriguing.

Previous International Years
    International Polar Year 2007-2008 is an ambitious program 
following in the footsteps of some past campaigns. There have been 
three similar programs over the last 125 years. During the first 
International Polar Year in 1882-1883, 12 countries launched 15 
expeditions (13 in the Arctic and 2 in the Antarctic). As part of its 
contribution, the United States established our northernmost scientific 
station at Point Barrow, Alaska. The second International Polar Year in 
1932-1933, even in the midst of the Great Depression, included 
participants from 40 nations, and brought advances in meteorology, 
atmospheric sciences, geomagnetism, and the ``mapping'' of ionospheric 
phenomena that advanced radioscience and technology. The United States 
established the first year-round research station inland from the 
Antarctic coast.
    The International Geophysical Year (IGY) in 1957-1958, in which 67 
nations participated, was conceived as an effort to use technology 
developed during World War II, such as rockets and radar, for 
scientific research. IGY brought many ``firsts,'' such as the launch of 
the world's first satellites. IGY had a strong polar component, 
especially in the Antarctic: research stations were established and the 
experience in international collaboration, even in tense political 
times, led to ratification of the Antarctic Treaty in 1961. Each of 
these campaigns produced unprecedented exploration of Earth and space 
and led to discoveries in many fields of science. IPY 2007-2008 is 
expected to leave a similar legacy of accomplishments.
    U.S. National Committee for the International Polar Year: Mary 
Albert, (Chair) ERDC Cold Regions Research and Engineering Laboratory; 
Robert Bindschadler, National Aeronautics and Space Administration--
Goddard Space Flight Center; Cecilia Bitz, University of Washington; 
Jerry Bowen, CBS News; David Bromwich, The Ohio State University; 
Richard Glenn, Arctic Slope Regional Corporation; Jacqueline Grebmeier, 
University of Tennessee; John Kelley, University of Alaska Fairbanks; 
Igor Krupnik, Smithsonian Institution; Louis Lanzerotti, Bell 
Laboratories-Lucent Technologies; Peter Schlosser, Lamont-Doherty Earth 
Observatory of Columbia University; Philip Smith, McGeary & Smith; 
George Somero, Stanford University; Cristina Takacs-Vesbach, University 
of New Mexico; Gunter Weller, University of Alaska Fairbanks; Douglas 
Wiens, Washington University; Mahlon Kennicutt, (Ex-officio) Texas A&M 
University; Patrick Webber, (Ex-officio) Michigan State University; 
Terry Wilson, (Ex-officio) The Ohio State University; Sheldon Drobot, 
(Study Director) Polar Research Board; Chris Elfring, (Board Director) 
Polar Research Board; Kristen Averyt, (Christine Mirzayan Intern) Polar 
Research Board; and Rachael Shiflett, (Program Assistant), Polar 
Research Board.
    This brief was prepared by the National Research Council based on 
the Committee's report. For more information, contact the Polar 
Research Board at 202-334-3479. A Vision for International Polar Year 
2007-2008 is available from the National Academies Press, 500 Fifth 
Street, NW, Washington, DC 20001; 800-624-6242 or 202-334-3313 (in the 
Washington area); www.nap.edu.

    Chairman Stevens. Thank you very much, and we thank you for 
coming. I did not know that was an international chart. I thank 
you for bringing that up. I will have some questions later. I 
do appreciate the charts and slides that you have brought with 
you. They're very informative.
    Our next witness is Dr. Buck Sharpton. He's the Vice 
Chancellor for Research of the University of Alaska in 
Fairbanks.
    Doctor, it's nice to have you with us.

      STATEMENT OF DR. VIRGIL L. ``BUCK'' SHARPTON, VICE 
 CHANCELLOR FOR RESEARCH, UNIVERSITY OF ALASKA (UA) FAIRBANKS; 
           UA PRESIDENT'S PROFESSOR OF REMOTE SENSING

    Dr. Sharpton. Thank you, Chairman Stevens and Senator 
Murkowski, for the opportunity to be here today.
    Fifty years ago, the world embarked on the most ambitious 
scientific program in history, the International Geophysical 
Year. This 18-month-long series of internationally coordinated 
observations returned untold dividends in the form of new 
scientific knowledge: discovery of the Van Allen radiation 
belts, sea-floor studies leading to the revolutionary theory of 
plate tectonics, the Antarctic Treaty, and many, many more. And 
our Nation derived other important benefits from this 
investment, as well. IGY expanded national research funding 
significantly and permanently, leading to tremendous payoffs in 
intellectual property and societal benefits throughout the 
latter half of the 20th century. IGY was also a much-needed 
opportunity for the United States to exhibit, on the global 
stage, its technological capabilities and political will to 
work equitably and openly with the international scientific 
community. We invested heavily; and, as a result, the world has 
looked to the U.S. for scientific leadership ever since.
    The upcoming IPY is a much-needed opportunity to reaffirm 
our place as world leaders in science and technology, to 
demonstrate that we are still committed to open international 
programs that advance scientific knowledge, and to invest 
wisely in activities that will inspire and train the next 
generation of U.S. scientists and engineers.
    Often, when the term ``polar'' is used, people gravitate 
toward visions of Antarctica or the North Pole. Obviously, one 
does not need to look that far. ``Polar,'' in United States 
terms, means Alaska and its people.
    Alaskans are in the midst of change. We are in immediate 
need of IPY to more fully understand what's happening, and why, 
to be able to reliably forecast events to come, to identify how 
to hold on to our unique and valuable resources, such as 
indigenous languages and culture, and to make informed 
decisions to address the multitude of challenges before us.
    The University of Alaska has been involved in IPY planning 
and implementation for the past 3 years. Over 75 percent of our 
research pertains to Alaska and the broader Arctic region, and 
over 25 percent of all the research and educational proposals 
endorsed by the IPY International Programme Office involve our 
researchers. I've attached a list of those to my written 
testimony.
    Through our network of colleges across rural Alaska and 
ongoing research programs, we have gained valuable experience 
working with and for our Alaskan Native populations. This 
experience is essential in ensuring that the upcoming IPY 
addresses their issues, involves them as research partners and 
astute observers, not just subjects, and returns to them the 
results and rewards of these research activities.
    Considerable financial resources will be needed if the 
United States is to take a leading role in IPY. Other nations 
have committed far more than ours, at least thus far. But we, 
at the University of Alaska, are not waiting for outside funds 
before we move forward. The University's president, Mark 
Hamilton, has committed $3.5 million to support 13 IPY 
postdoctoral fellows for 3 years. We look to these young 
scientists, five of whom come from other countries, to broaden 
our research capabilities and expand our connections around the 
world as we engage in IPY.
    Eighteen months ago, we launched an IPY strategy that 
extends the research and educational opportunities afforded by 
IPY across all sectors of Alaskan society. Through awards from 
the State Department and NOAA's Cooperative Institute for 
Arctic Research, we have the resources to initiate this plan, 
the components of which are provided in my written testimony.
    In conclusion, I would like to leave you with four 
recommendations for investments that would yield lasting 
returns to the Nation in our Nation's only Arctic State. 
Further details are included in my written testimony.
    First, approve the National Science Foundation's budget to 
support IPY research and educational outreach.
    Second, support the Arctic Observing Network.
    Third, expand network connectivity infrastructure within 
Alaska, and from Alaska to the U.S. mainland, to acceptable 
national standards to promote economic growth and ensure equal 
opportunities for all the residents of our State.
    And, finally, please help us acquire high-resolution 
digital imagery and elevation data for Alaska that meet 
national standards and are currently available for every State 
in our Nation except Alaska.
    Thank you, again, for the opportunity to present this 
testimony today. And thank you very much for your interest in 
the International Polar Year.
    [The prepared statement of Dr. Sharpton follows:]

Prepared Statement of Dr. Virgil L. ``Buck'' Sharpton, Vice Chancellor 
   for Research, University of Alaska (UA) Fairbanks; UA President's 
                      Professor of Remote Sensing
    Thank you Chairman Stevens, Chairman Lugar, Senator Murkowski and 
Members of both Senate Committees for the opportunity to be here today. 
In my capacity as Vice Chancellor for the University of Alaska in 
Fairbanks, I am responsible for developing and implementing the 
University's strategy for participating in activities of the upcoming 
4th International Polar Year. As a researcher and educator, and now the 
Chief Research Officer of America's only Arctic University, I would 
like to share my perspectives on why IPY is important to Alaska and our 
Nation, how we have prepared ourselves to play key roles in these 
activities, and leave you with recommendations for valuable legacies 
that could result from IPY.
    The upcoming IPY is staged to celebrate the 50th anniversary of the 
International Geophysical Year, IGY, held in 1957-1958. IGY was modeled 
on the two previous Polar Years, 1882-1883 and 1932-1933, where 
coordinated scientific studies were conducted to understand our 
planet's natural processes and cycles. IGY was originally planned to 
take place at the centennial celebration of the first Polar Year in 
1982-1983, but instead was held 25 years earlier to take advantage of 
an unusually intense period of sunspot activity. Thus IGY came at a 
most critical time for our Nation and the world. During World War II 
and the early post-war era, technologies had been developed with the 
potential for unimaginable devastation. Ideological differences between 
the two multi-national superpowers heightened concerns that those 
technologies might some day be used as tools of aggression. IGY was an 
effort to develop peaceful uses of these post-war technologies in order 
to improve knowledge about our planet--particularly its polar regions--
through an international campaign of coordinated scientific 
observations. IGY was a tremendous success; over 30,000 scientists from 
67 countries took part in what was the largest and most ambitious 
scientific program ever attempted. Some of the scientific legacies left 
by this effort include:

  <bullet> The discovery of the Van Allen radiation belts that ring the 
        earth and affect communication and spacecraft operations;

  <bullet> The charting of ocean depths and ocean currents;

  <bullet> A mapping of the magnetic characteristics of the ocean floor 
        that soon led to the revolutionary theory of plate tectonics;

  <bullet> The first rigorous study of the Antarctic continent and its 
        ice sheets;

  <bullet> The Antarctic Treaty, making the whole continent a place of 
        scientific research, free of national claims and international 
        rivalry.

    But there were other important benefits that our Nation derived 
from the investment we made in this program. IGY expanded national 
research investments significantly and permanently, leading to 
tremendous payoffs in intellectual property and societal benefits 
throughout the latter half of the 20th century. Furthermore, IGY was a 
much needed opportunity for the United States to exhibit, on the global 
stage, its technological capabilities and the political will to work 
equitably and openly with the international scientific community. We 
invested heavily and, as a result, the world has looked to the U.S. for 
scientific leadership ever since.
    Now, on the eve of the 4th IPY, we face a different type of 
scientific challenge: the challenge to understand how our circumpolar 
regions are changing, and to develop reliable strategies for mitigating 
the negative impacts and optimizing the opportunities that accompany 
this change. You have undoubtedly heard testimony from others on the 
various lines of evidence demonstrating that the Arctic is experiencing 
dramatic climate-induced changes: retreating sea ice, melting 
permafrost, and the migration of the Arctic tree line to higher 
elevations and latitudes, to name a few. And this is not just a 
regional issue affecting a relatively few Arctic inhabitants. The Polar 
Regions play key roles in the global climate system; therefore a more 
complete understanding of the Arctic and Antarctic is imperative if we 
are to improve global climate models.
    In addition, many of the benefits our Nation derived from IGY, 
fifty years ago, apply today. The upcoming IPY is a much needed 
opportunity to reaffirm to the world our place as leaders in science 
and technology, to demonstrate that we are committed to open, 
international research programs that advance scientific knowledge, and 
to invest wisely in activities that will inspire and train the next 
generation of U.S. scientists and engineers.
    Often, when the term ``polar'' is used, people gravitate toward 
visions of Antarctica or the North Pole, or exotic uninhabited places. 
Obviously, one does not need to look that far. Polar, in United States 
terms, means Alaska and its people.
    Alaskans are in the midst of change; we are in immediate need of 
IPY to more fully understand what is happening and why, to be able to 
reliably forecast events to come, identify how to hold on to our unique 
and valuable resources such as indigenous languages and culture, and 
learn to make informed decisions so that we can address the multitude 
of challenges before us.
    As Alaska's Research University, the Fairbanks campus as well as 
the University of Alaska's other campuses have been involved in IPY 
planning and implementation for the past 3 years. We are well prepared 
to play key roles in the upcoming activities. Over 75 percent of our 
research pertains to Alaska and the broader Arctic region. This 
commitment is reflected in the fact that over 25 percent of all the 
research and educational proposals endorsed by the IPY International 
Programme Office involve Fairbanks campus researchers. A list of the 
endorsed research projects is appended to this testimony.
    Our field research stations, such as the Toolik Field Station on 
the North Slope, have been systematically gathering ecological and 
biological data for nearly half a century. Those sites will undoubtedly 
be important centers of IPY research. Through our network of colleges 
across rural Alaska, and ongoing research programs such as the Center 
for Alaska Native Health Research, we have gained valuable experience 
working with and for our Alaska Native populations. This experience is 
essential in ensuring that the upcoming IPY addresses their issues, 
involves them as research partners and astute observers--not just 
subjects--and returns to them the results and rewards of these research 
activities.
    Considerable financial resources will be needed if the United 
States is to take a leading role in IPY. Other nations have committed 
far more than ours, at least thus far. But we at the University of 
Alaska are not waiting for outside funds before we move forward. The 
University's President Mark Hamilton has committed $3.5 million to 
support 13 IPY postdoctoral fellowships for 3 years. These young 
researchers were chosen from 180 applicants from around the world to 
work on IPY-related research projects at the 3 main campuses across the 
UA system: 9 at Fairbanks, 3 at Anchorage, and 1 in Juneau. We look to 
these young scientists--five of whom come from other countries--to 
broaden our research capabilities, and expand our connections around 
the world as we engage in the internationally coordinated research 
activities of IPY.
    Eighteen months ago we launched an IPY strategy that included 
research coordination, educational outreach, community engagement, and 
public relations. We have taken steps to ensure that the research and 
educational opportunities afforded by IPY extend across all sectors of 
Alaska society. Through awards from the Department of State, Bureau of 
Educational and Cultural Affairs, and the NOAA Cooperative Institute 
for Arctic Research, we have the resources to initiate this plan which 
includes the following activities:

  <bullet> The IPY Education and Outreach Office in conjunction with 
        the University of the Arctic. UArctic is a cooperative network 
        of educational institutions committed to higher education and 
        research in the North. Its members share resources, facilities, 
        and expertise to build post-secondary education programs that 
        are relevant and accessible to northern students.

  <bullet> Graduate and undergraduate research grants for student 
        involvement in IPY research projects across the University 
        system.

  <bullet> A K-12 engagement plan built around two ``contests'' 
        targeted toward K-12 students: the first is an IPY art contest 
        where students from across Alaska submit works of art that 
        capture the spirit of IPY. The best from each age group will be 
        brought to Fairbanks for an awards ceremony and their art will 
        be exhibited at our Museum of the North during IPY. The second 
        is a writing contest for high school students to submit their 
        research papers on the benefits of past IPY activities to 
        Alaska and the Arctic. Again, each age group will be judged and 
        the winners will give presentations at one of the public 
        functions during IPY.

  <bullet> Implementation of the Think Tank of the North. This is a 
        series of events that seeks to address critical issues facing 
        the Arctic such as climate change impacts, development and 
        mineral extraction issues, sustainable natural resource 
        management, natural hazard mitigation, cultural impacts, and 
        information technology infrastructure needs. The University 
        will sponsor leading researchers, educators, and policymakers 
        from around the world for week-long visits to brainstorm with 
        our faculty and engage the public in open discussions.

  <bullet> Planning for the Ninth International Conference on 
        Permafrost to be held late June-early July 2008, in Fairbanks. 
        Attendance at this event is expected to exceed 900 people.

  <bullet> The Helge Instad Memorial Symposium on Arctic Change held 
        September 8-10, 2006. More than 170 scientists from Alaska, 
        Norway, Russia, Canada, and the lower 48 gathered at Fairbanks 
        to commemorate the Norwegian explorer, scientist and author, 
        who spent time with the Nunamiut (Eskimo) people of Anaktuvuk 
        Pass, Alaska, and discuss common research areas across the 
        Arctic countries. The symposium was co-sponsored by the 
        Fairbanks campus and the Royal Norwegian Embassy and included a 
        celebration officially naming Ingstad Mountain in Anaktuvuk 
        Pass on September 10, 2006.

  <bullet> A series of public presentations extending through the end 
        of IPY, beginning with Jared Diamond (Collapse: How Societies 
        Choose to Fail or Succeed) last March, Peter Smith (The Martian 
        Arctic) June 27, and Dava Sobel (Latitude) March 19, 2007). 
        Others will be selected during the next few months.

  <bullet> Support for the Arctic Institute of North America to advance 
        the study of the North American and circumpolar Arctic through 
        the natural and social sciences, the arts and humanities and to 
        acquire, preserve and disseminate information on the physical, 
        environmental and social conditions in the North.

    In conclusion, I would like to leave you with a few recommendations 
for legacy investments that would yield lasting returns to the Nation 
and our Nation's only Arctic state:

  <bullet> Approve the National Science Foundation's budget to support 
        IPY research and educational outreach. NSF is the ideal support 
        organization to lead our Nation's IPY activities with its 
        demonstrated commitment to polar research, and the development 
        of a U.S. research community that is globally engaged. This is 
        an investment that will pay huge scientific dividends, will 
        strengthen our academic institutions, and gain the world's 
        appreciation.

  <bullet> Support the Arctic Observing Network (AON). The tight 
        linkages between the physical, biological, and social systems 
        in the Arctic, and the intensity of current and projected 
        changes, call for a coordinated monitoring program that extends 
        across the Arctic and provides long-term, multi-disciplinary 
        observations. ``Without such a program, it is very difficult to 
        describe current conditions in the Arctic, let alone understand 
        the changes that are underway or their connections to the rest 
        of the Earth system.'' \1\ AON would include satellites, 
        terrestrial observatories, ocean buoys and moorings, weather 
        stations, hydrologic monitoring stations, ecological sampling 
        networks, Arctic residents, and other data sources, many of 
        which already exist or are being planned. IPY offers an 
        immediate opportunity for major progress.
---------------------------------------------------------------------------
    \1\ Toward an Integrated Arctic Observing Network, Committee on 
Designing an Arctic Observing Network, National Research Council, ISBN: 
0-309-10052-6, 128 pages, 8\1/2\ x 11, paperback, 2006.

  <bullet> Expand network connectivity infrastructure within Alaska and 
        from Alaska to the U.S. mainland to acceptable national 
        standards. Currently, our main academic network connection to 
        the outside world is OC-3. The current standard for large 
        Internet Service Providers in the rest of the Nation is OC-192, 
        which is 64 times faster than our connection. But this is just 
        part of the problem. Our state is in desperate need of better 
        high-speed connections between rural communities to ensure 
        values that most U.S. citizens have grown accustomed to: 
        educational opportunities, employment opportunities, and access 
---------------------------------------------------------------------------
        to other information that could enrich their lives.

  <bullet> Update high-resolution digital imagery and elevation data 
        coverage for Alaska. These fundamental datasets are critically 
        important in emergency response, wildfire behavior modeling, 
        aviation safety, change detection, and making informed resource 
        management decisions. Yet, the most recent program to acquire 
        imagery and elevation data for Alaska was over 50 years ago. 
        Alaska has changed and technologies have improved to the point 
        that Alaska's maps are significantly below national standards. 
        This year, Alaska's Governor Frank Murkowski and the State 
        Legislature approved $2 million to initiate a Statewide Digital 
        Mapping Initiative to ``put some skin in the game.'' Some 
        Federal assistance would assist us in bringing our maps up to 
        national standards.

    Thank you again for the opportunity to present this testimony 
today, and thank you for your interest in the International Polar Year. 
Please feel free to contact me if you have any additional questions.

 Appendix: Endorsed IPY Projects With University of Alaska Participants
------------------------------------------------------------------------
          UA Faculty Member                          Title
------------------------------------------------------------------------
Igor Polyakov, UAF                    Integrated Arctic Ocean Observing
                                       System
------------------------------------------------------------------------
Hajo Eicken, Rolf Gradinger, Igor     The Pan Arctic cluster for Climate
 Dmitrenko, UAF                        forcing of the Arctic Marine
                                       Ecosystem
------------------------------------------------------------------------
Sarah Fowell, UAF                     The Bering Strait, Rapid Change,
                                       and Land Bridge Paleoecology
------------------------------------------------------------------------
Katrin Iken, UAF                      Impact of CLImate induced glacial
                                       melting on marine and terrestric
                                       COastal communities on a gradient
                                       along the Western Antarctic
                                       PENinsula (ClicOPEN)
------------------------------------------------------------------------
JingFeng Wu, UAF                      International Polar Year
                                       GEOTRACES: An international study
                                       of the biogeochemical cycles of
                                       Trace Elements and Isotopes in
                                       the Arctic and Southern Oceans
------------------------------------------------------------------------
Matt Nolan, UAF                       The dynamic response of Arctic
                                       glaciers to global warming
------------------------------------------------------------------------
Virgil L. (Buck) Sharpton, UAF        International Polar Year (IPY)
                                       Data and Information Service
                                       (DIS) for Distributed Data
                                       Management
------------------------------------------------------------------------
Vladimir Romanovsky, Larry Hinzman,   Permafrost Observatory Project: A
 Gary Kofinas, Matt Nolan, Tom         Contribution to the Thermal State
 Osterkamp, Chien Lu Ping, Buck        of Permafrost
 Sharpton, Kenji Yoshikawa, Doug
 Kane, Donald (Skip) Walker, UAF
------------------------------------------------------------------------
Peter Schweitzer, Anne Sudkamp, UAF   International Congress of Arctic
                                       Social Sciences VI in Nuuk, 2007-
                                       2008
------------------------------------------------------------------------
Bernard Coakley, Sarah Fowell,        Plate Tectonics and Polar Gateways
 Leonard Johnson, UAF                  in Earth History
------------------------------------------------------------------------
Scott Bailey, UAF                     Synchronized observations of Polar
                                       Mesospheric Clouds (PMC), Aurora,
                                       and other large-scale polar
                                       phenomena from the International
                                       Space Station (ISS) and ground
                                       sites
------------------------------------------------------------------------
David Atkinson, UAF                   Arctic Circum-Polar Coastal
                                       Observatory Network
------------------------------------------------------------------------
Hajo Eicken, Jennifer Hutchings,      The state of the Arctic sea ice
 Rudiger Gens, Rolf Gradinger, Mark    cover: Physical and biological
 Johnson, Virgil (Buck) Sharpton,      properties and processes in a
 UAF                                   changing environment
------------------------------------------------------------------------
Douglas Kane, UAF                     The Arctic Hydrological Cycle
                                       Monitoring, Modelling and
                                       Assessment Program
------------------------------------------------------------------------
Jeffrey Welker, UA; Craig Lingle,     The State and Fate of the
 UAF                                   Cryosphere
------------------------------------------------------------------------
Martin Truffer, UAF                   IPY in the Antarctic Peninsula--
                                       Ice and Climate
------------------------------------------------------------------------
Ray Barnhardt, Oscar Kawagley, UAF    Circumpolar Center for Learning
                                       and Indigenous Knowledge Systems
------------------------------------------------------------------------
Vladimir Romanovsky, UAF              Deep Permafrost Scientific
                                       Drilling
------------------------------------------------------------------------
Gerd Wendler, Martha Shulski, UAF     Climate change in the Arctic with
                                       special emphasis on Alaska
------------------------------------------------------------------------
Russ R Hopcroft, UAF                  Ecosystem West Greenland
------------------------------------------------------------------------
Lawrence D. Kaplan, James Ruppert,    Glocalization--Language,
 Patrick Marlow, UAF                   Literature and Media among Inuit
                                       and Sami people
------------------------------------------------------------------------
Matt Nolan, UAF                       Bipolar Climate Machinery--A study
                                       of the interplay of northern and
                                       southern polar processes in
                                       driving and amplifying global
                                       climate as recorded in
                                       paleoclimate archives and their
                                       significance for the generation
                                       of realistic estimates of future
                                       climate and sea level development
------------------------------------------------------------------------
Todd O'Hara, UAF                      Polar bear (Ursus maritimus)
                                       circumpolar health assessment in
                                       relation to toxicants and climate
                                       change
------------------------------------------------------------------------
Larry Hinzman, Vladimir Romanovsky,   Cold Land Processes in the
 Igor Semiletov, Donald (Skip)         Northern Hemisphere continents
 Walker, UAF                           and their Coastal Zone: Regional
                                       and Global Climate and Societal-
                                       Ecosystem Linkages and
                                       Interactions
------------------------------------------------------------------------
Donald (Skip) Walker, Andrew Balsar,  Greening of the Arctic:
 Uma Bhatt, Keith Boggs, Brian         Circumpolar Biomass
 Barnes, Rick Caulfield, Terry
 Chapin, Craig Dorman, Hajo Eicken,
 Brad Griffith, Tom Heinrichs, Larry
 Hinzman, John Kelly, Gary Kofinas,
 Hilmar Maier, Gary Michaelson,
 Corinne Munger, Matt Nolan, Chien-
 Lu Ping, Anupma Prakesh, Peter
 Prokein, Martha Raynolds, Vladimir
 Romanovsky, Mike Sfraga, Buck
 Sharpton, John Walsh, UAF
------------------------------------------------------------------------
Frank Willams, UAF                    High Performance Computing and
                                       Mass Storage Resources for IPY
                                       Research Support
------------------------------------------------------------------------
Gary Kofinas, Perry Barboza, Brad     Starting the clock for the CARMA
 Griffith, Kris Hundertmark, Robert    Network: Impacts on Human-
 White, Greg Finstad, UAF              Rangifer Systems in the
                                       Circumarctic
------------------------------------------------------------------------
David Norton, Martin Robards, UAF     Sea Ice Knowledge and Use:
                                       Assessing Arctic Environmental
                                       and Social Change
------------------------------------------------------------------------
Karen Perdue, UAF; Kathy Murray,      Arctic Human Health Initiative
 Carl Hild, UAA
------------------------------------------------------------------------
Catherine F. Cahill, UAF              POLAR-AOD: a network to
                                       characterize the means,
                                       variability, and trends of the
                                       climate-forcing properties of
                                       aerosols in polar regions
------------------------------------------------------------------------
Roger Hansen, Jeff Freymueller, UAF   Polar Earth Observing Network
------------------------------------------------------------------------
Syndonia Bret-Harte, UAF              International Tundra Experiment
                                       (ITEX): impacts of long-term
                                       experimental warming and climate
                                       variability on tundra ecosystems
------------------------------------------------------------------------
Martin Jeffries, UAF                  The University of the Arctic:
                                       Providing Higher Education and
                                       Outreach Programs for the
                                       International Polar Year
------------------------------------------------------------------------
Richard Collins, UAF                  International Arctic Systems for
                                       Observing the Atmosphere
------------------------------------------------------------------------
Larry Hinzman, UAF                    The hydrological cycle of the
                                       Canadian Polar Regions:
                                       processes, parameterization,
                                       prediction and change
------------------------------------------------------------------------
David Atkinson, UAF                   Impacts of Surface Fluxes on
                                       Arctic Climate: Severe Storms,
                                       Effects on Coastal Processes and
                                       Relationships to Changing Climate
------------------------------------------------------------------------
Richard Boone, UAF                    Biodiversity of soil meso- and
                                       macro-fauna and latitudinal
                                       gradient impact assessment along
                                       the proposed Alaska gas pipeline
------------------------------------------------------------------------
Richard Collins, UAF                  The Structure and Evolution of the
                                       Polar Stratosphere and Mesosphere
                                       and Links to the Troposphere
                                       during IPY
------------------------------------------------------------------------
Shusun Li, Martin Jeffries, Kim       Assessment of surface albedo
 Morris, UAF                           feedback and the variability of
                                       surface radiation budget in the
                                       Arctic climate system using
                                       satellite and ground observations
------------------------------------------------------------------------
Jack Kruse, UAA                       The Political Economy of Northern
                                       Development
------------------------------------------------------------------------
Dave McGuire, UAF                     Arctic Biosphere-Atmosphere
                                       Coupling across multiple Scales
------------------------------------------------------------------------
Martin Jeffries, UAF                  Bering Sea Sub-Network of
                                       Community-Based Environmental
                                       Monitoring, Observation and
                                       Information Stations
------------------------------------------------------------------------
Chien-Lu Ping, UAF                    Response of Arctic and Subarctic
                                       soils in a changing Earth:
                                       dynamic and frontier studies
------------------------------------------------------------------------
Martin Truffer, UAF                   Remote sensing, monitoring, and
                                       forecast of surging glaciers'
                                       evolution with the investigation
                                       of modern fluctuations of surging
                                       glaciers of the Alaska, Svalbard
                                       and high elevated Asia glaciers
------------------------------------------------------------------------
Stuart Chapin, UAF                    Polar Disturbance and Ecosystem
                                       Services: Links between Climate
                                       and Human Well-being
------------------------------------------------------------------------
Martin Jeffries, UAF                  Consortium for coordination of
                                       Observation and Monitoring of the
                                       Arctic for Assessment and
                                       Research
------------------------------------------------------------------------
Maribeth Murray, UAF                  The Impacts of Oil and Gas
                                       Activity on Peoples in the Arctic
                                       Using a Multiple Securities
                                       Perspective
------------------------------------------------------------------------
Martin Jeffries, UAF                  Integrated Communication,
                                       Education and Evaluation
------------------------------------------------------------------------
Rolf Gradinger, Russ Hopcroft, Bodil  Arctic Ocean Diversity (ArcOD)
 Bluhm, Falk Huettmann, Rob Cermak,
 John Kelley, Stephen Jewett, UAF;
 Oliver Hedgepeth, UA
------------------------------------------------------------------------
Martin Truffer, Roman Motyka, UAF     Measurement and Attribution of
                                       recent Greenland Ice sheet
                                       chaNgeS (MARGINS)
------------------------------------------------------------------------
Scott Goldsmith, UAA                  The Economy of the North
------------------------------------------------------------------------
Chien-Lu Ping, Vladimir Romanovsky,   Carbon Pools in Permafrost Regions
 UAF
------------------------------------------------------------------------
Jack Kruse, UAA                       Survey of Living Conditions in the
                                       Arctic, SLiCA--Remote Access
                                       Analysis System
------------------------------------------------------------------------
Elena B. Sparrow, Donald A. (Skip)    Biodiversity and Climate Induced
 Walker, UAF                           Lifecycle Changes of Arctic
                                       Spiders
------------------------------------------------------------------------
Gary Kofinas, Patty Gray, UAF         ANTLER Network Secretariat and
                                       Workshop Series
------------------------------------------------------------------------
Peter Schweitzer, UAF                 Moved by the State: Perspectives
                                       on Relocation and Resettlement in
                                       the Circumpolar North
------------------------------------------------------------------------
Todd Sherman, Jean Flanagan Carlo,    International Polar Year Arctic
 UAF                                   Nations Exhibition and Activities
                                       including Symposia, Seminars,
                                       Workshops, Residencies,
                                       Documentation and Event
                                       Coordination
------------------------------------------------------------------------
Todd O'Hara, Alan Springer, UAF       MERSAM
                                       (MERcurySeabirdArticMonitoring)
------------------------------------------------------------------------


    Chairman Stevens. Thank you very much, Doctor.
    Our next witness is Dr. Alan Parkinson, the Deputy Director 
of the Arctic Investigation Program, Centers for Disease 
Control and Prevention, in Anchorage.
    Doctor, nice to have you with us.

         STATEMENT OF ALAN J. PARKINSON, Ph.D., DEPUTY

        DIRECTOR, ARCTIC INVESTIGATIONS PROGRAM, CENTERS

         FOR DISEASE CONTROL AND PREVENTION, DEPARTMENT

                  OF HEALTH AND HUMAN SERVICES

    Dr. Parkinson. Thank you very much, Chairman Stevens, 
Senator Murkowski. I'm very pleased to be here today to 
describe to you our national efforts to use the International 
Polar Year and the Arctic Human Health Initiative to increase 
the visibility of human health concerns of Arctic peoples.
    Human health has not been a research theme of any previous 
Polar Year, so we see this event as an opportunity for the 
United States to take a leadership role in the International 
Polar Year by supporting human health research, disease 
prevention, and control activities that will improve the health 
and well-being of Arctic residents.
    While much has been achieved since the last Polar Year, 
some 50 years ago, to improve the health of Arctic residents, 
life expectancy is shorter, and infant mortality rates are 
still higher among the indigenous Arctic residents. These 
health disparities can be resolved with greater understanding 
of their causes through research and by focused application of 
existing health strategies.
    The rapid pace of change in the Arctic is presenting new 
challenges, as you heard earlier. Of particular concern are the 
potential health impacts of climate change, environmental 
pollutants, and economic development. The Arctic is unique in 
many aspects, but one particularly important aspect is the 
spirit of cross-border cooperation. And on issues of human 
health, the international cooperation is facilitated through 
the working groups of the International Union for Circumpolar 
Health and the Arctic Council. Nationally, the U.S. interagency 
cooperation on Arctic research is grounded in the Arctic 
Research and Policy Act of 1984, which established the Arctic 
Research Commission, which has emphasized human health as a 
special interagency focus area.
    These international and national partnerships have led to 
the creation of the Arctic Human Health Initiative, which is an 
Arctic Council IPY Project which is being led by the U.S. 
Department of State, the CDC, and other U.S. interagencies and 
international partners. And the goal of this initiative is to 
use the Polar Year to really increase the public and political 
awareness of the human health concerns of Arctic peoples, and 
through international collaborative research, jointly develop 
strategies that will--which will improve the health and well-
being of all Arctic residents.
    The Arctic research programs of the CDC are focused on 
improving public health in Arctic communities. Programs 
currently are conducted by the National Center for Infectious 
Disease, the National Center for Environmental Health, the 
National Center for Chronic Disease Prevention and Health 
Promotion, and the National Institute of Occupational Safety 
and Health. And these programs are conducted with--in 
collaboration with partnerships with the State of Alaska 
Division of Public Health, the Alaska Native Tribal Health 
Consortium, regional tribal health corporations, the Indian 
Health Service, the National Institutes of Health, University 
of Alaska, and other state and local agencies.
    The mission of the Arctic Investigations Program is 
prevention and control of infectious diseases among the 
residents of the Arctic and sub-Arctic. And we focus 
particularly on the elimination of the health disparities 
caused by infectious diseases that exist among indigenous 
populations of these regions. The National Center for 
Environmental Health is concluding studies of the levels of 
human exposure to environmental pollutants in the Arctic and 
the potential role of these contaminants as co-factors in 
breast cancer in Alaskan Natives. The National Center for 
Chronic Disease Prevention and Health Promotion is actually 
just beginning a study to generate new information on nicotine 
carcinogens in commercial and homemade chewing tobacco. And, of 
course, the Alaska Field Station of the National Institutes of 
Occupational Health and Safety is continuing studies aiming at 
decreasing the number of--and rate of work-related injuries 
among industries that face the extreme hazards of the Arctic 
environment.
    In summary, the IPY presents us with a unique opportunity 
to focus political and public attention on the health concerns 
of Arctic communities and to develop collaborative 
international programs, research programs, that will address 
those concerns.
    The improvements in the health status already achieved by 
Arctic peoples provide hope that, through concerted effort, 
clear vision, existing health challenges and disparities can be 
overcome. We believe that the U.S. leadership and scientific 
contributions of the International Polar Year and the Arctic 
Human Health Initiative are an important step in this 
direction.
    Thank you for your attention, and I am happy to answer any 
questions.
    [The prepared statement of Dr. Parkinson follows:]

Prepared Statement of Alan J. Parkinson, Ph.D., Deputy Director, Arctic 

  Investigations Program, Centers for Disease Control and Prevention, 
                Department of Health and Human Services
    Good afternoon, Chairman Stevens, Chairman Lugar, and members of 
both Committees. I am Alan Parkinson Deputy Director of the Centers for 
Disease Control and Preventions, Arctic Investigations Program located 
in Anchorage, Alaska. I am pleased to be here today to describe our 
national efforts to use the International Polar Year (IPY) and the 
Arctic Human Health Initiative (AHHI) to increase the visibility and 
awareness of human health concerns of Arctic peoples and to coordinate 
at the national and international level research programs that will 
improve the health and well-being of Arctic residents. As you have 
heard from previous speakers, the IPY is an intensive one year multi-
disciplinary program of collaborative international science, research, 
education, and communication focusing on the Arctic and Antarctic 
regions.
    The years 2007-2008 will mark the 50th anniversary of the 
International Geophysical Year, and the third IPY. This event has been 
designated the 4th IPY by the National Academy of Science, 
International Council of Science, the World Meteorological 
Organization, the Arctic Council, and many other international 
organizations. This period of focused activity promises to ``further 
our understanding of the physical and social process in polar regions, 
examine their globally-connected role in the climate system and 
establish research infrastructure for the future, and serve to attract 
and develop a new generation of scientists and engineers with the 
versatility to tackle complex global issues.'' U.S. activities during 
the IPY will focus on highlighting research, education, and public 
outreach efforts, and will be coordinated among Federal agencies and 
international partners that support research in Polar Regions. Human 
health has not been a research theme for any previous Polar Year and we 
see this event as an opportunity for the U.S. to take a leadership role 
in the IPY by supporting research activities that will address the 
human health concerns of Arctic communities and set the stage for an 
integrated approach to Arctic human health research beyond 2009.
Human Health Concerns of Arctic Communities
    Life expectancy in Arctic populations has greatly improved over the 
last 50 years. In 1950, the life expectancy for an Alaska Native, the 
indigenous people of Alaska, at birth was 47 years compared with 66 
years for the general U.S. population. By 2000, the life expectancy for 
Alaska Natives had increased to 69.5 years, a gain of over 20 years. 
Much of this improvement can be attributed to health research and 
public health programs that have resulted in a reduction in morbidity 
and mortality from infectious diseases, such as tuberculosis, and the 
vaccine-preventable diseases of childhood. Reductions in infectious 
disease mortality for Alaska Natives have been especially dramatic. In 
1950, 47 percent of deaths among Alaska Natives were due to infections, 
as compared with only 3 percent for non-Native Alaskans. By 1990, 
infectious diseases caused only 1.2 percent of the Alaska Native 
deaths, very similar to the 1 percent seen for non-Natives. \1\
---------------------------------------------------------------------------
    \1\ Estimates on the proportion of mortality accounted for, by 
infectious diseases, are based on a catchment population size of 34,000 
and 87,000 Alaska Natives, in 1950 and 1990, respectively. The 
estimated number of mortalities amongst Alaska Natives during these 2 
years, was 575 and 565, respectively.
---------------------------------------------------------------------------
    Public health research has resulted in innovations such as the 
provision of safe water supplies, sewage disposal, development of 
community-based medical providers, that have contributed to improved 
care and access to care for injuries and illness. Research on the 
negative health effects of tobacco has lead to tobacco cessation and 
education programs. Mortality rates for heart disease and overall 
cancer rates are similar in Arctic indigenous residents in relation to 
overall rates for the U.S., Canada, and northern European countries, 
with some exceptions (i.e., higher incidence of gastric, 
nasopharyngeal, renal cancers) not explained by known risk factors .
    Despite improvements in these health indicators of Arctic 
residents, life expectancy is shorter and infant mortality rates are 
higher among indigenous Arctic residents in the U.S. Arctic, northern 
Canada, and Greenland when compared to Arctic residents of Nordic 
countries. For example, life expectancy for Alaska Natives still lags 
behind the general U.S. population which was 76.5 years in 2000. 
Similarly, indigenous residents of U.S. Arctic and Greenland have 
higher mortality rates for injury and suicide, and hospitalization 
rates for infants with pneumonia and respiratory infections; many of 
these health disparities can be eliminated through the focused 
application of existing public health strategies.
    A common theme across the Arctic is the rapid pace of change and 
its impact on the health and well-being of Arctic peoples. Some of the 
major trends likely to affect the health status of Arctic peoples 
include economic changes, improved transportation and communications, 
environmental pollutants, and climate change.
    Living conditions have and continue to change from an economy based 
on subsistence hunting and gathering to a cash-based economy. Across 
the circumpolar north there is increasing activity toward sustainable 
development via local resource development, and widening involvement in 
the global economy. The influence of such changes on the physical 
health of Arctic residents on the one hand have been positive, 
resulting in improved housing conditions, a more stable supply of food, 
increased access to more western goods, and decreases in morbidity and 
mortality from infectious diseases. But these changes in lifestyle 
brought on by the move away from traditional subsistence hunting and 
gathering, and the societal changes brought on by modernization, in 
general, have resulted in an increase in prevalence of chronic diseases 
such as diabetes, hypertension, obesity, and cardiovascular diseases. 
In addition, it is well known that child abuse, alcohol abuse, drug 
abuse, domestic violence, suicide, unintentional injury is also 
connected to rapid cultural change, loss of cultural identity and self 
esteem.
    Globalization has meant improvements in the transportation 
infrastructure and communications technologies such as the Internet and 
telemedicine innovations. Many communities once isolated, are now 
linked to major cities by air transportation, and are only one airplane 
ride away from more densely populated urban centers. Consequently these 
communities are now vulnerable to the importation of new and emerging 
infectious diseases (such as influenza, SARS or SARS-like infectious 
diseases, antibiotic-resistant pathogens such as multi-drug resistant 
tuberculosis).
    Environmental contaminants are a global problem. Contaminants such 
as mercury, other heavy metals, PCBs, DDT, dioxins and other 
organochlorines, mainly originate in the mid-latitude industrial and 
agricultural areas of the globe, but have migrated to the Arctic via 
atmospheric, river and ocean transport. Their subsequent bio-
magnification in the Arctic food webs, and appearance in subsistence 
foods such as fish, waterfowl, marine and land mammals, and the 
indigenous people who rely on these foods is of great concern to Arctic 
residents. Potential human health effects include damage to the 
developing brain, endocrine, and immune system. A new concern is the 
role of mercury on cardiovascular diseases. Ongoing research will 
identify the levels and human health effects of these contaminants in 
Arctic residents and will provide public health guidance on both the 
risks and benefits of consuming traditional foods.
    The changing climate is affecting Arctic communities, and is 
bringing economic and health threats, as well as possible 
opportunities. The impacts of climate change on the health of Arctic 
residents will vary depending on factors such as age, socioeconomic 
status, lifestyle, culture, location, and capacity of the local health 
infrastructure systems to adapt. It is likely that the most vulnerable 
will be those living close to the land, living a traditional 
subsistence lifestyle in remote communities, those already facing 
health related changes. Direct health-related impacts, for example may 
include an increase in injuries, hypothermia, and frostbite related to 
travel, unpredictable ice and weather conditions, and heat stress in 
summer. Indirect impacts include the potential changes in vector borne 
diseases such as West Nile virus, zoonotic infectious diseases such as 
brucellosis, tularemia or echinococcosis, changes in access to safe 
water supplies, failure of the permafrost and damages to the sanitation 
infrastructure, and infrastructure in general (buildings, 
transportation, etc.) changes in the traditional food supply as the 
migration patterns of subsistence species change in response to 
changing habitats. Ongoing research will identify climate sensitive 
indicators that will allow the prediction of health impacts and the 
development of mitigation strategies.
    The Arctic is unique in many aspects. It can be defined by 
population, a population that is sparsely scattered over a very large 
geographical area, by climate and latitude, by seasonal extremes of 
temperature, light and dark, and by its spirit and history of cross-
border cooperation on issues of concern to Arctic communities.
International Cooperation on Arctic Human Health
    There is a long history of international cooperation on many issues 
affecting Arctic communities including human health and human health 
research.
    The International Union for Circumpolar Health (IUCH) 
(www.iuch.org) is an organization comprised of the memberships of the 
American Society for Circumpolar Health, the Canadian Society for 
Circumpolar Health, the Nordic Society for Arctic Medicine, the 
Siberian Branch of the Russian Academy of Medical Sciences, and the 
Danish/Greenlandic Society for Circumpolar Health. The IUCH promotes 
international cooperation, research, scientific information exchange, 
and education in the areas of Arctic Health Policy, Birth Defects & 
Genetics, Cancer, Diet & Heart, Environmental Health & Subsistence Food 
Security, Family Health, Fetal Alcohol Syndrome, Health Surveys, HIV/
AIDS, STDs, Indigenous Peoples Health, Infectious Diseases, Injury 
Prevention, Occupational Safety & Health, Population-Based Planning, 
Tobacco & Health, and Women's Health.
    The Arctic Council (www.arctic-council.org) is a ministerial forum 
for cooperation between governments and indigenous peoples to address 
concerns and challenges common to Arctic states. Members include: the 
U.S. (represented by the State Department), Canada, Greenland/Denmark, 
Iceland, Norway, Finland, Sweden, and the Russian Federation. 
Indigenous peoples are represented as Permanent Participants and 
include: Sami Council, Aleut International, Inuit Circumpolar 
Conference, Russian Association Indigenous Peoples of the North, Arctic 
Athabaskan Council, and Indigenous Peoples Association. Current Arctic 
Council human health activities include monitoring the human health 
impact of anthropogenic pollutants, climate variability, infectious 
diseases, and the expansion and assessment of tele-health innovations 
in Arctic regions.
National Cooperation on Arctic Human Health
    The U.S. Congress passed the Arctic Research and Policy Act, in 
July 1984, finding that ``Arctic Research expands knowledge, which can 
enhance the lives of Arctic residents, increase opportunities for 
international cooperation and can facilitate national policy on Arctic 
Research.'' The Act established the Arctic Research Commission to 
promote and recommend research priorities. The Commission recommended 
an interagency program focusing on the health concerns of Arctic 
residents, and designated that the National Institutes of Health (NIH) 
lead this effort with assistance from other agencies. We look forward 
to partnering with our sister agency on this recommendation.
    Arctic research programs of the Centers for Disease Control and 
Prevention (CDC) are focused on improving public health in Arctic 
communities. Programs are currently conducted by the National Center 
for Infectious Disease (NCID), the National Center for Environmental 
Health (NCEH), National Center for Chronic Disease Prevention and 
Health Promotion (NCCDPHP), and the National Institute of Occupational 
Safety and Health (NIOSH). These programs are conducted in 
collaboration with the State of Alaska Division of Public Health, the 
Alaska Native Tribal Health Consortium, regional tribal health 
organizations, the Indian Health Service, the National Institutes of 
Health, and other state and local agencies and organizations.
    The Arctic Investigations Program, located in Anchorage, Alaska, is 
one of three U.S.-based field stations operated by the NCID. The 
mission of AIP is the prevention and control of infectious diseases 
among residents of the Arctic and sub-Arctic, and in particular the 
elimination of health disparities caused by infectious disease that 
exist among the indigenous populations of these regions. The AIP has 
led efforts to eliminate Hepatitis A&B, and invasive diseases such as 
meningitis caused by Haemophilus influenzae type b, and pneumonia 
caused by Streptococcus pneumoniae in the U.S. Arctic. The Division of 
Environmental Hazards and Health Effects of the NCEH together with the 
Alaska Native Tribal Health Consortium and the AIP are concluding 
studies of the level of human exposure to environmental pollutants in 
the Arctic, and the potential role of environmental contaminants as 
cofactors in breast cancer in Alaska Natives. The NCCDPHP is beginning 
a study to generate new information on nicotine and carcinogen exposure 
in users of commercial and home-made chewing tobacco. The results will 
be used to generate public health messages for local tobacco control 
programs. The Alaska Field Station of the National Institutes of 
Occupational Safety and Health was established to decrease the number 
and rate of work-related injuries among industries that face extreme 
hazards due to the Arctic environment. Through research, outreach with 
industry and community partners, and active prevention activities has 
resulted in a 60 percent decrease in the number of occupational 
fatalities since 1990. These CDC Program accomplishments and plans are 
reported biennially in the Interagency Arctic Research Policy Committee 
Report of U.S. Arctic Research published by the National Science 
Foundation Office of Polar Programs.
The AHHI and the International Polar Year
    The Arctic Human Health Initiative (AHHI) is an IPY Arctic Council 
project, led by the U.S. Department of State, and the CDC. The aim of 
AHHI is to increase public and political awareness and visibility of 
human health concerns of Arctic peoples, foster human health research, 
promote health strategies that will improve the health and well-being 
of all Arctic residents. The AHHI will coordinate IPY projects that 
focus on Arctic human health research and that will advance the joint 
circumpolar health research agendas of the Arctic Council and IUCH.
    Priority IPY human health research needs of Arctic communities 
includes studies that include the assessment and mitigation of human 
health effects of:

  <bullet> Anthropogenic pollution in Arctic regions.

  <bullet> Oil, gas, and other sustainable development activities.

  <bullet> Contaminants and zoonotic infectious diseases on subsistence 
        species and the traditional food supply.

  <bullet> Climate variability.

  <bullet> Infectious diseases including tuberculosis, HIV/AIDS, 
        hepatitis, vaccine-preventable diseases, and emerging 
        infectious diseases such as Avian influenza.

  <bullet> Chronic diseases such as cancer, cardiovascular diseases, 
        obesity and diabetes.

  <bullet> Behavioral health issues, such as suicide, interpersonal 
        violence and substance abuse, and unintentional injuries.

    Human health surveillance, monitoring and research networks allow 
the monitoring of diseases of concern in Arctic communities through the 
development of standardized study protocols, data collection, 
laboratory methods, and data analysis. These networks allow the 
monitoring of disease prevalence over time, the determination of risk 
factors for disease and evaluation and implementation of disease 
prevention and control strategies. For example, the CDC's AIP 
coordinates the International Circumpolar Surveillance (ICS) of 
infectious diseases, which links hospital clinical and public health 
laboratories and institutes in the U.S. Arctic, northern Canada, 
Greenland, Iceland, Norway, Finland, and northern Sweden for the 
purposes of monitoring invasive bacterial diseases that cause 
pneumonia, meningitis and blood stream infections. During the IPY this 
system will be expanded to include the monitoring of tuberculosis in 
Arctic countries, and include public health centers in 14 regions of 
northern Russian Federation.
    As of September 15, 2006, there have been more than 1,145 
Expressions of Interest and 222 full proposals endorsed by the IPY 
Joint Committee to undertake research projects during the IPY. A full 
description of the AHHI (full proposal number 167) can be viewed at 
www.ipy.org. The proposal has been designated by the IPY Joint 
Committee as a coordinating proposal under which other human health 
related research proposals will be managed. To date, 13 Expressions of 
Intent and 8 full proposals from five of the eight Arctic countries 
have been clustered within the AHHI.
    The AHHI will coordinate research projects through an International 
Steering Committee led by the CDC with representation from the 
International Union for Circumpolar Health, Arctic Council human health 
working groups, indigenous people's organizations, World Health 
Organization, the Fogarty International Center of the National 
Institutes of Health and other partners. The overall role of the 
Steering Committee will be to carry out the aim of AHHI, review and 
endorse proposals, identify research gaps, evaluate progress, 
facilitate reporting of research findings to the research community, 
communities at risk, policymakers and the general public, and guide the 
direction of human health research beyond IPY.
    The IPY presents a unique opportunity to focus public and political 
attention on health concerns of Arctic communities and develop 
collaborative, international research programs that will address those 
concerns. The improvements in health status already achieved by Arctic 
peoples provide hope that through concerted effort and clear vision, 
existing health challenges and disparities can also be overcome. We 
believe that U.S. leadership and scientific contributions to the 
International Polar Year Arctic Human Health Initiative are an 
important step.
    Thank you for the opportunity to share this information with you. I 
am happy to answer any questions.

    Chairman Stevens. Well, thank you very much, Dr. Parkinson. 
We will have some questions. I think you have a very 
interesting role in the Arctic right now.
    Our last witness is Dr. Thomas Armstrong, Earth Surface 
Dynamics Program Coordinator for the USGS, in Reston, Virginia.
    Doctor, it's nice to have you with us, too.

             STATEMENT OF DR. THOMAS R. ARMSTRONG,

          PROGRAM COORDINATOR, EARTH SURFACE DYNAMICS,

                 U.S. GEOLOGICAL SURVEY (USGS),

                   DEPARTMENT OF THE INTERIOR

    Dr. Armstrong. Thank you, Senator Stevens and Senator 
Murkowski. Thank you for having me here today to talk to you 
about the issue of the U.S. Geological Survey's and the 
Department of the Interior's activities related to the 
International Polar Year.
    My name is Thomas Armstrong, and I am the Program 
Coordinator for the Earth Surface Dynamics Program at USGS. I 
also represent the USGS and the Department of the Interior on 
the Arctic Monitoring and Assessment Program's Climate Working 
Group and activities related to the Arctic Climate Impact 
Assessment.
    The USGS and other bureaus within DOI will participate in 
the IPY through extension and enhancement of our existing 
programmatic activities and research assessment and long-term 
monitoring in the polar regions that support the missions of 
our organizations and address the themes and goals of the IPY. 
These activities span the biologic, geologic, hydrologic, 
geographic, and information sciences. And some of the specific 
activities include the development of a satellite image atlas 
of glaciers of Asia, Alaska, and Iceland. Some of this work has 
already been completed. Some of this work is in press now, 
including the Atlas for Alaska Glaciers. The distribution of 
ice sheets in the Arctic, sub-Arctic, and Antarctic are 
critically linked to water availability for both human and 
ecological needs, as well as changes in sea level worldwide, 
and, therefore, have global-scale ecologic and socioeconomic 
impacts. These images, as part of this atlas, are part of a 
worldwide series that will help in assessing the current 
distribution of glacial ice and rates of glacial ice retreat, 
as well.
    Another effort that's ongoing at USGS is the development of 
the state of the Earth's cryosphere at the beginning of the 
21st century. This long-term monitoring program of the Earth 
has been a cornerstone of USGS throughout its history. The USGS 
has been monitoring many physical and biological parameters in 
the Arctic, and these include three benchmark glaciers for 
climate change, the monitoring of stream runoff, and several 
critical marine mammals and their health. The results of these 
monitoring efforts will be examined, analyzed, and reported on 
during the course of the IPY.
    Another effort that we're conducting now, and is starting 
to gain a lot of momentum, is the development of the Yukon 
River Basin Project, which will address rates and effects of 
permafrost thawing in the Arctic.
    USGS scientists and managers are working with a consortium 
of U.S. and Canadian Federal, State, and provincial agencies, 
university scientists, including those from the University of 
Alaska Fairbanks, and tribal organizations along the Yukon 
River Basin to initiate a major project to understand and 
predict climate-induced changes to the air, water, land, and 
biota within the Yukon Basin. This effort will provide a 
benchmark for tracking and understanding changes to biological 
communities, stored carbon, the water cycle, and human 
infrastructure as a consequence of climate-induced permafrost 
thawing and landscape change. And I'd like to point out, in a 
question Senator Stevens had to the first panel, we are also 
pursuing the possibility of providing a science and education 
outreach person in one of the native communities that will work 
with all the communities on the Yukon Basin to help establish 
an educational program and a stream--or a river-monitoring 
program for water quality with the native population.
    Another effort that's ongoing at the USGS is the petroleum 
resource assessment of the Arctic. The USGS World Petroleum 
Assessment of 2000 estimated that a significant portion of the 
remaining oil and gas resources of the world reside in the 
Arctic. This follow-on study will examine Arctic basins in more 
detail and report on oil and gas resource potential of 
unexplored basins. The initial results should be completed 
during the course of the IPY.
    And, finally, one other effort I'd like to talk about 
briefly with you is the Landsat 7 Image Map of Antarctica, also 
known as LIMA. The LIMA will create three high-quality, 
remotely sensed mosaics of Antarctica from more than 1200 
Landsat scenes, in cooperation with the British Antarctic 
Survey, the National Science Foundation, and NASA.
    Other agencies within the Department of the Interior are 
planning to carry out activities incorporating International 
Polar Year components. Most notably, these include the U.S. 
Fish and Wildlife Service as the lead agency for the 
Conservation of Arctic Flora and Fauna Working Group, also 
known as CAFF. This is part of the Arctic Council and the 
international development of the Circumpolar Biodiversity 
Monitoring Program, which will also serve to guide and 
coordinate monitoring activities in the Arctic region, 
facilitate methodologies, and address gaps in existing data on 
status and trends.
    The Circumpolar Seabird Information Network, another new 
initiative led by the Service, will greatly expand the 
international knowledge base of the Arctic Region and its 
ability to address issues regarding bird species of 
conservation concern.
    And, finally, the Minerals Management Service will continue 
to--its environmental and sociocultural research in and around 
the Beaufort/Chukchi Seas of the Arctic to support management 
of offshore gas and oil resources. Research planning activities 
include collaboration with the National Oceanographic 
Partnership Program, individual agencies, and research 
scientists to incorporate IPY components, when feasible.
    This concludes my testimony. My intention was to leave you 
with a brief portrayal of just some of the Department of the 
Interior's many science, monitoring, and assessment studies, 
and related support infrastructure that are firmly within the 
scope and spirit of the International Polar Year. I thank you 
for the opportunity to speak with you today, and I look forward 
to answering any questions that you may have.
    [The prepared statement of Dr. Armstrong follows:]

Prepared Statement of Dr. Thomas Armstrong, Program Coordinator, Earth 
  Surface Dynamics, U.S. Geological Survey (USGS), Department of the 
                                Interior
    Thank you for the opportunity to address you, and the Committees, 
on the issue of U.S. Geological Survey (USGS) activities related to the 
International Polar Year (IPY). My name is Thomas Armstrong, and I am 
the Program Coordinator for the Earth Surface Dynamics Program at USGS. 
I also represent USGS and the Department of the Interior (DOI) on the 
Arctic Council's Arctic Monitoring and Assessment Program's Climate 
Working Group, and activities related to the Arctic Climate Impact 
Assessment.
Background
    The USGS serves the United States by providing reliable scientific 
information to describe and understand the Earth, minimize loss of life 
and property from natural disasters, manage water, biological, energy, 
and mineral resources; and, enhance and protect our quality of life. It 
is within the spirit of this mission that the USGS has developed plans 
for participation in the International Polar Year, working with 
partners in DOI, with other Federal and State agencies, and with 
scientific colleagues around the world.
    The IPY will extend from March 2007 through March 2009. This period 
will commemorate the fiftieth anniversary of the 1957-1958 
International Geophysical Year. The IGY, as it was called, was modelled 
on the International Polar Years of 1882-1883 and 1932-1933, and was 
intended to allow scientists from around the world to take part in a 
series of coordinated observations of various geophysical phenomena. 
The work of scientists from over 60 countries literally spanned the 
globe from the North to the South Poles. Although much work was carried 
out in the Arctic and equatorial regions, special attention was given 
to the Antarctic, where research on ice depths yielded radically new 
estimates of the earth's total ice content. In a similar spirit of 
discovery and understanding, IPY 2007-2009 is envisioned as an intense 
scientific campaign to explore new frontiers in polar science, and to 
improve our understanding of the critical role of the polar regions in 
global processes. Most significantly, IPY is envisioned as an 
opportunity to engage the public in polar discovery and help attract 
the next generation of earth scientists.
    Within current funding amounts, the USGS will participate in the 
IPY through extension and enhancement of programmatic activities in 
research, assessment, and monitoring in the Polar Regions that support 
the scientific mission of our organization, and address the themes and 
goals of the IPY. These activities span the biologic, geologic, 
hydrologic, geographic, and information sciences and will include but 
not be limited to:

  <bullet> Research and monitoring of the status and distribution of 
        fish, wildlife and vegetation; determination of species at 
        risk; permafrost evaluation to include assessment of changes in 
        the thermal regime and feedbacks with the changing climate, 
        organic carbon characteristics and distribution; evaluation of 
        hydrologic inputs to the carbon budget--including the influence 
        of large river deltas on carbon flux to the marine system, snow 
        and water-borne contaminants and freshwater inputs; and the 
        evaluation of surficial and geochemical processes in 
        understanding the changing polar environment.

  <bullet> Integrated monitoring for assessing the relationship between 
        major stressors, like climate change, and regional changes in 
        the carbon cycle of Arctic watersheds; ground and satellite-
        based monitoring of glaciers and icecaps for volumetric 
        changes, and monitoring of thermal changes in permafrost; 
        reconstruction of past climate cycles and evaluation of current 
        changes from sediment and ice core records; monitoring and 
        assessment of changes in rates of coastal erosion and surficial 
        processes; evaluation of changes in status and distribution of 
        circumpolar vegetation, fish and wildlife, and freshwater 
        discharges in the Arctic.

  <bullet> Evaluation of the nature of arctic/boreal hydrologic 
        interactions and the relationships between climate and plant 
        growth, productivity, permafrost depth, and resulting effects 
        on nutrient availability and atmospheric heat sources and 
        sinks.

  <bullet> Establishment or extension of permanent monitoring 
        infrastructure for permafrost, global seismicity, and 
        geomagnetic activity. Assessment of energy resources in the 
        circum-arctic area including oil, gas, coalbed methane and 
        methane hydrates.

  <bullet> While the USGS will not conduct specific social science 
        research as a part of IPY, several of our studies will have 
        implications for populations living in the Polar Regions. These 
        include our energy and mineral assessments, especially studies 
        of coalbed methane potential for providing energy to isolated 
        communities; natural hazards monitoring; studies of scour 
        modelling due to changes in hydrology and their impacts on 
        manmade structures; and 3-dimensional assessments of changes in 
        permafrost that may have serious impacts on Arctic road 
        networks and other forms of infrastructure.

  <bullet> An additional element will include the production of 
        geospatial information related to high-resolution elevation 
        data and digital ortho-imagery for Polar Regions of Alaska, and 
        the development of an IPY portal on the USGS public website. 
        The portal will provide one-stop access to USGS science 
        datasets; information products (e.g., maps and reports); 
        educational resources for teachers; and tools and applications 
        (e.g., geospatially referenced index of pertinent data, 
        bibliography of key references, scientific collaboration 
        tools). The USGS IPY portal will be linked to Geospatial One-
        Stop (www.geodata.gov), in order to leverage geospatial data 
        and tools available from other agencies and organizations.

    Beginning with the very first geophysical and geological surveys 
carried out in Antarctica over a half-century ago, the USGS has 
maintained a long tradition of scientific monitoring, assessment, and 
research in the Polar Regions. The USGS has an extensive history of 
activities including topographic mapping and geodetic control in 
Antarctica, satellite and ground-based monitoring of glaciers and ice 
caps, research on movements, distribution patterns and adaptation of 
polar wildlife, operation of a seismic array at the South Pole, 
estimations of energy resources of the circum-Arctic, mapping of the 
distribution of circum-arctic vegetation, and the development of 
paleoclimate records from Alaskan sediments and polar ice cores.
    USGS participation in the International Polar Year allows the 
Agency to celebrate this enduring tradition with the global polar 
research community and to renew our commitment to polar science at a 
time when the eyes of the world are focused on these fragile regions.
    Numerous USGS programs are involved in research, assessment, and 
monitoring in the Polar Regions that support the scientific mission of 
the USGS and the Department of the Interior, and address the themes and 
goals of the IPY. Some of these specific activities and related 
products are listed below.
1. Research and Long-Term Monitoring of the Polar Regions

    Products and activities include:

  <bullet> Satellite Image Atlas of Glaciers of Asia, Alaska, and 
        Iceland http://www.glaciers.er.usgs.gov/html/chapters.html

         Glacial ice distribution, including major ice sheets in the 
        arctic, subarctic, and Antarctic, are critically linked to 
        water availability for both human and ecological needs, as well 
        as changes in sea level worldwide. Changes in these ice masses 
        therefore have global-scale ecological and socio-economic 
        impacts. Over the last several decades, the majority of the 
        world's glaciers have decreased in size and volume. These 
        images, part of a worldwide series, will help in assessing the 
        current distribution of glacial ice and rates of glacial ice 
        retreat worldwide.

  <bullet> State of the Earth's Cryosphere at the Beginning of the 21st 
        Century: Glaciers, Snow Cover, Floating Ice, Permafrost and 
        Their Impacts on Indigenous Marine Mammals

         The USGS has been monitoring permafrost temperature in the 
        Arctic; three Benchmark Glaciers for climate change, glacier 
        geometry, glacier mass balance, glacier motion, and stream 
        runoff; and marine mammals for many decades. The results of 
        those monitoring efforts will be examined, analyzed and 
        reported on during the IPY.

  <bullet> Yukon River Basin--Rates and Effects of Permafrost Thawing 
        in the Arctic

         USGS scientists and managers are working with a consortium of 
        U.S. and Canadian Federal, state, and provincial agencies, 
        university scientists, and tribal organizations to initiate a 
        major project to understand and predict climate-induced changes 
        to the air, water, land, and biota within the Yukon River 
        Basin. This collaborative scientific effort will provide a 
        benchmark for tracking and understanding changes occurring 
        throughout the Arctic and Sub-arctic region to biological 
        communities, stored carbon, the water cycle, and human 
        infrastructure as a consequence of climate-induced permafrost 
        thawing and landscape change.

  <bullet> Petroleum Resource Assessment of the Arctic

         The USGS World Petroleum Assessment of 2000, estimated that a 
        significant portion of the remaining oil and gas resources of 
        the world reside in the Arctic. This follow-on study will 
        examine Arctic basins in more detail and report on oil and gas 
        resource potential of unexplored basins. The initial results 
        should be completed during the IPY.

  <bullet> Landsat 7 Image Map of Antarctica (LIMA)

        The LIMA will create three high-quality remotely-sensed mosaics 
        of Antarctica from more than 1,200 Landsat scenes in 
        cooperation with the British Antarctic Survey. This work is 
        also funded by the National Science Foundation.

2. USGS Facilities and Resources for Arctic and Antarctic Research

    The USGS includes numerous facilities throughout the United States 
and Antarctica that are focused on activities that directly link to the 
International Polar Year. These facilities include:

  <bullet> U.S. National Ice Core Laboratory, USGS, Denver, CO

         The U.S. National Ice Core Laboratory (NICL) stores, curates, 
        and facilitates study of ice cores recovered from the polar 
        regions of the world. It provides scientists with the 
        capability to conduct examinations and measurements on ice 
        cores, and it preserves the integrity of these ice cores in a 
        long-term repository for current and future investigations. Ice 
        cores contain an abundance of climate information, more so than 
        any other natural source of climate information such as tree 
        rings or sediment layers. http://nicl.usgs.gov/.

  <bullet> U.S. Antarctic Resource Center, USGS, Reston, VA

         The U.S. Antarctic Resource Center (USARC) is the Nation's 
        depository for Antarctic maps, charts, geodetic ground control, 
        satellite images, aerial photographs, publications, slides, and 
        video tapes. These resources are items produced by Antarctic 
        Treaty parties in support of their activities in Antarctica and 
        provided to the USARC in connection with a resolution of the 
        treaty providing for exchange of information. http://
        usarc.usgs.gov.

  <bullet> USGS Alaska Science Center, Anchorage, AK

         The USGS Alaska Science Center is a Center of Excellence for 
        the Department of the Interior to address important natural 
        resources issues and natural hazards assessments in Alaska and 
        circumpolar regions through long-term data collection and 
        monitoring, research and development, and assessments and 
        applications. Their mission is to provide scientific leadership 
        and accurate, objective, and timely data, information, and 
        research findings about the earth and its flora and fauna to 
        Federal and State resource managers and policymakers, local 
        government, and the public to support sound decisionmaking 
        regarding natural resources, natural hazards, and ecosystems in 
        Alaska and circumpolar regions. http://alaska.usgs.gov/
        index.php.

  <bullet> McMurdo Long-Term Research (LTER) Program

         The USGS provides cooperative support to the McMurdo Long-Term 
        Research program for water resources data collection and 
        related activities. The support provided is in the form of 
        field assistance, guidance, and review of surface-water data 
        collection by INSTAAR and University of Colorado researchers in 
        the McMurdo Dry Valleys (Taylor Valley and Wright Valley) of 
        Antarctica. Cooperation is also provided in the form of 
        guidance and support for, and access to, USGS databases and 
        streamflow-records processing applications.

  <bullet> Antarctic Seismic Data Library System (SDLS)

         The SDLS is an Antarctic Treaty effort under the auspices of 
        the Scientific Committee on Antarctic Research (SCAR) to 
        collate and make openly available for research purposes all 
        marine multichannel seismic reflection data (MCS) acquired in 
        Antarctic regions (i.e., south of 60 degrees South). The SDLS 
        was implemented in 1991 under USGS sponsorship, but since about 
        1996, the SDLS has been run jointly by USGS (with National 
        Science Foundation--Office of Polar Programs and USGS funding) 
        and Osservatorio Geofisico Sperimentale (OGS, Trieste, Italy). 
        The seismic library has branches in 10 countries, with two 
        branches in the United States. The MCS data are sent to the 
        SDLS by data collectors, put onto CD-ROM and distributed to 
        SDLS branches where they can be viewed and used under the SDLS 
        guidelines specified in SCAR Report #9 (and addendums). To 
        date, 60 CD-ROMs holding more than 120,000 km of stacked MCS 
        data have been produced for SDLS branches.

  <bullet> Web-Enabling the U.S. Antarctic Photography Collection From 
        the USGS Earth Resources Observation Science (EROS) Center

         For more the 30 years, it has been USGS's privilege to archive 
        and serve the U.S. Antarctic Program, the international 
        Antarctic research community, and the public with access to the 
        U.S. Antarctic aerial photography collection held at the USGS 
        Center for Earth Resources Observation and Science (EROS). This 
        collection consists of an estimated 400,000 frames of 
        historical aerial photography dating back to the 1940s. This 
        collection is the best collection of Antarctic aerial 
        photography held by any country, and its value to the Antarctic 
        research community will only increase with time as work and 
        research continues in Antarctica.

         However, neither online metadata, browser images, photographs, 
        nor film products are available via the Internet for the U.S. 
        Antarctic Program Antarctic aerial photography collection. New 
        technology and improved digitizing methods have made it 
        possible to digitize the original aerial film rolls creating 
        browse and medium resolution images of each frame. We propose 
        to link the digitized USAP aerial photography browse and medium 
        resolution image files to the USARC paper map-line plots, and 
        web-enable the digitized collection in such a way that users 
        could download images over the Internet at no cost to the user. 
        Implementation of the proposal will result in an integrated on-
        line query, browsing and delivery capability for all historical 
        USARC photography in the USGS EROS Center.

  <bullet> Antarctic Geographic Place Names

         The USGS operates the U.S. Board on Geographic Names (USBGN) 
        conjointly with other Federal agencies. In accordance with 
        recommendations of the Advisory Committee on Antarctic Names 
        (ACAN), the USBGN approves all new names to be used in 
        Antarctica by the U.S. Government.

    In addition to work being done by the USGS, other agencies within 
the Department of the Interior are planning to carry out activities 
incorporating International Polar Year components. Most notably:

  <bullet> Fish and Wildlife Service Initiatives With the Arctic 
        Council

         The U.S. Fish and Wildlife Service (Service) is the lead 
        agency for the Conservation of Arctic Flora and Fauna Working 
        Group (CAFF) of the Arctic Council. As a contribution to the 
        International Polar Year, the Service has taken a lead role in 
        the international development and implementation of the 
        Circumpolar Biodiversity Monitoring Program, which will serve 
        to guide and coordinate monitoring activities in the Arctic 
        region, facilitate common methodologies, and address gaps in 
        existing data on status and trends. In addition, the Service, 
        in cooperation with representatives from other Arctic 
        countries, will convene an international group of experts to 
        develop an action plan for mapping the boreal forest, a 
        northern ecosystem critical to migratory birds and other trust 
        species. The Circumpolar Seabird Information Network, another 
        new initiative led by Service (and approved as well as jointly 
        funded by the Arctic Council countries), will greatly expand 
        the international knowledge base of the Arctic region, and it 
        ability to address issues regarding bird species of 
        conservation concern.

  <bullet> Minerals Management Service Research

         The Minerals Management Service will continue its innovative 
        mission-focused environmental and sociocultural research in and 
        around the Beaufort-Chukchi Seas area of the Arctic to support 
        management and development of offshore gas and oil resources. 
        Research planning activities for Fiscal Year 2007-2009 include 
        collaboration with the National Oceanographic Partnership 
        Program, individual agencies and research scientists to 
        incorporate IPY components when feasible. Plans include studies 
        of marine mammals and birds and their ecosystems, mesoscale 
        meteorology, river plume transport processes, ocean 
        circulation, sea-ice modeling and potential collaboration with 
        the developing Arctic component of the Integrated Ocean 
        Observing System (IOOS).

    This concludes my testimony. My intention was to leave you with an 
accurate portrayal of just some of the Department of the Interior's 
many science, monitoring, and assessment studies and related support 
infrastructure that are firmly within the scope and spirit of the 
International Polar Year. I thank you for the opportunity to speak with 
you today, and I look forward to answering any questions that you may 
have.

    Chairman Stevens. Well, thank you very much, Doctor. I 
remember so well when there were forces that tried to move USGS 
out of Alaska. I'm delighted to know that you're coming back 
and have a more robust program in our State. I think it's a 
very important function for us to maintain.
    I'm going to let Senator Murkowski start the questioning 
off on this panel, please.
    Senator Murkowski. Thank you.
    Dr. Armstrong, I'll just begin with you, since we just 
finished up, there. You have detailed just a few of the ongoing 
programs within not only USGS, but within Interior, as a whole. 
So, we know that there are a lot of good things going on now. 
We will assume that after IPY comes and goes, there will 
continue to be good things.
    Do you--is it the expectation that the level of 
collaboration and sharing of the data that will be collected 
during these years of IPY will continue so that you, within 
USGS, can be working with--whether it's other agencies or other 
countries, in the data that they have collected and, through 
various programs, will continue to collect? Is that, kind of, 
where you see this going?
    Dr. Armstrong. Yes, Senator. I think one of the real 
beauties of our participation in IPY is the fact that this is 
all part of our current core program. And what IPY has been 
able to provide us is a focus mechanism to really focus on 
addressing some of the critical Arctic and polar issues, both 
in Antarctica and the Arctic itself. The work that we're 
talking about is long-term basic science, applied science, 
long-term monitoring and assessment, including adaptive 
assessment. I see this work going on well beyond the end of 
IPY. I think, frankly, this is not even the beginning. We've 
been doing a lot of this work for many years, and we'll 
continue to promote this work for a long time to come.
    Senator Murkowski. That was exactly the answer I wanted to 
hear.
    Dr. Bell, I want to understand--recognizing your position 
on the International Planning Committee--if you've got some 63 
different countries, each country perhaps having a--perhaps a 
little bit different perspective, or looking for something a 
little bit different, you have all of the programs that we are 
hopeful will advance--in terms of how you coordinate all of 
this to make sure that you don't have a multitude of different 
projects all going after the same thing, everybody spending 
their dollars, how do you make sure that we are collaborating 
to the fullest extent possible so that we get the maximum for 
the dollars that will be spent?
    Dr. Bell. I think that's an excellent question. And one of 
the tremendous differences between this International Polar 
Year and IGY in 1958, and the earlier two, is that--the way in 
which we do science. The earlier three were all--came directly 
out of the military and were all very top-down. And it would 
have been a lot easier--any one of us could have sat down and 
written a science plan and come up with priorities, and then 
shared it with people--similar people in other nations, and 
just decided. But the process was very different. It was much 
more of a grassroots process based on very much the way we run 
science here in the U.S. And one of the nice things is, is that 
the U.S. was actually ahead in the planning, and much of the 
framework you see was set up by the U.S. science community. 
It's important to remember, each of these little honeycombs is 
a group of scientists somewhere between, say, 20 and a couple 
of hundred--who have gotten together and recognized that this 
is an unique opportunity for them to work together. And they 
are working very hard to do exactly what you're asking, is to 
leverage the resources, and to be able to go places and ask 
questions and install monitoring systems that, without the IPY, 
we wouldn't have the motivation to do.
    Senator Murkowski. But who is coordinating so that the 20-
some-odd scientists that are at the top of the honeycomb over 
here--who's telling them, ``Look, the same guys are--a 
different group of guys are doing the same project down here. 
Get together with them''? Is there that level of coordination 
and collaboration?
    Dr. Bell. There's no one sitting there--as much fun as it 
would be to be the one sitting there telling everybody they 
must work together, there's no one actually saying that groups 
must work together. These were grouped--all the ideas were put 
forward internationally. It was very much a sort of web-based 
approach to this, almost like an international dating service 
for scientists, in that all the ideas were put forward first, 
scientists were able to search the database, look for people 
who had similar ideas, and then out of that grew this 
honeycomb. So, all along there has been an encouragement of the 
community to work together, but--scientists don't always work 
together, but all of these are having to go through their 
national programs, and it's through the national programs, it's 
through the NSFs, the NOAAs, the NASAs, who are--the agencies 
are talking between nations. That's where much of the 
coordination is actually happening. The ideas are coming out of 
the scientists, and the coordination is happening at the agency 
level.
    Senator Murkowski. In your, kind of, summary, you've 
indicated if there's something that needs to be done, we need 
to have the participation, basically a buy-in by the agencies. 
But your second point was, we've got to increase the 
coordination between the projects and the countries. So, is the 
coordination and the communication adequate, at this point? If 
not, what more do we need to do?
    Dr. Bell. I think it's barely adequate. It think it could 
be better if there was, in essence, a little bit more 
infrastructure working to encourage what you're asking.
    Senator Murkowski. On the U.S., international----
    Dr. Bell. I think both U.S. and international. I think both 
of them are really being done on a shoestring, at this point.
    Senator Murkowski. And does that go through NSF?
    Dr. Bell. The international coordination is currently 
housed at the British Antarctic Survey, some funding from the 
British Government, a little bit from the Chinese, and the 
National Academies just put forward some funds to encourage 
that coordination office to move forward. Within the U.S., it's 
really being spearheaded by NSF and through their interagency 
coordination.
    Senator Murkowski. And do you think that that's adequate?
    Dr. Bell. Oh, I think there could be some more coordination 
happening. And I think it really requires more funding. I mean, 
they need a more dedicated effort.
    Senator Murkowski. Dr. Parkinson, did you want to chime in 
here?
    Dr. Parkinson. Yes. Just, perhaps, as an example to help 
clarify the coordination issue. If you look at the honeycomb 
there, and project number 167 is the Arctic Human Health 
Initiative, and that is the--that is a cluster project which is 
the result of some 13 Letters of Intent and 8 full proposals 
from researchers who want to do health in the Arctic. They have 
submitted their proposals to the International Polar Year Joint 
Committee, and they are now clustered under the Arctic Human 
Health Initiative. And that is a coordinating--we are a 
coordinating body for those projects, and we can help 
coordinate the research and the results, and make sure the 
results are distributed, as well.
    Senator Murkowski. So, you didn't all come together with 
the same idea. It was a group that was focused on similar 
issues, and you were brought together, this dating service, as 
Dr. Bell----
    Dr. Parkinson. Yes, correct. We had some international 
meetings. We had meetings in Alaska, we've been involved with 
the native communities across the circumpolar north, to find 
out what their vision was, what their ideas were for health and 
health research in the IPY. And so, we came back with this 
laundry list of concerns. You know, climate change is certainly 
one; environmental contaminants, so on and so forth. And then, 
individual researchers in various countries came forward with 
proposals. And one of the requirements for the International 
Polar Year, of course, is that it's international. And so, we 
would link them up with other investigators in other countries, 
so they're all working on the same project. And so, we'll have 
a international collaborative project on pneumococcal disease 
or environmental contaminants.
    Senator Murkowski. So, for instance, in your comments 
you've mentioned a few health concerns for Arctic people. You 
mentioned the infectious diseases, breast cancer, work-related 
injuries. Are these all areas that we are seeing proposals that 
have been submitted for--to be approved for IPY projects, then, 
through your cluster of scientists?
    Dr. Parkinson. Not all of those are addressed. Those were--
that was just the list of concerns, and investigators with 
interests in those areas can submit proposals----
    Senator Murkowski. OK.
    Dr. Parkinson.--apply for funding through their specific 
funding sources in their particular country, and then undertake 
collaborative research to answer questions in that health 
arena.
    Senator Murkowski. Well, that helps me understand, a little 
bit better, how they come together.
    Dr. Sharpton, I don't really have a question for you, but I 
do just want to thank you for your statement about how you 
envision that Alaskans and Alaska Natives will be involved, not 
as subjects, you said, but as research partners. And I think we 
view this as a real opportunity. We don't want to just welcome 
the scientists to come up and use the hotels and charter the 
air services, we want to help. And I hope that we will be 
viewed as just exactly that: research partners. And I would 
certainly encourage, in as many efforts as possible, if we can 
get the kids involved in the research projects, if it's as 
simple as going out and collecting bird feathers or whatever it 
might be, or making observations in their scientific notebooks 
in sixth grade, what we not only gain is the data that they 
help us with, but you instill a lifetime of scientific 
exploration in these kids, and you can help them make this 
real, as I mentioned in the earlier panel. So, thank you for 
including them as research partners, and we look forward to 
working with you on that.
    I commend the University of Alaska for their, just, great 
efforts in moving this forward. There were a couple of 
different issues that you had mentioned: the network 
connectivity, needing to upgrade that. I think we recognize 
that is something that we've got to do. The mapping is just so 
obvious, I--I think it still stuns us to recognize how woefully 
behind we are in our mapping. But we look forward to working 
with you on those projects, as well.
    Dr. Sharpton. Thank you.
    Senator Murkowski. Thank you.
    Chairman Stevens. Thank you very much, Senator.
    Running through the comments today, there has been this 
reference to maps. Now, I've been around for a little while, 
and I've known some of the things the Navy did there in--during 
the days of our standoff with the Soviet Union, and 
particularly the submarines. Has anyone checked to see whether 
the Navy has any specific maps that have been made of the areas 
that we're concerned with, particularly around our State?
    Dr. Sharpton. Are you addressing me, Senator?
    Chairman Stevens. Whoever.
    Dr. Sharpton. Well, actually, I think probably one of the 
previous panelists would probably be more appropriate to answer 
that.
    My interest in maps really extends only to the land areas 
that we have. I think that's--you know, you use an entirely 
different type of technology for that.
    Chairman Stevens. Well, I will ask the Coast Guard again, 
but----
    Dr. Sharpton. Yes.
    Chairman Stevens.--it does seem to me that very clearly 
there has been less of a demand for maps in the polar area of 
the world, in terms of population demands. And there's a great 
many people visiting--more people visiting Florida than there 
are the beaches around Barrow, so we understand the lack of 
maps. But I'm going to try to get a handle on, how important 
are these maps to the proceedings under the IPY? Dr. Bell, do 
you have any feeling about--how important are maps to us before 
we complete this IPY?
    Dr. Bell. Well, you're talking to somebody who, you know, 
lives for understanding what's underneath ice sheets. So--and 
maps are how I do it, so I'm terribly prejudiced on this front. 
But one of--there a couple of issues, in terms of the North. 
There is the mapping offshore, which is certainly something you 
alluded to before. And there have been efforts to release some 
of the Navy data. And there are a number of people who could 
update you on exactly how much the Navy submarine data, at this 
point, has been released.
    Certainly, moving to where we better understand both poles, 
in terms of what's underneath the ice, whether it's the 
floating ice or the ice that's fixed, is one of those goals, I 
think, that the science community has put forward as something 
that would be wonderful to come out of the IPY. It's--in the 
southern regions, there are actually features the size of the 
Alps that we don't know about, because we only have one 
profile. It's actually worse than Alaska, in Antarctica, in 
terms of understanding what the basic topography of our planet 
looks like. We understand Mars much better. So, it is one of 
those tremendous outstanding needs of our planet, to know what 
the fundamental shape of it is beneath both poles, because it's 
what underneath that's going to control how ice is going to 
move in the long run.
    Chairman Stevens. And are you privy to the type of 
technology base we have now for that mapping? Is it adequate to 
do the mapping you want?
    Dr. Bell. Oh, do we have the--the technology exists to do 
it, it's really whether or not there are the focus programs 
that are going to go out--well, I'm not--I've been primarily--I 
have not talked about on-land mapping in Alaska.
    Chairman Stevens. No, I'm not talking on----
    Dr. Bell. OK.
    Chairman Stevens. I----
    Dr. Bell. You're talking----
    Chairman Stevens. We are----
    Dr. Bell.--underneath----
    Chairman Stevens.--proceeding with the on-land mapping 
through Interior on an annual----
    Dr. Bell. Right.
    Chairman Stevens.--basis. It's----
    Dr. Bell. Right.
    Chairman Stevens.--coming along pretty well.
    Dr. Bell. Right.
    Chairman Stevens. But the offshore, I don't think we have 
ever had a request for any.
    Dr. Bell. For mapping all of the offshore.
    Chairman Stevens. Yes.
    Dr. Bell. I don't think we have. I think you're right.
    Chairman Stevens. You're----
    Dr. Bell. It's been very much----
    Chairman Stevens.--really interested in the characteristics 
of the ocean floor----
    Dr. Bell. Right.
    Chairman Stevens.--right?
    Dr. Bell. Right. Ocean floor and sub-ice. I'm continuing to 
wear my hat of looking at both poles, and sub-ice in both poles 
is a key unknown on our planet.
    Chairman Stevens. Well, I shall ask the staff to prepare a 
request from me from the--to the Department of the Navy to find 
out precisely what they have and how classified it is.
    Dr. Bell. Yes.
    Chairman Stevens. I think that ought to be a starting 
point.
    Now, with regard to this IPY--again, running through the 
testimony we've had is the question about a little bit more 
urgency, in terms of funding. Each of your agencies that are--
each entity you have--not just entities, but--has some funding. 
Is this something I should have asked Mead Treadwell's--who is 
going to put together the proposal for the money that we--that 
you all would like to have, as opposed to what you've got?
    Dr. Armstrong?
    Dr. Armstrong. Yes, you--again, going back to the USGS IPY 
activities, these are part of our core program. This is work 
that is either being conducted or will be conducted from our 
appropriated funds. We typically--like with the Yukon Basin 
study, we will be pursuing additional funding for that activity 
as part of my Earth Surface Dynamics Program, but it's on a 
program-by-program basis. But the activities that I outlined 
today are activities that are currently funded within our core 
program.
    Chairman Stevens. Well, if I were to seek to add some money 
to one of these appropriations bills, there would be another 
scream about pork. Frozen pork, I guess would be this one.
    [Laughter.]
    Chairman Stevens. But are we to--are we going to see some 
sort of collaboration with regard to how much money is needed 
to make IPY a--really, the kind of function we want it to be, 
and how those moneys would be allocated? Is that, again, a 
question I should have asked the previous panel?
    Dr. Bell. I think it would have been good to ask the 
previous panel. And I can offer you the little bit of work we 
did on this through the National Academies. We did two parts of 
planning. We put together the Vision Report that very much 
reflects the frontiers and the environmental change, themes I 
put on the table today, plus involving the humans in the polar 
regions. That came out of the Vision Report. But, following 
that, we held an interagency workshop where we brought together 
the agencies and had them discuss about what they do, and made 
a wish list, you know, because, at that point, people were 
being very conservative. And so, at that point there was a wish 
list made, and an order-of-magnitude number put on the table, 
but nobody's gone back and systematically looked through what's 
possible to do now and what sort of numbers would be necessary.
    Chairman Stevens. Do you need ships, surface ships, for 
your type of--developing the kind of information you need?
    Dr. Bell. Me, personally? I use----
    Chairman Stevens. No----
    Dr. Bell.--airplanes.
    Chairman Stevens.--your part of this basic research.
    Dr. Bell. Oh, on--the basic research will involve ships, 
airplanes, and satellites. It will involve every tool--as well 
as, you know, autonomous vehicles, whether they fly or swim. I 
mean, the goal is to use all the technology that we have in our 
toolbox today.
    Chairman Stevens. Dr. Bement, you're still here, aren't 
you, somewhere? He left? All right. Well, I'll send him a 
letter and ask him about it. We just have a provision in a bill 
that just is ready to pass, that the NSF must pay the Coast 
Guard for the use of the vessels that they want to use in their 
basic research projects. There's a problem there of one agency 
assuming that the other agency is going to put up the money for 
their functions. But I'm trying to get a grasp on the concepts 
of what we need to make sure we--you go forward. How much 
does--let me back up and say--I tried to build a new Arctic 
Research Institute building in Barrow. I'm sure you all know 
that. But we have not succeeded yet. Is that going to be needed 
for this function? Is it necessary to have any more facilities 
in Alaska to carry out the work that you would all like to see 
being done?
    Dr. Sharpton, what do you think?
    Dr. Sharpton. Well, I think, with the new facility that's 
being constructed, now, Senator Stevens, we probably have 
ample, but not excessive, infrastructure for Barrow. The real 
issue for Barrow, in my estimation, is providing the 
connectivity with the rest of the world. I mean, you know, it 
is going to be a site of tremendous scientific activity, and 
we've got to be able to get that information from Barrow to the 
rest of the world in an effective way. And so, having some 
means of telecommunications that is reliable and broadband is 
going to be absolutely essential.
    Chairman Stevens. That would be simple to do if we could 
get the communications bill that's currently stalled on the 
floor of the Senate. But I will look into that, yes.
    Are there--is there anything else that you all think that 
is necessary to pursue this IPY that we do not have currently 
scheduled for--in terms of funding?
    [No response.]
    Chairman Stevens. Any activities? Let me just go to Dr. 
Bell.
    Dr. Bell. Well, I think, in essence, what the science 
community has been concerned about is whether or not--and this 
is why I don't think you can--it would be called ``polar 
pork''--is because what the science community is looking for is 
funds to compete for--you know, funds that will go through the 
peer-review process. And the science community is concerned 
whether or not there will be any incremental new funds, and how 
much new funds. The order-of-magnitude number that was talked 
about at that workshop was on the order or $500 million new 
funds across the agency.
    Chairman Stevens. In what period of time?
    Dr. Bell. Over the course of 4 years.
    Chairman Stevens. All right. That's----
    Dr. Bell. And----
    Chairman Stevens.--a good figure. Dr.----
    Dr. Bell. Right.
    Chairman Stevens.--Sharpton, what do you think?
    Dr. Sharpton. Well, as far as additional funding, we 
certainly need to have the Arctic Region Research Vessel 
funded. I think that's going to be an important element. It's 
probably not going to come online--obviously, it won't come 
online for IPY, but it can be considered one of those--one of 
those legacies that fall out of global attention to polar 
activity, polar issues during IPY.
    Chairman Stevens. How would you--well, let me finish this 
question first. What do you think, Dr. Parkinson?
    Dr. Parkinson. In terms of funding, Senator?
    Chairman Stevens. Yes.
    Dr. Parkinson. I'm----
    Chairman Stevens. What funding do you think we need that we 
don't have?
    Dr. Parkinson. I'm not aware of any specific funding for 
health, so to speak. A number of agencies are involved in the 
Arctic Human Health Initiative. What--the way we have been 
looking at it up until now is that it's some--like a potluck, 
where each agency brings something to the table, and we are 
hoping that there's enough to go around.
    Chairman Stevens. And you, Dr. Armstrong?
    Dr. Armstrong. As I said, we have a substantial amount of 
core funding in Arctic and Antarctic research, about $25 
million, at USGS. We are trying to promote the establishment of 
larger programs in the Arctic, in Alaska, in the sub-Arctic. 
I--from a programmatic perspective, more money for monitoring--
we can, in Alaska, a State that's so important to understanding 
climate change in sensitive areas, the need for more stream 
gauges for carbon flex monitoring, those are examples of things 
that we certainly need more of. And--but it's not just for USGS 
or the Department of the Interior, it's in cooperation with our 
partners at the universities--NASA, NOAA, NSF. And these are 
discussions that are--we have at the Climate Change Science 
Program, where we all get together and talk about priorities in 
the Arctic and the Antarctic. So, it's--there's always a need 
for more work to enhance what we're doing, and more funding for 
that. But those are just a couple of examples of things that 
are really needed in a place like Alaska, where, you know, for 
the issues that we're talking about, there is a need for 
substantial infrastructure.
    Chairman Stevens. How do you think our contribution as a 
nation to this IPY compares to other countries that are 
involved? Have--anybody got any judgment on that? Do you, Dr. 
Bell?
    Dr. Bell. I think, intellectually, so far, we've been 
playing a leading role. Many of the programs you're familiar 
with--the SEARCH program, for example, the study of 
environmental change in the Arctic--are an integral part of the 
fabric and--of that overwhelming honeycomb diagram. That really 
captures much of the planning that came out of the U.S. science 
community.
    I think--relative to putting the resources on the table, I 
think we have not--the Canadians have put $125 million, the 
Chinese have put $65 million, and a number of places are 
building new ships or new stations. So, I don't think we've 
quite stepped up to the plate as much as we can, as a nation, 
or as much as we need to, financially, to assure the leadership 
that we're, sort of, posed to grab.
    Chairman Stevens. Mead, how long before that wish list of 
yours will be ready?
    Mr. Treadwell. We can give you an analysis of what's in the 
Arctic plan and what's not in the budget soon. I've got an 
analysis of what was appropriated in NOAA last year and not 
requested this year, and we can get you those things.
    Chairman Stevens. How long will that take to get together?
    Mr. Treadwell. We can get you some numbers today, Senator.
    Chairman Stevens. I don't need it today. I mean--in time.
    Mr. Treadwell. The Commission will be meeting the 9th and 
10th of October, and we could resolve something by that time.
    Chairman Stevens. All right. My feeling is, we ought to 
have, maybe, a teleconference session to really examine--when 
Mead gets that together--to see whether you all agree, and then 
we ought to try to see if we can get an appointment with OMB 
and Josh Bolten to see how we can get some energy behind this 
movement. I think we ought to be in the forefront of it. If 
we're not, we're going to be left behind. I'm thinking about 
the study that shows how we're far behind in educating our 
people now. I don't think we can afford to get behind in this, 
now. This is something we should stay ahead of. And it might be 
a stimulus to help us play catch-up, in terms of some of the 
education we need for science, math, and technology.
    So, I'm going to--you deal with the substance, milady, I'll 
try to deal with the money.
    Senator Murkowski. That works for me, Senator.
    [Laughter.]
    Chairman Stevens. We thank you very much and appreciate 
your courtesy of being with us. We look forward to working with 
you. I think that this is a stimulating thing, as far as Alaska 
is concerned, and we want to try and stay on top of it. But it 
cannot turn into being just an Alaska item or it'll just be 
knocked aside as another one of those, you know, things that 
have four legs and a swirly tail. So----
    Dr. Bell. That's why it's so important to consider both 
poles as we move forward.
    Chairman Stevens. I've been down to Antarctica.
    Dr. Bell. Yes?
    Chairman Stevens. We've got another scheduled trip down 
there.
    Dr. Bell. Good.
    Chairman Stevens. We should go down again, and----
    Dr. Bell. Good.
    Chairman Stevens.--maybe some of you could go along with 
us.
    Thank you very much.
    [Whereupon, at 5:20 p.m., the hearing was adjourned.]
                            A P P E N D I X

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Chairman Stevens, Senator Murkowski, thank you for calling 
attention to the upcoming International Polar Year (IPY). I look 
forward to celebrating 125 years of scientific achievement and 
international collaboration and expanding on this legacy of polar 
research in 2007 and 2008.
    I am excited by the prospect that this upcoming `burst' in 
scientific research will lead to a greater understanding of the 
unprecedented environmental change currently underway at the polar 
regions.
    Today we face many environmental issues, but one of the greatest is 
global climate change. The indigenous people of the Arctic already see 
the effect of climate change on their lives, but it is only a matter of 
time before the impact of these changes will be felt around the globe.
    For example, as the Earth's temperature has increased, the melting 
of icecaps and glaciers has become evident.
    By 2100, sea levels could be several feet higher than they are now, 
which would have devastating effects on coastal areas, including my 
home State of Hawaii and the other Pacific Island nations.
    We have already seen the powerful destruction a tsunami or severe 
weather can have on our low-lying islands, and this damage will be 
magnified under the National Oceanic and Atmospheric Administration's 
(NOAA) projections of a one to three foot rise in sea level.
    The polar regions are important places for the United States to 
research and I am pleased that the Committees will hear about the 
United States' current plans to participate in the upcoming IPY, as 
well as actions we still must take to ensure the United States 
continues to support this significant research.
    This effort also should attract a new generation of scientists to 
the study of our Earth systems--and the oceanic and atmospheric forces 
that drive the system.
    However, I am concerned that the Administration has not provided 
sufficient support to NOAA and the Coast Guard to make this IPY a true 
success, and I hope our witnesses speak to that issue.
    Adequate U.S. support for IPY is vital, not only because the 
scientific findings from this IPY will encourage us to be better 
stewards of the health of this planet, but because its true and lasting 
legacy will be a new generation of Earth scientists--a generation that 
will be tapped to reverse the awful trajectory of global warming.
                                 ______
                                 
            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Let me thank both Chairs for today's hearing. I strongly support 
America's participation in the upcoming International Polar Year. In 
1882, twelve countries set out on fifteen expeditions in the First 
International Polar Year. That expedition taught us lessons about 
Earth's science and geography we still rely on. It also taught us the 
value of international science cooperation--a legacy I hope we will 
continue.
    I have been to Antarctica and to the Arctic. I know that changes 
are underway that can alter the marine life at both poles, raise each 
region's temperatures, and increase the sea level across our planet. 
Many of these changes are the result of global warming, and I hope the 
coming International Polar Year will deepen our knowledge into the harm 
global warming causes to our polar regions and globe.
    Several Federal agencies will help contribute to the success of the 
International Polar Year, including the NSF, the Coast Guard, and NOAA. 
I hope the impacts of global warming, including its role in changing 
the ocean food chain, will be a major part of our Nation's research 
agenda for the International Polar Year.
    I also want to talk about the condition of the Coast Guard's 
icebreakers. We have three vessels which break polar ice and serve as 
research platforms for our scientists. Two of these icebreakers are 
thirty years old and rife with maintenance trouble. Congress has 
provided insufficient funding for the Coast Guard in the past and I 
hope we will not repeat that mistake. Let us give the Coast Guard the 
money it needs, both for the Arctic and Antarctica, and for protection 
of America's seas.
                                 ______
                                 
      Prepared Statement of the National Oceanic and Atmospheric 
             Administration (NOAA), Department of Commerce
    This statement for the record will provide a brief background on 
International Polar Year (IPY), and discuss how the National Oceanic 
and Atmospheric Administration (NOAA) supports this important research 
opportunity. IPY is an excellent opportunity to advance science and 
Earth observations in the polar regions. Our statement summarizes our 
initial plans and provides an update to expected IPY activities during 
Fiscal Year 2007 to Fiscal Year 2009.
    IPY has been declared by the International Council of Science 
(ICSU) and the U.S. National Academies to extend from March 2007 
through March 2009. The objectives of IPY are to explore new frontiers 
in polar sciences; improve our understanding of the critical role of 
the Earth's polar regions in global processes; create a legacy of 
infrastructure and data for future generations of scientists; expand 
international cooperation; engage the public in polar discovery; and 
help attract and educate the next generation of scientists and 
engineers.
    NOAA began planning for IPY activities in the Fall of 2004. NOAA's 
Office of Oceanic and Atmospheric Research and programs across NOAA are 
using existing resources to conduct IPY-related activities. Our 
statement highlights work on 11 NOAA IPY-related projects. Each of 
these projects is associated with a formal International Council for 
Science-World Meteorological Organization (ICSU-WMO) IPY-endorsed 
project. These projects will contribute new data to Earth observing 
efforts, such as the Global Earth Observation System of Systems 
(GEOSS), and will advance understanding and predictability of the polar 
environment in NOAA's mission areas.
IPY Activities
Ocean Exploration in Polar Regions
    NOAA's Office of Ocean Exploration (OE) solicited specific projects 
for IPY via Federal Register announcements in calendar years 2005 and 
2006. OE also expects to solicit IPY-related projects during the 
calendar year 2007 Federal Register notice. OE, together with the NOAA 
Arctic Research Program and the Russian Academy of Sciences, plans to 
facilitate an expedition to the Arctic Ocean in 2008, as part of the 
ongoing RUSALCA (Russian American Long-term Census of the Arctic) 
program. The expedition will carry out a census of life in the unknown 
waters of the Arctic north of the United States and Russia, from the 
sea ice to the seafloor below. This information provides background 
observations necessary for the monitoring of changing ecosystems in the 
Pacific Region of the Arctic.
Causes and Impacts of Recent Changes in the Arctic Ocean
    Unprecedented minima of sea ice area have occurred in the Arctic 
Ocean during the four most recent summers. Summer 2003 and 2004 brought 
record forest fires and drought to eastern Siberia and Alaska after a 
decade of warm springtime temperature anomalies. In surrounding seas 
there has been a northward shift of ice-dependent marine animals. 
Changes in the Arctic Ocean are continuing, despite the observation 
that climate indices such as the Arctic Oscillation were negative or 
neutral for six of the last 9 years. The Arctic Ocean may have a larger 
role in shaping the persistence of Arctic change than has been 
previously recognized. We will work with our partners to carry out 
observations in this area to measure movement of water through the 
Bering Strait, gather observations about physical change in the state 
of the ocean in the Bering and Chukchi Seas, and study impacts of 
physical change on marine ecosystems in this region. Bering Strait 
mooring programs will be conducted, as well as mooring and ship-board 
studies in the eastern Bering Sea. Limited ship-board studies will be 
made in ice-free areas in the vicinity of Bering Strait and Chukchi Sea 
in association with mooring cruises. (For more information, see 
www.arctic.noaa.gov.)
Polar Atmospheric Observatories and Field Campaigns
    As part of the IPY project ``International Arctic System for 
Observing the Atmosphere,'' a system of strategically located, long-
term atmospheric observatories will be developed around the Arctic to 
carry out both routine measurements made at meteorological stations and 
intensive measurements at the surface and through the depth of the 
atmosphere. Measured quantities can include solar radiation, aerosols, 
air chemistry, trace gases, cloud properties, water vapor, ozone, 
temperatures, winds, precipitation, surface albedo, and stratospheric 
properties. These measurements are essential to calibrate and validate 
satellite sensors and to improve the reliability of climate models. The 
atmospheric observatory partnership includes the United States, Canada, 
Russia, Norway, Finland, and China. NOAA's existing baseline 
observatories at Barrow Alaska and South Pole will continue to focus on 
measurements of trace gases and aerosols.
Polar Stratospheric Ozone Depletion Observations
    As a part of the International Geophysical Year in 1957, column 
ozone measurements were initiated at South Pole, Antarctica, using 
Dobson spectrometers. NOAA scientist, Susan Solomon, was the leading 
scientist in identifying the cause of the annual stratospheric ozone 
depletion over Antarctic known as the ozone hole, first observed in the 
early 1980s. Solomon and her colleagues suggested that chemical 
reactions involving man-made chlorine from chlorofluorocarbons (CFCs) 
interacting with icy clouds in the cold polar stratosphere could be 
responsible for the unprecedented losses of ozone during the Antarctic 
springtime. She then led two U.S. scientific expeditions to Antarctica 
in 1986 and 1987 that succeeded in providing key observations 
confirming the theory. The Arctic stratospheric ozone changes, though 
lesser in magnitude than the Antarctic ozone hole, are by no means of 
lesser importance. Key studies will be undertaken in the Arctic to 
monitor these changes. Routine observations of ozone will continue at 
Barrow and South Pole during IPY. These projects are continuations of 
NOAA's ongoing stratospheric ozone depletion measurement programs.
Antarctic Living Marine Resource Survey
    The principal objective of the NOAA Antarctic Living Marine 
Resource research program is to collect the scientific information 
needed to detect, monitor, and predict the effects of harvesting and 
associated activities on target, dependent, and related species and 
populations of the Antarctic marine living resources and the 
ecosystem(s) of which they are a part. A 35-day ship-based research 
program is planned for Fiscal Year 2007.
Short-Term Arctic Predictability
    A scientific study in short-term Arctic predictability will explore 
the variability, and associated predictability of weather, sea ice, 
ocean wave, and land surface processes in the Arctic Region in the 3-90 
days time range, with special emphasis on improving forecast guidance 
for high impact events in the 3-14 day lead time range. NOAA will 
complete a study of northwest Alaskan coastal waves during the IPY. 
NOAA will also participate in sea ice studies at both poles aimed at 
improving measurement of ice thickness and forecasting. The NOAA 
THORPEX program will make observations and introduce forecast products 
to improve weather and intraseasonal forecasts for the Arctic.
Advances in Satellite Products and Their Use in Numerical Weather 
        Prediction
    Spatially comprehensive observations of the atmosphere in the data-
sparse polar regions significantly and positively impact high latitude 
numerical weather predictions. In addition, errors in model forecasts 
for the high latitudes often propagate to the mid-latitudes, implying 
that improvements to high latitude forecasts will result in better mid-
latitude forecasts. These findings provide the motivation to improve 
our ability to measure the state of the polar regions with satellites 
and to expand the use of these data in numerical weather prediction 
systems. NOAA will participate in IPY projects to improve the 
application of satellite sensors to environmental problems in the polar 
regions.
Arctic Climate Modeling
    The general goal of the Arctic climate modeling project is to 
improve predictions of the Arctic environment on timescales ranging 
from seasonal to decadal. Thus, our research will focus on analyzing 
and modeling the physical processes and connections between the Arctic 
and the rest of the globe. NOAA will continue to improve global climate 
models that include polar processes.
Arctic System Reanalysis
    A concerted effort during IPY to construct pan-Arctic atmosphere-
ocean-ice-land datasets, and to assimilate and enhance these with a 
high-resolution (coupled) reanalysis system optimized for the Arctic 
region, will provide researchers with an unprecedented description of 
the Arctic environment over the past several decades. The operational 
analysis system (post 2008), expected to be a legacy of this activity 
should provide constantly updated depictions of the Arctic environment, 
and foster improved short- and medium-range weather forecasts as well 
as seasonal climate outlooks. Improved understanding of Arctic climate 
processes resulting from development of the Arctic System Reanalysis 
(ASR) will lead to better global climate models, in turn reducing 
uncertainty in projected future climate states of the Arctic. The ASR 
will also serve as a vehicle for diagnostic evaluation of ongoing 
changes in the Arctic system.
NOAA's Data, Information, and Change Detection Strategy for IPY
    NOAA's fundamental data management responsibilities will be to 
securely archive IPY datasets and ensure that these and relevant polar 
data are easily accessible for current and future users. NOAA will 
utilize the existing World Data Center (WDC) System and NOAA's National 
Data Centers in order to serve as a clearinghouse and facilitator for 
data-management issues, and will work with IPY participants to ensure 
that International Council of Scientific Unions-World Meteorological 
Organization (ICSU-WMO) IPY Data Committee guidelines are followed. 
NOAA will also ensure that international standards such as the Open 
Archival Information System Reference Model and the ISO19115 metadata 
standards are met.
    NOAA intends to build and maintain a pan-Arctic view of climate 
variability and change that will serve decisionmakers with information 
products. These range from baseline atlases against which future 
assessments can be carried out, to the Near Real-time Arctic Change 
Indicator website (http://www.arctic.noaa.gov/detect/), where 
information on the present state of Arctic ecosystems and climate is 
given in historical context. NOAA Data Centers will assist NOAA 
scientists to archive their IPY data. NOAA will continue to acquire 
historical data and present it on the Arctic Change Indicator website 
to describe the state of the Arctic climate over the past 150 years, 
allowing a better context for new data collected during IPY.
Decision Support for Increasing Adaptive Capacity to Climate Change and 
        Variability in Alaska and the Arctic
    The cornerstone of NOAA's Regional Climate Decision Support program 
for Alaska and the Arctic is to establish an integrated program 
spanning stakeholder-influenced research and development of decision-
support tools for the sustained delivery of customer services. This 
includes establishing in Alaska a Regional Integrated Sciences & 
Assessments (RISA) to foster growth of climate services. NOAA plans to 
initiate the Alaska RISA, in 2006, through the University of Alaska. 
The Alaska RISA is a 5-year program designed to address regionally 
important climate issues to aid policy and decisionmaking. The Alaska 
RISA program could contribute significant results to our understanding 
of key climate related challenges facing the state, and would allow for 
innovative partnerships with neighboring countries.
    NOAA is part of the U.S. presence in the Arctic Council. The Arctic 
Council plans to conduct several assessments during the IPY period, 
including the Arctic Marine Shipping Assessment, an assessment of the 
Arctic carbon cycle, and others. NOAA will provide expertise and 
financial support within available resources. NOAA expects to 
contribute to the Arctic Council climate-related assessment tasks 
during IPY.
Other Activities
Ice Services
    The National Ice Center (NIC) is a U.S. Government agency that 
brings together elements from NOAA, the U.S. Navy, and the U.S. Coast 
Guard to support coastal and marine sea ice operations and research 
globally. The mission of the NIC is to provide the highest quality 
strategic and tactical ice services tailored to meet operational 
requirements of U.S. national interests. Over the Arctic, particularly, 
the NIC provides operational strategic basin-scale sea ice charting. 
The NIC products include a hemispheric and over 30 individual regional 
charts, sea ice tactical ice navigation support, Chukchi Sea and 
Beaufort Sea ice seasonal forecasts. In addition, the NIC supports the 
development of sea ice climatology for the Arctic, and manages the U.S. 
Interagency Arctic Buoy Program (USIABP). The NIC is participating 
directly or indirectly in an increased number of research and 
application cooperative projects with other national and international 
groups as part of IPY activities throughout 2007 and 2008.
Snow and Ice Data
    NOAA's National Data Centers handle a wide variety of Arctic data. 
An affiliated data center, the National Snow and Ice Data Center 
(NSIDC), part of the Cooperative Institute for Research in 
Environmental Sciences (CIRES) at the University of Colorado, Boulder, 
has a NOAA NESDIS supported program (http://nsidc.org/noaa/) to produce 
and manage selected datasets. Significant datasets are the Online 
Glacier Photograph Collection of over 3,000 photographs dating to the 
late 1800s; upward looking sonar data from submarines, providing 
estimates of sea ice thickness; and the Sea Ice Index, a site that 
shows, with graphical products, trends and anomalies in sea ice cover. 
Overall, the NOAA team at the NSIDC emphasizes data rescue and in situ 
data. This emphasis helps collect and maintain the long-time series 
with broad spatial coverage that is necessary to track and attribute 
Arctic change. The program complements the activities of the 
Distributed Active Archive Center, a NASA funded center at NSIDC that 
supports the bulk of NSIDC's activities.
Education
    NOAA's Climate Program Office is leading a NOAA-wide effort with 
respect to the IPY. The Climate Literacy Working Group, based at the 
Climate Program Office, is coordinating NOAA-wide IPY education and 
outreach activities with the NOAA Office of Education. The NOAA IPY 
effort is part of the NSF-led interagency IPY education effort, and 
will collaborate and coordinate their efforts with agencies 
participating in the IPY. Several formal and informal education 
initiatives are focusing primarily on teacher professional and science 
center or museum exhibitions. In addition, several formal lesson plans 
will be developed as part of our IPY efforts.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                        Vice Admiral Robert Papp
    Question 1. How much would it cost and how long would it take to 
replace the POLAR STAR and POLAR SEA?
    Answer. Initial estimates to replace the POLAR STAR and POLAR SEA 
are $600 to $700 million per vessel (2006 dollars). A more accurate 
assessment of resource needs will be required after the capability and 
initial design requirements are completed during the major acquisition 
process.
    Once funds are appropriated for a polar icebreaker major 
acquisition, it will take approximately 8 to 10 years to complete 
construction of the polar icebreakers and have them ready to support 
polar operations.

    Question 2. Can we expect funding in the Fiscal Year 2008 budget 
request to begin the process of replacing these two icebreakers? If 
not, why not?
    Answer. No. Although the recently released National Research 
Council's (NRC) report ``Polar Icebreakers in a Changing World: An 
Assessment of U.S. Needs'' recommended the ``United States immediately 
program, budget, design, and construct two new polar icebreakers to be 
operated by the Coast Guard,'' the Coast Guard is seeking an updated 
national policy on icebreaking before the service begins the 
acquisition. The Coast Guard is in the process of requesting a revised 
national policy from the National Security Council (NSC), and will be 
poised to start the acquisition if the Administration identifies the 
Coast Guard as the best Agency to continue providing national 
icebreaking services.

    Question 3. Does the Administration and Coast Guard have a plan for 
how the United States is going to meet our immediate icebreaker needs 
until the POLAR STAR and POLAR SEA can be replaced?
    Answer. Provided a national policy decision is made that identifies 
the Coast Guard as the lead agency for icebreaking operations, it will 
take approximately 8-10 years to complete a major acquisition to 
replace POLAR SEA and POLAR STAR.
    In the interim, provided NSF will adequately fund, the Coast Guard 
will:

        1. Continue sustainment maintenance work on POLAR SEA to gain 
        additional years of service-life.

        2. Recommend completing sustainment maintenance on POLAR STAR 
        similar to what has been completed on POLAR SEA. Over a 2 to 3 
        year period, this would likely require $25 to $30 million 
        additional funds but would extend the life of POLAR STAR by 4-8 
        years, and effectively restore the U.S. polar icebreaker fleet 
        to three vessels. This would reduce operational risk to the 
        U.S. Antarctic Program and would eliminate NSF's need to rely 
        on foreign icebreakers.

        3. Investigate increasing HEALY's annual operating days. HEALY 
        currently operates at a Coast Guard standard 185 days away from 
        homeport each year with one crew. The Coast Guard is 
        investigating crewing options and resource requirements to 
        increase the annual use of HEALY in the Arctic.

    Question 4. What does the Coast Guard recommend as a strategy to 
fill our gaps in capacity during this transition period?
    Answer. If a national policy decision were to be made that 
identifies the Coast Guard as the lead agency for icebreaking 
operations, it will take approximately 8-10 years to complete a major 
acquisition to replace POLAR SEA and POLAR STAR.
    If the Coast Guard is identified as the lead agency, then along 
with continuing sustainment maintenance work on POLAR SEA, the Coast 
Guard would also recommend:

        1. Completing sustainment maintenance on POLAR STAR similar to 
        what has been completed on POLAR SEA. Over a 2 to 3 year 
        period, this would likely require $25 to $30 million additional 
        funds, but would extend the life of POLAR STAR by 4-8 years, 
        and effectively restore the U.S. polar icebreaker fleet to 
        three vessels. This would reduce operational risk to the U.S. 
        Antarctic Program and would eliminate NSF's need to rely on 
        foreign icebreakers.

        2. Increasing HEALY's annual operating days. HEALY currently 
        operates at a Coast Guard standard 185 days away from homeport 
        each year with one crew. The Coast Guard is investigating 
        crewing options and resource requirements to increase the 
        annual use of HEALY in the Arctic.

        3. Restoring budget authority for polar icebreakers to the 
        Coast Guard and funding the program to sufficiently support 
        three polar icebreakers.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                        Vice Admiral Robert Papp
    Question 1. Has funding been adequate to maintain all three of the 
Coast Guard's icebreakers?
    Answer. No. In order to fully support the HEALY and POLAR SEA's 
operations and maintenance needs, the National Science Foundation (NSF) 
decided to place POLAR STAR ``In Commission, Special'' caretaker 
status.

    Question 2. How is the Coast Guard going to carry out its polar 
icebreaking mission now and in the future, given the state of the two 
polar icebreakers?
    Answer. Given that appropriations for polar icebreaking operations 
were transferred to the National Science Foundation (NSF) in FY06, and 
the NSF now pays the Coast Guard to operate and maintain the polar 
icebreaking fleet, all missions are executed only after close 
coordination between the NSF and Coast Guard.
    To help preserve the Coast Guard's ability to be the sole U.S. 
provider of polar icebreaking services, POLAR SEA recently completed 
nearly 2 years of sustainment maintenance which should extend its 
service life by approximately 4-8 years, depending on ice conditions 
and annual use.
    Historically, POLAR SEA and POLAR STAR would alternate Deep Freeze 
missions due to the arduous nature of the ice conditions encountered, 
and to allow a backup in case the primary vessel broke down. This 
practice aligns with the 1990 Presidential Determination on polar 
icebreakers, which the Coast Guard still considers to be sound policy.
    With the POLAR STAR in caretaker status, the National Science 
Foundation (NSF) plans to use foreign icebreakers to provide 
contingency capability in the Antarctic, and therefore is willing to 
accept a higher level of risk to the mission. To reengage POLAR STAR 
for an extended period of time, it would require approximately 2 years 
of sustainment maintenance similar to what POLAR SEA recently 
completed.
    HEALY was commissioned in 1999, and is operating well. The Coast 
Guard is studying options to increase HEALY's annual Days Away from 
Homeport (DAFHP) from the service-standard 185 to up to 300 days per 
year to accommodate national polar research demands.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                        Vice Admiral Robert Papp
    Question 1. In their recent report ``Polar Icebreakers in a 
Changing World: An Assessment of U.S. Needs,'' The National Academy of 
Sciences concludes that with repair work deferred due to inadequate 
funding ``U.S. icebreaking capability is now at risk of being unable to 
support national interests in the north and south.'' Does this 
assessment fit with the Coast Guard's view of current icebreaking 
operations? If so, what is the level of resources necessary in order to 
ensure adequate icebreaking capacity?
    Answer. Yes. By putting the POLAR STAR in caretaker status, the 
National Science Foundation (NSF) has accepted a higher level of risk 
to the U.S. Antarctic Program resupply effort.
    To maintain an acceptable level of risk, two heavy icebreakers are 
needed for the McMurdo icebreaker mission. Rather than keep POLAR STAR 
in service, NSF has opted to contract with foreign icebreakers to 
backup POLAR SEA. In 2005 and 2006, NSF contracted the Russian 
icebreaker KRASIN, and NSF has contracted the Swedish icebreaker ODEN 
for 2007. Not only are these icebreakers less capable than POLAR STAR, 
they are also subject to being reprioritized by their company or 
country to support non-U.S. missions.
    In the long-term, three properly configured U.S. polar icebreakers 
would be sufficient to support the annual U.S. Antarctic Program 
resupply effort and maintain a continuous presence in the Arctic. To 
further meet the needs of the polar research community the Coast Guard 
is investigating options to increase HEALY operational days from 185 to 
300 days per year. A fleet mix analysis is necessary, but additional 
ice-strengthened vessels may also be required to preserve future 
national interests in the Arctic.

    Question 2. The POLAR SEA and the POLAR STAR are nearing the end of 
their thirty-year design lives. The National Academy of Sciences 
recommends that the Coast Guard ``immediately program, budget, design, 
and construct two new polar icebreakers to be operated by the U.S. 
Coast Guard'' to replace these aging assets. Do you agree with this 
recommendation?
    Answer. A national policy decision by the Administration would have 
to identify the Coast Guard as the primary national service provider 
for icebreaking before the service would commence a major acquisition 
project to replace POLAR SEA and POLAR STAR.

    Question 3. Has the Coast Guard begun to take steps to plan for the 
long-term replacement or recapitalization of these unique assets, and 
if so, could you please describe these steps for me?
    Answer. Yes, to prepare for the Administration's revised national 
policy decision, the Coast Guard has completed some preliminary steps 
to support long-term replacement or recapitalization. In 2005, the 
Coast Guard completed a mission analysis study and funded the National 
Research Council's assessment of polar icebreaker needs in 2006. In 
addition, the Coast Guard has completed some preliminary analysis on 
Service Life Extension Project (SLEP) options for the POLAR SEA and 
POLAR STAR. However, a national policy decision by the Administration 
would have to identify the Coast Guard as the primary national service 
provider for icebreaking before the service would commence a major 
acquisition project to replace POLAR SEA and POLAR STAR.

    Question 4. As you know, the Administration is again proposing that 
funding for the Coast Guard's polar icebreaker fleet be routed through 
the National Science Foundation (NSF), despite recommendations by the 
National Research Council (NRC) that the Coast Guard should be budgeted 
funds to maintain the fleet. Admiral, has this arrangement worked to 
the satisfaction of the Coast Guard?
    What steps will the Coast Guard take this year to ensure transfer 
of funds from NSF in a timely fashion?
    Answer. In the short-term, this arrangement has worked, since it 
has isolated the polar icebreaker budget from other Coast Guard 
programs.
    In the long-term, NSF and several of their Congressional staffs 
have stated that if the polar icebreaker budget authority remains with 
NSF, then NSF should only be required to support NSF's mandates; not 
all USCG mandates that pertain to use of the polar icebreakers (i.e. 
Enforcement of Laws & Treaties, Search & Rescue, or Pollution 
response). Since the frequency and importance of other USCG missions 
are expected to expand in the Arctic and Antarctic, continued funding 
through NSF could become more problematic. In addition, NSF has stated 
that they prefer to contract polar icebreaker services. The Coast Guard 
has already seen NSF reprioritize polar icebreaker funds to contract 
for foreign icebreakers to support the U.S. Antarctic Program. Use of 
foreign icebreakers weakens the U.S. polar icebreaker program and 
diminishes our ability to project power and influence into the polar 
regions at a time of growing interest, especially in the Arctic. The 
NRC report, and the 1990 Presidential Determination on U.S. polar 
icebreaker requirements, state that national sovereignty and projection 
of power and influence are key aspects of the U.S. polar icebreaker 
program.
    For Fiscal Year 2007, the Coast Guard has submitted a spend plan to 
NSF requesting $57 million. NSF is currently reviewing the spend plan. 
Even though the spend plan is still being negotiated, NSF has given the 
Coast Guard authority to spend $20 million during the first quarter of 
FY07 while NSF operates under a continuing resolution.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                        Dr. Arden L. Bement, Jr.
    Question 1. The IPY envisions establishment of polar observing 
equipment and monitoring systems that will eventually need to be taken 
over and maintained after the close of the IPY, beginning in 2009.
    What kind of fiscal burden will taking over these systems place on 
NOAA?
    Answer. NSF is aware that NOAA received the same question and they 
are the lead agency to address this issue.

    Question 2. To the best of your knowledge, what other Federal 
agencies will be responsible for maintaining post-IPY observing and 
monitoring activities?
    Answer. NOAA is already supporting important components of the 
system, particularly in establishing climate reference stations working 
with Canadian and Russian counterparts. NOAA is also supporting key 
observations in the Bering Strait. It is critically important that NOAA 
support these activities beyond IPY. NASA will provide access to 
critical remote sensing synoptic observations from satellites (also 
with NOAA) during and beyond IPY. Continued support of DOE measurement 
programs in Alaska is also important, as is a continuation of important 
DOI (USGS) river discharge measurements. The U.S. Coast Guard, which 
operates the Nation's fleet of polar icebreaking ships, has requested 
that NOAA identify the polar icebreaker support required for 
maintaining polar observing systems.

    Question 3. What will happen to the scientific knowledge gained 
through polar monitoring and research if we do not have resources to 
continue monitoring during and after IPY?
    Answer. Science results will be published and basic data will be 
archived in National Data Centers. However, the core issues and 
questions related to the changing Arctic cannot be resolved in such a 
short time window as the IPY. Fundamentally, the rationale for an 
Arctic Observing Network (AON) is for observations on decadal time 
scales.

    Question 4. The U.S. Antarctic Marine Living Resources (AMLR) 
program, managed by the National Marine Fisheries Service (NMFS), 
supports international efforts to protect the Antarctic and its marine 
life through the Commission for Conservation of Antarctic Marine Living 
Resources (CCAMLR). CCAMLR has planned a Southern Ocean synoptic 
predator-prey study, formally recognized and designated as IPY's lead 
project for the topic ``Natural Resources, Antarctic.'' At one point, 
AMLR was prepared to offer ship time to the project.
    At this time, what resources does the AMLR Program plan on 
dedicating to IPY-related activities?

    Question 5. Is that level sufficient to fulfill U.S. commitments in 
support of CCAMLR?

    Question 6. Is the level of participation the U.S. is currently 
envisioning to dedicate through AMLR to this project likely to 
compromise CCAMLR's ability to participate meaningfully in the IPY?
    Answer to Questions 4-6. NSF is aware that NOAA received the same 
three questions about its programs. They are the lead agency to address 
these issues.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                        Dr. Arden L. Bement, Jr.
    Question. What steps will NSF take to ensure that funds for the 
polar icebreaker fleet are transferred to the Coast Guard in a timely 
fashion so that maintenance will not be delayed or compromised?
    Answer. As outlined in the MOA between NSF and USCG, NSF annually 
tasks the USCG polar icebreakers. USCG submits a corresponding budget. 
NSF and USCG negotiate the budget and, once agreement is reached, NSF 
approves the budget. NSF issues a Letter of Intent to USCG for the 
approved budget, and reimburses USCG as expenses are incurred for 
approved tasking. In cases where NSF is operating under a Continuing 
Resolution, and, therefore, funds are limited (as has been the case for 
the two years that NSF has had fiscal responsibility for the polar 
icebreaker program), USCG submits its cash-flow requirements to NSF. 
This document outlines the funds required on a monthly basis for 
personnel, operations, and maintenance contracts. Provided NSF has 
sufficient spending authority under the Continuing Resolution, NSF 
reimburses USCG on a monthly basis. The working relationship between 
USCG and NSF officials responsible for managing the MOA appears to be 
effective.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                        Dr. Arden L. Bement, Jr.
    Question 1. Why has the NSF spent appropriated funds for chartering 
foreign vessels, rather than for operations and maintenance of the 
Coast Guard's fleet of icebreakers?
    Answer. Resupply of the McMurdo and South Pole Stations, as well as 
temporary remote field stations in Antarctica, is necessary to meet 
both research and longstanding U.S. geopolitical policy goals. It 
depends on gaining access to the McMurdo pier through the sea ice in 
McMurdo Sound. In most previous years, the channel was opened by one 
U.S. Coast Guard Polar Class vessel (either the POLAR STAR or the POLAR 
SEA), but more recently two icebreaking vessels have been needed due to 
extreme ice conditions and concerns about the reliability of the aging 
polar icebreakers.
    NSF has made significant investments in maintenance of the USCG 
polar icebreakers. Thus, the POLAR SEA is ready for duty and will be 
used for the upcoming Antarctic break-in. However, USCG has recommended 
that a backup vessel be available, and there is no U.S. icebreaker 
capable of providing this assistance. NSF has therefore concluded a 
charter for the Swedish icebreaker ODEN as back-up for the POLAR SEA 
this December and January.
    In addition, Presidential Memorandum 6646, as well as guidance from 
Congressional appropriations committees, directs NSF to find the most 
cost-effective, reliable means of achieving the national goals of the 
U.S. Antarctic Program.

    Question 2. The Bush Administration has already established a 
record of censoring scientists with whom it disagrees on global 
warming. How will you both ensure that the research for the 
International Polar Year is selected, and conducted, without 
interference from the White House?
    Answer. The Administration values science as a basis for effective 
action in its service to the public, and regards the timely, complete, 
and accurate communication of scientific information an important part 
of that service. Administration guidance has required Federal agencies 
to develop, revise, or re-emphasize policies related to scientific 
openness, and to ensure that employees and management understand their 
rights and obligations under these policies.
    Specific to NSF, the Foundation will determine which proposals to 
fund by asking expert independent scientists, identified by cognizant 
NSF staff, to assess the proposals' merits against the standard NSF 
merit review criteria (intellectual merit; broader impacts) and the 
guidelines established by the National Academies of Science National 
Research Council. The latter guidelines were published in the NAS/NRC 
document, ``A Vision for the International Polar Year 2007-2008.''
    As with all other projects selected and supported by NSF, NSF does 
not interfere with grantees' conduct of their research, other than to 
monitor it to insure that it is being conducted as proposed. NSF does 
not have its own research laboratories; and, therefore, the proposed 
projects will come from independent scientists and engineers who are 
not government scientists: but are from academic institutions.

    Question 3. What assurances can you give us that the results of the 
U.S. research will be communicated freely and clearly by U.S. 
scientists, even if they conflict with the views of the White House and 
the oil and automobile industries?
    Answer. Since NSF does not have its own research laboratories, the 
scientists and engineers we support are typicay members of 
universities, colleges, and independent laboratories, not government 
employees. NSF expects all grantees to publish their research results 
in the open literature so that all research and education communities 
have access to the data. NSF does not involve itself in the preparation 
of the manuscripts. Scientists seeking support from NSF are evaluated 
by their peers on the quality of the publications from prior support. 
Therefore. to a large degree, the scientific community enforces open 
publication of NSF-funded research.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                          Robin E. Bell, Ph.D.
    Question 1. I am concerned about the recent reports that global 
warming is rapidly affecting the ocean's chemistry--making it more 
acidic. Will our U.S. research effort include monitoring ocean 
chemistry and its potential impacts on the food chain? Do we have any 
sense of how bad things are already, or when we are likely to see the 
impacts of acidification?
    Answer. The topic of how global warming may affect the ocean's 
chemistry, making it more acidic, is an important one. Among the 
projects being proposed as part of International Polar Year are 
activities that would include collection of sea water and measurement 
of sea water carbon parameters. At this time, it is not yet known which 
actual projects will be funded, either here or by other nations.
    It is known that CO<INF>2</INF> from the atmosphere dissolves and 
forms an acid in seawater. In the past 200 years, the oceans have 
absorbed about half of the CO<INF>2</INF> produced by humans. As 
seawater becomes more acidic, the capacity of the ocean to absorb 
CO<INF>2</INF> will decrease. One program, called the SEARCH program 
(Study of ARctic Environmental CHange), intends to make these kinds of 
measurements as part of the planned Arctic Observatory Network. Until 
relatively recently, although studied by a small number of 
oceanographers, ocean acidification has not been a critical national 
concern, but the topic is moving onto the national agenda (e.g., it is 
the subject of an article in November, in New Yorker magazine, as well 
as recent Science and Nature papers and recent national and 
international conferences). Oceans have a high capacity to buffer the 
effects of additional carbon, but current research is suggesting that 
the levels of anthropogenic CO<INF>2</INF> input are so high that the 
ocean has already become measurably more acidic. A more acidic ocean 
inhibits the formation of calcium carbonate skeletons which form the 
shells of many marine organisms, including corals and several key 
planktonic species, including coccolithophores, a microcellular marine 
algae common in subpolar regions.

    Question 2. How does climate change or ocean warming affect the 
ability of krill to resist over-harvesting? How much more vulnerable 
does it make them? How much would a sharp decline in krill populations 
affect other species and the food chain?
    Answer. More than acidity, krill will be impacted by warming ocean 
temperatures. Studies along the Western Antarctic Peninsula have 
discovered that during low winter sea-ice years the plankton is 
dominated by salps instead of krill. This is because krill heavily 
depend on sea-algae as their food source. Krill, similar to other 
marine organisms, are adapted to live in a limited range of pH, so any 
extreme change in ocean acidity will affect these organisms. Krill and 
copepods are key members of the marine food chain, so changes in their 
populations can be expected to have potentially large impacts through 
the ecosystems. Along the Antarctic coast, krill is the primary food 
source for penguins, and many marine mammal species and a sharp decline 
in krill's abundance would severely impact their populations. Potential 
impacts on marine organisms directly relying on calcification, such as 
those that make up commercial crustacean fisheries (shrimp, crab) and 
mollusk fisheries (bivalves, gastropods) may be of economic concern in 
the future.
    The concern about increasing ocean acidity is one of the research 
areas mentioned in the draft Ocean Research Priorities Plan prepared by 
the Joint Subcommittee on Ocean Science and Technology under the 
National Science and Technology Council. Generally, this is an emerging 
area of concern that has yet to be thoroughly studied. The National 
Academies is currently considering developing a study on this topic.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                                  NOAA
    Question 1. The IPY envisions establishment of polar observing 
equipment and monitoring systems which will eventually need to be taken 
over and maintained after the close of the IPY, beginning in 2009.
    What kind of fiscal burden will taking over these systems place on 
NOAA?
    Answer. NOAA is making use of existing resources to conduct IPY 
work, so continuing support for polar observations would be provided 
through the President's budget without any additional fiscal burden.
    In addition to other NOAA exploration, prediction, modeling, data, 
outreach, and decision support IPY projects, the President's Fiscal 
Year 2007 Budget Request includes funding for the following four polar 
observation-specific projects:

------------------------------------------------------------------------
                                                         Pres Bud Fiscal
                        Project                             Year 2007
------------------------------------------------------------------------
Causes and Impacts of Recent Changes in Pacific Arctic        $3,650,000
Polar Atmospheric Observatories and Field Campaigns           $2,675,000
Polar Stratospheric Ozone Depletion Observations          included above
Antarctic Living Marine Resource Survey                       $1,467,000
                                                       -----------------
    Total                                                     $7,792,000
------------------------------------------------------------------------

    Question 1a. To the best of your knowledge, what other Federal 
agencies will be responsible for maintaining post-IPY observing and 
monitoring activities?
    Answer. The Office of Science and Technology Policy assigned the 
National Science Foundation the leadership role for coordinating 
interagency IPY activities.
    In Fiscal Year 2007, a new Arctic observatory in Eureka, Canada, 
will operate during the IPY, and the observatory in Tiksi, Russia, will 
be partially operational. Post-IPY, Canada will maintain and operate 
the Eureka Observatory and NOAA will conduct measurements. At the site 
in Tiksi, the National Science Foundation is contributing substantially 
to the development of the infrastructure, and NOAA will assist in 
providing instrumentation. Post-IPY, NOAA will maintain the Tiksi 
Observatory as one of our Arctic Observation Network systems.
    NOAA's existing baseline observatories at Barrow, Alaska, and the 
South Pole will continue to focus on measurements of trace gases and 
aerosols during IPY.

    Question 1b. What will happen to the scientific knowledge gained 
through polar monitoring and research if we do not have resources to 
continue monitoring during and after IPY?
    Answer. NOAA will be archiving NOAA datasets during IPY to ensure 
that the scientific knowledge gained through polar monitoring and 
research during IPY is available to benefit future polar research and 
management. It is important that the Nation continue polar monitoring 
after IPY to observe and understand the changing Arctic in the years to 
come.

    Question 2. The U.S. Antarctic Marine Living Resources (AMLR) 
Program, managed by the National Marine Fisheries Service (NMFS), 
supports international efforts to protect the Antarctic and its marine 
life through the Commission for the Conservation of Antarctic Living 
Marine Resources (CCAMLR). CCAMLR has planned a Southern Ocean synoptic 
predator-prey study, formally recognized and designated as IPY's lead 
project for the topic ``Natural Resources, Antarctic.'' At one point 
AMLR was prepared to offer ship time to the project. At this time, what 
resources does the AMLR Program plan on dedicating to IPYrelated 
activities?
    Answer. The International Polar Year (IPY) actually runs from March 
2007 through March 2009 (two years; to ensure that researchers get the 
opportunity to work in both polar regions or work summer and winter if 
they wish). The Antarctic Marine Living Resources (AMLR) Program had 
indicated an interest in supplying ship time and scientific expertise 
to CCAMLR's survey starting in January 2008. However, the AMLR 
Program's participation in Fiscal Year 2008 IPY-related activities is 
contingent upon the availability of an ice-strengthened research vessel 
with appropriate endurance.
    NOAA only needs a 35-day cruise in 2008 to fulfill U.S. 
requirements under CCAMLR. However, it is not clear that NOAA will be 
able to lease the same vessel as in the past for such a short cruise. 
NOAA is reviewing options should this ship become unavailable.
    In Fiscal Year 2008, NOAA will evaluate all options for continuing 
ship-based research that would enable the AMLR to contribute to 
CCAMLR's IPY-related research activities in the Southern Ocean.

    Question 2a. Is that level sufficient to fulfill US. commitments in 
support of CCAMLR?
    Answer. A 35-day cruise would be sufficient to fulfill U.S. 
commitments in support of CCAMLR.

    Question 2b. Is the level of participation the U.S. is currently 
envisioning to dedicate through AMLR to this project likely to 
compromise CCAMLR's ability to participate meaningfully in the IPY?
    Answer. NOAA will evaluate all options for continuing ship-based 
research that would enable the AMLR to contribute to CCAMLR's IPY-
related research activities. If AMLR is unable to secure an appropriate 
vessel to conduct the survey, it will compromise CCAMLR's ability to 
participate in the IPY synoptic survey.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                            Mead Treadwell *
    Question. The National Research Council (NRC) of the National 
Academy of Sciences recently released their final report assessing 
polar icebreaker roles and needs. The report recommends that the United 
States replace the two older vessels, the POLAR STAR and POLAR SEA, 
while maintaining and repairing the POLAR SEA and keeping the POLAR 
STAR in caretaker status during the transition period.

  <bullet> Do you support the NRC's recommendations?

  <bullet> If the recommendation pertaining to icebreaker capabilities 
        were implemented would that level of icebreaker capacity be 
        sufficient to meet the needs of the U.S. Arctic Research 
        Program?
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Mead Treadwell *
---------------------------------------------------------------------------
    * Reponse was not available at the time this hearing went to press.
---------------------------------------------------------------------------
    Question 1. How important are the Coast Guard's icebreakers as a 
platform for scientific research during the International Polar Year 
and beyond? Do you support the National Research Council's 
recommendation to ensure long-term U.S. polar icebreaking capability?

    Question 2. The Bush Administration has already established a 
record of censoring scientists with whom it disagrees on global 
warming. How will you both ensure that the research for the 
International Polar Year is selected and conducted without political 
interference from the White House?

    Question 3. What assurances can you give us that the results of the 
U.S. research will be communicated freely and clearly by U.S. 
scientists, even if they conflict with the views of the White House and 
the oil and automobile industries?
                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
       Dr. Thomas Armstrong and Dr. Virgil L. ``Buck'' Sharpton *
    Question 1. I am concerned about the recent reports that global 
warming is rapidly affecting the ocean's chemistry--making it more 
acidic. Will our U.S. research effort include monitoring ocean 
chemistry and its potential impacts on the food chain? Do we have any 
sense of how bad things are already, or when we are likely to see the 
impacts of acidification?

    Question 2. How does climate change or ocean warming affect the 
ability of krill to resist over-harvesting? How much more vulnerable 
does it make them? How much would a sharp decline in krill populations 
affect other species and the food chain?

                                  <all>

</pre></body></html>
